APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(July 16, 2020) . . . . . . . . . . . . . . . . . . 1a
Appendix B Judgment in the United States Court
of Appeals for the Fifth Circuit
(July 16, 2020) . . . . . . . . . . . . . . . . . 28a
Appendix C Order in the United States District
Court Southern District of Texas
Houston Division
(May 17, 2019) . . . . . . . . . . . . . . . . . 30a
Appendix D Final Judgment in the United States
District Court Southern District of
Texas Houston Division
(May 22, 2019) . . . . . . . . . . . . . . . . . 60a
Appendix E Final Award, Vantage v. Petrobras,
ICDR Case No. 01-15-0004-8503
(June 29, 2018) . . . . . . . . . . . . . . . . . 63a
Appendix F Arbitrator James M. Gaitis’ Objection
to, and Dissent from, the Tribunal
Majority’s Final Award, Vantage v.
Petrobras, ICDR Case No. 01-15-0004-8503
(June 28, 2018) . . . . . . . . . . . . . . . . 307a
Appendix G Order Denying Petition for Rehearing
and Rehearing En Banc in the United
States Court of Appeals for the Fifth Circuit
(August 28, 2020) . . . . . . . . . . . . . . 309a

1a

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-20435
[Filed: July 16, 2020]
_____________________________________________
VANTAGE DEEPWATER COMPANY;
)
VANTAGE DEEPWATER DRILLING,
)
INCORPORATED,
)
)
Plaintiffs - Appellees
)
)
v.
)
)
PETROBRAS AMERICA, INCORPORATED;
)
PETROBRAS VENEZUELA
)
INVESTMENTS & SERVICES B.V.;
)
PETROLEO BRASILEIRO S.A.)
PETROBRAS,
)
)
Defendants - Appellants
)
_____________________________________________)
Appeal from the United States District Court
for the Southern District of Texas
Before SOUTHWICK, COSTA, and DUNCAN, Circuit
Judges.
LESLIE H. SOUTHWICK, Circuit Judge:

2a
This is an appeal of a district court’s order
confirming a $622 million arbitration award. The
defendants argue that, because public policy precludes
enforcing the award, it should have been vacated. The
defendants also argue that the district court erred in
denying the defendants’ discovery motions.
We AFFIRM.
FACTUAL AND PROCEDURAL BACKGROUND
The parties in this case are oil and gas companies,
incorporated and based in different countries. Vantage
Deepwater Company is a Cayman Islands company;
Vantage Deepwater Drilling, Inc., is a Delaware
corporation with its principal place of business in Texas
(collectively, “Vantage”). Vantage operates a fleet of oil
rigs. Petrobras Venezuela Investments & Services B.V.
is a Dutch company; Petrobras America Inc. is a
Delaware corporation; and Petróleo Brasileiro S.A. –
Petrobras is a Brazilian company (the three
collectively, “Petrobras”).
In 2007, Petrobras had not listed Vantage as an
approved drilling service contractor. In exchange for
help procuring drilling-services contracts, Vantage’s
largest shareholder and board member Nobu Su, also
known as Hsin-Chi-Su, agreed to pay approximately
$30 million in bribes, distributed as kickbacks to three
individuals: Jorge Zelada, Eduardo Musa, and
Hamylton Pinheiro Padilha, Jr. By 2016, a Brazilian
criminal investigation revealed the bribery was part of
a larger scheme dubbed Lava Jato (Operation
Carwash). Zelada, Musa, and Padilha were convicted of
crimes arising from the scheme in Brazil. Su and

3a
Vantage’s former CEO, Paul Bragg, also were indicted
in Brazil, but briefing states they have not returned to
that country. Vantage told United States regulators in
2017 that it had discovered some evidence that its
then-CEO Bragg and then–board member John
O’Leary were at least willfully blind to Padilha and
Su’s bribery. In 2018, the United States Department of
Justice entered a non-prosecution agreement with
Petrobras relating to the fraud. The Justice
Department stated that multiple Petrobras individuals
had received bribes to assist Vantage in winning the
drilling contract with Petrobras.
In 2009, Vantage Deepwater Company and
Petrobras Venezuela executed the Agreement for the
Provision of Drilling Services (“DSA”). Under the DSA,
Vantage would perform offshore drilling services for
Petrobras for an eight-year term. Also in 2009, Petróleo
Brasileiro executed a Form of Payment and
Performance Guaranty, in which it “unconditionally,
absolutely and irrevocably guarantee[d]” Petrobras
Venezuela’s obligations under the DSA. To fulfill
Vantage’s obligations, Vantage’s parent company
purchased an ultra–deepwater oil rig called the
Titanium Explorer for over $948 million. The DSA’s
eight-year term began in December 2012.
In August 2013, a Brazilian magazine published an
article claiming that a Vantage shareholder had paid
$14.5 million to João Augusto Henriques, a lobbyist for
the Brazilian Democratic Movement Party, to secure a
drilling contract with Petrobras. Petrobras then
conducted an internal investigation into the
allegations. The investigatory report recorded attempts

4a
to interview Henriques, but in the end, the report could
not “prove the veracity” of the bribery allegations. The
report acknowledged, however, that “Petrobras’s good
practices ceased to be observed” and that there were
“deficiencies in the process of contracting.” The report
suggested submitting the report to Brazilian
prosecutors. The report also found that the DSA was
“at market value.” A few months later, the parties
executed the Second Novation and Third Amendment,
in which they reaffirmed that the DSA was binding.
About two years into the DSA’s term, in October
2014, Vantage and Petrobras executed the Third
Novation and Amendment Agreement. It was this
agreement that included an arbitration clause, which
provided that any disputes arising out of the DSA as
amended by the Third Novation would be “exclusively
and finally resolve[d]” through arbitration conducted by
the International Center for Dispute Resolution of the
American Arbitration Association (“AAA”) in Houston,
Texas. Vantage and Petrobras agreed that the
arbitrators would have the “power to rule on objections
concerning jurisdiction, including the existence or
validity of [the] arbitration clause and existence or the
validity of” the DSA. The Third Novation also stated
that “[t]he parties waive irrevocably their right to any
form of appeal, review or recourse to any court or other
judicial authority, to the extent that such waiver may
be validly made.”
The DSA prohibited terminating the contract for
convenience but allowed termination if Vantage
materially breached or failed to provide its services. In
August 2015, several years before the end of the DSA’s

5a
term, Petrobras terminated the DSA. Immediately
thereafter, Vantage demanded arbitration pursuant to
the Third Novation, claiming over $450 million in
expectancy damages and over $800 million in reliance
damages. The asserted expectancy damages were based
on lost profit calculations, and the asserted reliance
damages were primarily based on Vantage’s incurring
debt to acquire the Titanium Explorer.
Petrobras responded by arguing it had terminated
the DSA for operational reasons because Vantage
materially breached the contract. Petrobras also
argued that the DSA was procured through bribery and
corruption, making the agreement invalid. Petrobras
claims it first had actual knowledge of the bribery only
in 2015, after Padilha pled guilty to his role in the
scheme in a Brazilian court. Vantage claims that
Petrobras actually had knowledge after the magazine
article was published in 2013, and that Petrobras
ratified the DSA when it agreed to the Third Novation.
Throughout 2016, the parties and the arbitration
tribunal, once it was selected, addressed a variety of
procedural issues. The tribunal consisted of three
arbitrators. After Vantage’s first pick, David Keltner,
was removed due to a conflict of interest, Vantage
appointed Charles N. Brower, who is a judge on the
Iran–United States Claims Tribunal, an international
arbitral tribunal. Petrobras appointed Mr. James
Gaitis. Keltner and Gaitis selected as chairman
Professor William Park of Boston University.
The tribunal held evidentiary hearings between
May 16 and June 1, 2017. On June 7, Petrobras moved
the AAA to disqualify and remove Judge Brower.

6a
Petrobras gave four reasons to support its motion.
First, Petrobras asserted that Brower appeared partial
because he “continuously made inappropriate, off-therecord comments under his breath while [Petrobras’s]
witnesses were being cross-examined, and while
[Petrobras’s] counsel cross-examined [Vantage’s]
witnesses.” Second, Petrobras asserted that Brower
continually and “improperly advocated” for Vantage
including by cross-examining one of Petrobras’s fact
witnesses for nearly two hours. Third, Petrobras
asserted that during the hearing Brower incorrectly
summarized the direct evidence of bribery, which must
have been because he was either “intentionally
ignoring other evidence” or “intentionally misstating
the evidence related to bribery and corruption.” Last,
Petrobras asserted that Brower frequently dozed off
during the hearing, indicating that he could not
diligently perform his duties.
The AAA spent some time investigating the
assertions of bias. Chairman Park’s billing statement,
for example, showed he communicated with the AAA
for about five and a half hours. The AAA denied the
motion in a sentence.
The final award was issued on June 29, 2018. A
majority of the arbitrators — Chairman Park and
Judge Brower — awarded Vantage over $620 million.
Gaitis wrote a one-paragraph dissent that claimed
unfairness in the proceedings:
I object to, and I dissent from, the tribunal
majority’s Final Award. This Objection and
Dissent is based not only on my differing
conclusions regarding the merits of the parties’

7a
dispute, but also on my belief and conclusion
that the prehearing, hearing, and posthearing
processes that led to the issuance of the Final
Award have denied [Petrobras] in this
proceeding the fundamental fairness and due
process protections meant to be provided to
arbitrating parties by Sections 10(a)(1), 10(a)(2),
10(a)(3), 10(a)(4), and Chapters 2 and 3 of the
Federal Arbitration Act, 9 U.S.C. § 1, et seq.
In July 2018, Vantage filed a petition to confirm the
arbitration award in the United States District Court
for the Southern District of Texas. Petrobras opposed
confirmation and moved the district court to vacate the
award. To support its motion for vacatur, Petrobras
sought leave to depose Gaitis. Petrobras claimed that
the additional testimony would provide a more
complete record on which the district court could
evaluate the arbitral award. After a hearing in
December 2018, the district court denied the motion to
subpoena Gaitis. Two months later, Petrobras moved
for leave to serve a subpoena on the AAA. Petrobras
sought the AAA’s documents in connection with the
challenges to Brower in the arbitration. The district
court also denied that motion.
In May 2019, the district court denied the motion to
vacate and granted Vantage’s petition to confirm the
award. The court entered final judgment and ordered
Petrobras to pay $733,968,000 (the arbitration award
plus interest), and post-judgment interest. Petrobras
appealed.

8a
DISCUSSION
This case implicates Chapter 3 of the Federal
Arbitration Act (“FAA”), 9 U.S.C. §§ 301–307, which
governs nondomestic arbitration awards subject to the
Inter-American Convention on International
Commercial Arbitration of January 30, 1975, T.I.A.S.
No. 90-1027, reprinted following Pub. L. 101-369, 104
Stat. 448 (1990) (the “Panama Convention”). The FAA
requires that a court confirm an arbitration award
unless there is a ground for refusing to enforce the
award as specified in the Panama Convention. 9 U.S.C.
§ 207; see id. § 302 (applying Section 207 to cases
governed by Panama Convention). The Supreme Court
has recognized an “emphatic federal policy in favor of
arbitral dispute resolution.” Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth, Inc., 473 U.S. 614, 631
(1985). “A court may not review the merits of an
[arbitration] award — it must accept the facts found by
the arbitrator and the arbitrator’s interpretation of the
contract and applicable law.” Manville Forest Prods.
Corp. v. United Paperworkers Int’l Union, 831 F.2d 72,
74 (5th Cir. 1987).
We review the district court’s legal determinations
de novo and findings of fact for clear error. Hughes
Training Inc. v. Cook, 254 F.3d 588, 592 (5th Cir.
2001). Review of the underlying arbitral award is
“exceedingly deferential,” though. Petrofac, Inc. v.
DynMcDermott Petroleum Operations Co., 687 F.3d
671, 674 (5th Cir. 2012). Although we “grant
arbitrators considerable leeway when reviewing most
arbitration decisions,” we do not “give extra leeway to

9a
district courts that uphold arbitrators.” First Options
of Chicago, Inc. v. Kaplan, 514 U.S. 938, 948 (1995).
Petrobras argues that public policy precluded
confirming the arbitration award. Petrobras also
argues that the district court’s denial of its discovery
motions led the court to base its confirmation order and
denial of vacatur on an incomplete record. Vacatur is
warranted, Petrobras contends, because the arbitrators
failed to issue a “reasoned award” as to Petróleo
Brasileiro. In addition to responding to Petrobras’s
arguments, Vantage argues that Petrobras waived its
right to appeal. We will start by addressing the appeal
waiver. Because in the end we do not need to decide
that question, we then turn to Petrobras’s claims of
error.
I.

Appeal waiver

A valid appeal waiver does not deprive the court of
jurisdiction; accordingly, if affirming the judgment is a
clearer resolution than deciding the validity of the
appeal waiver, we can affirm. See In re Deepwater
Horizon, 934 F.3d 434, 441 (5th Cir. 2019). The waiver
appears in the Third Novation: “The Parties waive
irrevocably their right to any form of appeal, review or
recourse to any court or other judicial authority, to the
extent that such waiver may be validly made.” Courts
“rigorously enforce arbitration agreements according to
their terms.” American Exp. Co. v. Italian Colors Rest.,
570 U.S. 228, 233 (2013). Contractual clauses must be
“clear and unequivocal,” though, in order to waive a
right. Ensco Int’l, Inc. v. Certain Underwriters at
Lloyd’s, 579 F.3d 442, 443 (5th Cir. 2009) (waiving the
right to removal)

10a
Vantage reasons that because federal and Texas law
enforce appeal waivers, we should enforce the appeal
waiver here. See id.; Bennett v. Comm’n for Lawyer
Discipline, 489 S.W.3d 58, 69 n.1 (Tex. App.— Houston
[14th Dist.] 2016, no pet.). To be clear, Vantage does
not argue on appeal that the Third Novation barred the
district court’s review of the award, only that appellate
review of the district court’s judgment is barred.
Petrobras replies that it could not waive its right to
appeal under the Panama Convention or the FAA and
that there was no clear and unequivocal indication of
waiver.
The parties cite competing persuasive authorities
from other circuits. The Ninth Circuit held that “the
statutory grounds for vacatur in the FAA may not be
waived or eliminated by contract.” In re Wal-Mart
Wage & Hour Emp. Practices Litig., 737 F.3d 1262,
1268 (9th Cir. 2013). The court was rejecting a waiver
clause that would have precluded all federal-court
review. Id. at 1266 n.3. Because parties may not
contract for expanded judicial review, see Hall St., 552
U.S. at 578, the Ninth Circuit reasoned that private
agreements eliminating judicial review of arbitration
awards also are not enforceable. Wal- Mart, 737 F.3d at
1267.
The Second Circuit stated that those “seeking to
enforce arbitration awards through federal-court
confirmation judgments may not divest the courts of
their statutory and common-law authority to review
both the substance of the awards and the arbitral
process for compliance with § 10(a).” Hoeft v. MVL
Grp., Inc., 343 F.3d 57, 66 (2d Cir. 2003), overruled on

11a
other grounds by Hall St. Assocs. L.L.C. v. Mattel, Inc.,
552 U.S. 576 (2008).
The Tenth Circuit enforced the following
contractual provision that it considered to waive
appellate review only: “Judgment upon the award
rendered by the arbitrator shall be final and
nonappealable and may be entered in any court having
jurisdiction thereof.” MACTEC, Inc. v. Gorelick, 427
F.3d 821, 827 (10th Cir. 2005). The court concluded
“that contractual provisions limiting the right to appeal
from a district court’s judgment confirming or vacating
an arbitration award are permissible, so long as the
intent to do so is clear and unequivocal.” Id. at 830.
Vantage argues that MACTEC supplies the
applicable rule while Petrobras calls that rule “legally
doubtful.” Petrobras instead would have us extend WalMart to waivers of appellate review as well. Petrobras
further contends that parties cannot contractually
deprive this court of its authority to review arbitration
awards.
The parties agree that if the waiver clause barred
all federal court review — namely, the ability to oppose
confirmation and move for vacatur in district court —
then the waiver would not be enforceable. The waiver
provision in the DSA, unlike the one in MACTEC,
states that the waiver applies only to the extent legally
permissible. MACTEC, 427 F.3d at 829. This does not
make the waiver equivocal. The “to the extent” clause
preserves valid applications of the appeal waiver, even
if other applications of the clause are invalid.

12a
Wal-Mart neither contradicted nor endorsed
MACTEC; the two cases dealt with different issues.
Wal-Mart, 737 F.3d at 1266 n.3. We are inclined to
think the Tenth Circuit’s approach is persuasive. Still,
if the district court’s judgment is affirmable on the
merits, we do not need to discern the law for this
circuit on such appeal waivers. We therefore will now
examine the merits.
II.

Motion to confirm

Article V(2)(b) of the Panama Convention allows a
country to refuse to recognize or execute an arbitration
decision under the Convention if “the recognition or
execution of the decision would be contrary to the
public policy” of that country. The party asserting the
public policy defense bears the burden of proving
United States public policy would be violated by
enforcing the award. Asignacion v. Rickmers Genoa
Schiffahrtsgesellschaft mbH & Cie KG, 783 F.3d 1010,
1016–17 (5th Cir. 2015). “The public policy defense is to
be ‘construed narrowly to be applied only where
enforcement would violate the forum state’s most basic
notions of morality and justice.’” Karaha Bodas Co. v.
Perusahaan Pertambangan Minyak Dan Gas Bumi
Negara (Karaha Bodas II), 364 F.3d 274, 306 (5th Cir.
2004). Further, a public policy rendering a contract
unenforceable “must be ‘explicit,’ ‘well defined,’ and
‘dominant.’ It must be ‘ascertained by reference to the
laws and legal precedents and not from general
considerations of supposed public interests.’” East
Associated Coal Corp. v. United Mine Workers of Am.,
Dist. 17, 531 U.S. 57, 62 (2000) (quoting W.R. Grace &
Co. v. Rubber Workers, 461 U.S. 757, 766 (1983)). The

13a
public policy defense under the Panama Convention is
“substantively identical” to the one set forth in the
Convention on the Recognition and Enforcement of
Foreign Arbitral Awards, commonly called the “New
York Convention.” See, e.g., TermoRio S.A. E.S.P. v.
Electranta S.P., 487 F.3d 928, 933 (D.C. Cir. 2007).
Petrobras argues that enforcing the arbitration
award violates United States public policy because the
award requires Petrobras to pay damages based on a
contract illegally procured through bribery. Even if this
country’s public policy would bar enforcement of such
contracts, the district court relied on the arbitrators’
findings, first, that Petrobras had not proved Vantage
was guilty of bribery and, second, that Petrobras
“knowingly ratified the DSA.” Accepting those fact
findings, the district court then considered whether
public policy would bar enforcing a bribery-procured
but ratified contract. The court accepted another
district court’s rejection of a public policy defense if
both parties engaged in the same fraudulent
misconduct. See Tamimi Glob. Co. v. Kellogg Brown &
Root L.L.C., No. CIV.A. H-11-0585, 2011 WL 1157634,
at *3 (S.D. Tex. Mar. 24, 2011). Because both Vantage
and Petrobras allegedly engaged in misconduct, and
the contract was later ratified, the district court
concluded there was no public policy impediment to
enforcement.
A. How much deference
The first question on this issue is whether the
district court erroneously deferred to the arbitrators’
ratification finding. Petrobras asserts that the district
court mistakenly deferred to the arbitrators’ public

14a
policy conclusions rather than reviewing those
conclusions de novo. Petrobras does not dispute that if
ratification occurred, then enforcing the arbitration
award does not violate public policy; rather, Petrobras
argues that the arbitrators’ findings do not amount to
legal ratification.
“Under the New York Convention, the rulings of the
Tribunal interpreting the parties’ contract are entitled
to deference.” Karaha Bodas II, 364 F.3d at 290. “The
court may not refuse to enforce an arbitral award solely
on the ground that the arbitrator may have made a
mistake of law or fact.” Id. at 288. This is because
“[t]he parties did not bargain for the facts to be found
by a court, but by an arbitrator . . . . Nor does the fact
that it is inquiring into a possible violation of public
policy excuse a court for doing the arbitrator’s task.”
United Paperworkers Int’l Union v. Misco, Inc., 484
U.S. 29, 45 (1987).
Petrobas relies on one of this court’s opinions to
support that the district court should have considered
the public policy issue de novo. See Gulf Coast
Industries Workers Union v. Exxon Co., 991 F.2d 244,
248 n.5 (5th Cir. 1993). The case involved a dispute
about whether an employee was discharged for just
cause. Id. at 247. We stated that a court “enjoy[s] more
latitude in reviewing the arbitrator’s decision” when
public policy violations are alleged. Id. at 249. A court
defers to an arbitrator’s findings of fact “but review[s]
his conclusions de novo,” because “[c]ourts are the
ultimate arbiters of public policy, not arbitrators.” Id.
at 248 n.5, 249. The Supreme Court has similarly
stated that “the question of public policy is ultimately

15a
one for resolution by the courts.” W.R. Grace & Co., 461
U.S. at 766. Still, courts must “tak[e] the facts as found
by the arbitrator.” Gulf Coast, 991 F.2d at 249. The
Gulf Coast arbitration award would have reinstated an
employee to a position working with dangerous
equipment. Id. at 250, 255. Though it was clear that an
employee’s use of a controlled substance violated public
policy, the problem with the arbitration award was
elsewhere. Public policy prohibited reinstating a
worker who posed a safety hazard. Id. at 250, 255. We
set aside the reinstatement of the worker under de
novo review of public policy. Id. at 257.
Petrobras is not seeking our review of whether the
final award violated public policy. Instead, Petrobras
wants us to decide whether the underlying contract
violated public policy. Petrobras questions whether any
ratification occurred that would obviate any public
policy problem in the DSA. We agree with the district
court that “[t]he public policy exception cannot be used
to simply question the merits of the underlying award.”
Hardy Expl. & Prod., (India), Inc. v. Gov’t of India,
Ministry of Petroleum & Nat. Gas, 314 F. Supp. 3d 95,
109 (D.D.C. 2018).
The Second Circuit applied this principle in
Europcar Italia, S.p.A. v. Maiellano Tours, Inc., 156
F.3d 310 (2d Cir. 1998). We have cited Europcar
favorably for the proposition that a reviewing court
should not reconsider an arbitrator’s findings. Karaha
Bodas II, 364 F.3d at 288 n.2. In Europcar, the
appellant argued enforcing an arbitration award would
violate public policy where the award was based on an
allegedly forged agreement. 156 F.3d at 315. The

16a
Second Circuit distinguished between fraud that may
lead to application of the public policy exception under
the Convention and fraud that would not:
[The defendant-appellant] has apparently
confused the issue of a fraudulently obtained
arbitration agreement or award, which might
violate public policy and therefore preclude
enforcement, with the issue of whether the
underlying contract that is subject of the
arbitrated dispute was forged or fraudulently
induced — a matter to be determined exclusively
by the arbitrators.
Id. (citations omitted). The Europcar court observed
that the appellant did not dispute the validity of the
supplemental arbitration agreement. Id. Further, the
appellant could not “seek to relitigate” the arbitrators’
determination of whether the parties’ underlying
agreement was forged — even if the arbitrators had
made an error of law or fact. Id. at 315–16. “[W]hether
the underlying contract that is the subject of the
arbitrated dispute was forged or fraudulently induced”
was a question for the arbitrators and was not the
basis of a public policy defense. Id. Therefore, enforcing
the arbitration award did not violate public policy. Id.
at 316.
Like the underlying conduct in Gulf Coast, the
underlying conduct here, bribery, does violate public
policy. See 991 F.2d at 250. Unlike in Gulf Coast,
though, enforcing the arbitration award does not create
a situation contrary to public policy, such as putting
anyone’s safety at risk. The arbitrators found Petrobras
ratified the DSA. When we defer to that finding, the

17a
legal conclusion follows that the DSA, and the
arbitration award, did not violate public policy.
Further, as in Europcar, the arbitration agreement
here is external to the underlying contract and the
arbitration agreement’s validity is not disputed. 156
F.3d at 315. Also, both in Europcar and here, the
arbitrators had the power to rule on the underlying
contract’s validity. Id. The arbitration clause in the
Third Novation provided that the arbitrators would
have power to rule on the existence and validity of the
DSA. Whether a contract should be voided because of
bribery is a question about the validity of the DSA. The
tribunal answered that question when it found that
Petrobras ratified the DSA and thus waived bribery
objections. The arbitrators also found that Petrobras
had not established that “Vantage knew of or
participated in any bribery.” These findings were
within the tribunal’s authority to rule on the DSA’s
validity. As such, the validity of the DSA was rightly a
question for the arbitrators rather than the district
court.
Petrobras also argues that the district court and the
arbitrators relied on a flawed definition of ratification.
Even if that is so, mistakes of law or fact are not
grounds for denying confirmation. Karaha Bodas II,
364 F.3d at 288.
We conclude that the district court did not engage
in inappropriate deference to the arbitrator’s decision.
B. “Mutual misconduct”
Petrobras also takes issue with what it perceives as
the district court’s ultimate conclusion that “[i]t does

18a
not violate public policy to enforce an arbitration award
against parties who were alleged to have mutually
engaged in mutual misconduct during the formation of
a contract, particularly when that contract was later
ratified.” Petrobras disputes that Petrobras engaged in
misconduct in the contracting process and that mutual
misconduct does not override public policy defenses.
Mutual misconduct was not the basis of the district
court’s confirmation order, though. The district court
accurately defined ratification, recognized the
arbitrators’ ratification finding, and thus concluded
that “Petrobras has not met its burden of showing that
the Tribunal’s contract interpretation violates some
explicit public policy.” The court continued:
Petrobras’s attempt to relitigate the merits of its
contract dispute and the general appeal to public
policy against paying and accepting bribes to
form contracts does not meet the high burden of
showing that enforcement of the actual
arbitration decision in this case would violate
the most basic notions of morality and justice.
The district court did not base its decision just on
“mutual misconduct.” We also need not concern
ourselves with the precise reasoning by the district
court, because we review de novo whether the award
should have been confirmed. Asignacion, 783 F.3d at
1014–15. There was no public policy bar to
confirmation.
III.

Discovery motions

District courts occasionally allow discovery in
vacatur and confirmation proceedings. See FED. R. CIV.

19a
P. 81(a)(6)(B). Previously we have endorsed a flexible
inquiry for district courts to use when assessing
discovery requests in the context of such proceedings:
“the court must weigh the asserted need for hitherto
undisclosed information and assess the impact of
granting such discovery on the arbitral process.”
Karaha Bodas II, 364 F.3d at 305 (quoting Lummus
Glob. Amazonas S.A. v. Aguaytia Energy del Peru S.R.
Ltda., 256 F. Supp. 2d 594, 626 (S.D. Tex. 2002)). The
court should focus on “specific issues raised by the
party challenging the award and the degree to which
those issues implicated factual questions that cannot
be reliably resolved without some further disclosure.”
Id. “The party seeking discovery bears the burden of
showing its necessity.” Freeman v. United States, 556
F.3d 326, 341 (5th Cir. 2009). Moreover, “[t]he loser in
arbitration cannot freeze the confirmation proceedings
in their tracks and indefinitely postpone judgment by
merely requesting discovery.” Imperial Ethiopian Gov’t
v. Baruch-Foster Corp., 535 F.2d 334, 337 (5th Cir.
1976). We review a district court’s order denying
discovery for an abuse of discretion. JP Morgan Chase
Bank, N.A. v. Datatreasury Corp., 936 F.3d 251, 255–56
(2019).
Two refusals to subpoena witnesses are at issue.
First, the district court disallowed a deposition of
Gaitis, the dissenting arbitrator. Second, the court
refused to authorize a subpoena on the AAA itself,
regarding its investigation into the request to
disqualify Judge Brower. We discuss both.

20a
A. Motion for leave to depose Gaitis
Petrobras asserts that discovery was necessary to
resolve the question of the arbitrators’ bias and that
“glaring red flags” in the record indicate evident
partiality and misconduct, 9 U.S.C. § 10(a)(2), (3).
Before identifying these red flags, we will address the
parties’ agreement not to depose the arbitrators.
When an organization’s arbitration rules are
incorporated into the underlying agreement, those
rules are treated the same as any other contractual
provision. See C & L Enters., Inc. v. Citizens Band
Potawatomi Indian Tribe of Okla., 532 U.S. 411, 419
n.1 (2001). We seek to “give effect to the intent of the
parties,” including to any contractual limitations. StoltNielsen S.A. v. AnimalFeeds Int’l Corp., 559 U.S. 662,
684 (2010).
Here, the arbitration clause in the Third Novation
incorporates the AAA’s Commercial Arbitration Rules.
Rule 52(e) of the AAA’s rules provides that “[p]arties to
an arbitration under these rules may not call the
arbitrator . . . as a witness in litigation or any other
proceeding relating to the arbitration” and an
arbitrator is “not competent to testify as [a] witness[]
in such proceeding.” Vantage says this provision was
enforceable, so the district court did not abuse its
discretion in denying Petrobras’s motion. Petrobras
does not raise any general contract defenses against
enforcing Rule 52(e), but it asserts that enforcing the
rule here would “eviscerate the integrity of the arbitral
process.” This general policy concern does not persuade
us that the district court erred in enforcing the
incorporated terms of the contract.

21a
Further, even without Rule 52(e), Petrobras was not
entitled to depose Gaitis. Petrobras points to the
unusual and strong statement in the dissent: that the
entire arbitration, “the prehearing, hearing, and
posthearing processes,” denied Petrobras “fundamental
fairness and due process protections.” Petrobras also
claims that several moments during the arbitration
hearings substantiate the dissent’s assertion, such as
when Judge Brower made comments that Petrobras
perceived as hostile to Petrobras. For example, Judge
Brower allegedly made off-the-record comments such
as “already talked about” and “asked and answered.”
We agree with the district court’s view of these
matters: “Although Petrobras may feel that the
comments allegedly made by Judge Brower were
abrasive, critical, or rude, these same comments can be
viewed as Judge Brower’s efforts to move the
proceeding along . . . .”
The examples of Judge Brower’s allegedly biased
conduct at the hearings do not establish that the
district court abused its discretion when it refused to
allow Petrobras to depose Gaitis. We have not
discovered any court of appeals decision holding that a
district court abused its discretion in denying discovery
from an arbitrator about the substance of the award.
We see nothing in this record to cause us to be the first.
B. Motion to subpoena the AAA
After the district court denied the motion for leave
to subpoena Gaitis, Petrobras moved for leave to serve
a subpoena on the AAA. Petrobras sought to discover
documents from the AAA’s investigation into Judge
Brower’s alleged bias. That investigation occurred

22a
because Petrobras moved to disqualify Judge Brower
after the merits hearing.
First, we conclude that the AAA’s ultimate finding
that Judge Brower was not biased is hardly a “red flag”
indicating that discovery was needed. Likewise, the
arbitral record did not show signs of partiality or
misconduct that compelled the district court to delay
the case in order for Petrobras to serve a subpoena on
the AAA.
It is relevant that there was no motion for this
discovery against the AAA until all the parties had
finished briefing the respective motions to confirm and
vacate. It is true the deadlines for discovery and for
new motions were still ahead. The discovery motion
came, though, only a few weeks before the merits
hearing on the motions to confirm and to vacate.
Although Petrobras’s motion was not technically
overdue, the district court reasonably considered that
additional discovery would cause further delay to the
final resolution of the case. See Karaha Bodas II, 364
F.3d at 304.1
Moreover, several circuits have held that arbitral
immunity extends to organizations like the AAA. Olson
v. Nat’l Ass’n of Sec. Dealers, 85 F.3d 381, 382 (8th Cir.
1

In an unpublished decision, this court considered the denial of
discovery that was first requested after all the merits briefs were
filed and after the agreed-to discovery deadline. Woods v. P.A.M.
Transp. Inc.-L.U., 440 F. App’x 265, 268 (5th Cir. 2011). We
emphasized that discovery cannot be used just to delay
confirmation proceedings, “particularly considering the strong
policy favoring expeditious enforcement of arbitration awards.” Id.
That reasoning appears sound to us.

23a
1996); New England Cleaning Servs. v. AAA, 199 F.3d
542, 545 (1st Cir. 1999). In an unpublished decisions,
a panel of this court found arbitral immunity for the
AAA. Jason v. AAA, Inc., 62 F. App’x 557 (5th Cir.
2003).
Regardless of the exact dimensions of arbitral
immunity, Petrobras has not shown that the district
court abused its discretion in denying the discovery
motions.
IV.

Motion to vacate

The extent of judicial review of arbitral awards
under the Panama Convention depends in part on
where the award was made. Relevant in this case is
that when the United States is the country of primary
jurisdiction, meaning the country where the arbitration
took place, our courts “have much broader discretion to
set aside an award.” Karaha Bodas Co. v. Perusahaan
Pertambangan Minyak Dan Gas Bumi Negara (Karaha
Bodas I), 335 F.3d 357, 368 (5th Cir. 2003). The
arbitration at issue here was held in Texas, so the
district court could entertain Petrobras’s motion to
vacate the award “in accordance with the country’s
domestic arbitral law and its full panoply of express
and implied grounds for relief.” Gulf Petro Trading Co.
v. Nigerian Nat’l Petroleum Corp., 512 F.3d 742, 746
(5th Cir. 2008).
Petrobras moved to vacate the arbitration award
based on Section 10(a)(2), (3), and (4) of the FAA.2

2

Although the FAA provides default rules, parties can contract to
apply other rules. Volt Info. Scis., Inc. v. Bd. of Trustees, 489 U.S.

24a
Under Section 10(a)(2), Petrobras argued Judge
Brower’s alleged bias indicated partiality. Under
Section 10(a)(3), Petrobras argued the tribunal had
failed to consider certain evidence. Last, under Section
10(a)(4), Petrobras argued that the award was not
reasoned with respect to Petróleo Brasileiro. The
district court disagreed on each point. On appeal,
Petrobras argues that the district court should not
have denied the vacatur motion with respect to
subsections (a)(2) and (a)(3) without first allowing
discovery. We already held that the district court did
not abuse its discretion in denying the discovery
motions, and Petrobras raises no other arguments in
support of vacatur under Section 10(a)(2) and (3).

468, 474–75 (1989). Here, the dispute-resolution section of the
Third Novation contains a choice-of-law provision selecting Texas
law. Thus, one might ask whether Texas or federal vacatur
standards apply. See BNSF Ry. Co. v. Alstom Transp., Inc., 777
F.3d 785, 790–91 (5th Cir. 2015). In one case, we found federal
vacatur standards applied because the choice-of-law clause did not
expressly reference California’s arbitration law. Cooper v. WestEnd
Capital Mgmt., L.L.C., 832 F.3d 534, 544 (5th Cir. 2016). Here,
though, the choice-of-law clause is specific to the “arbitration
provisions” of the Third Novation. Although the clause does not
name the Texas General Arbitration Act, the clause is expressly
about arbitration, and the clause is in the section establishing how
the parties may enforce an arbitration award. We are therefore not
persuaded that the FAA’s vacatur standards are the right ones to
apply in this case. Texas and federal vacatur standards do not
significantly differ, though, compare 9 U.S.C. § 10, with TEX. CIV.
PRAC. & REM. § 171.088, and the parties discuss only the federal
vacatur standards. Because the relevant bases for vacatur exist in
both federal and state law, we will consider the arguments under
the FAA as presented by the parties.

25a
What remains is Petrobras’s argument under
Section 10(a)(4). That section provides for vacatur
“where the arbitrators exceeded their powers, or so
imperfectly executed them that a mutual, final, and
definite award upon the subject matter submitted was
not made.” 9 U.S.C. § 10(a)(4). An argument for vacatur
under Section 10(a)(4) must be balanced against the
parties’ agreement to have arbitrators interpret their
agreement, which means that “an arbitral decision
even arguably construing or applying the contract must
stand, regardless of a court’s views of its (de)merits.”
Oxford Health Plans LLC v. Sutter, 569 U.S. 564, 569
(2013) (quotation marks omitted). “[T]he substantive
question of whether an arbitrator has exceeded his
arbitration powers is a function of [our] highly
deferential standard of review in such cases: an
arbitrator has not exceeded his powers unless he has
utterly contorted . . . the essence of the contract.”
Timegate Studios, Inc. v. Southpeak Interactive, L.L.C.,
713 F.3d 797, 802–03 (5th Cir. 2013). In other words,
the arbitrator exceeds his authority where he acts
“contrary to an express contractual provision.” PoolRe
Ins. Corp. v. Organizational Strategies, Inc., 783 F.3d
256, 265 (5th Cir. 2015). We resolve any doubts in favor
of arbitration. Rain CII Carbon, LLC v. ConocoPhillips
Co., 674 F.3d 469, 472 (5th Cir. 2012).
The Third Novation specified that the arbitrators
were required to “render a reasoned award in writing.”
In one recent opinion, we outlined a “reasoned award”
continuum. YPF S.A. v. Apache Overseas, Inc., 924 F.3d
815, 820 (5th Cir. 2019). There is no specific definition
of the term, but it requires “something short of findings
and conclusions but more than a simple result.” Id.

26a
(quoting Sarofim v. Trust Co. of the W., 440 F.3d 213,
215 n.1 (5th Cir. 2006)). In other words, we ask
whether the arbitrators “issued more than a mere
announcement.” Id.
Petrobras argues that the arbitration award was
not reasoned at least as it relates to Petróleo Brasileiro.
That company is not a party to the DSA or its
amendments but rather is party to the Form of
Payment and Performance Guaranty. Thus, Petróleo
Brasileiro contested the arbitrators’ jurisdiction. The
guaranty says that the laws of England and Wales
apply to disputes arising out of the document. Under
English law, Petrobas argued that Vantage’s claim
against Petróleo Brasileiro was “premature because the
Guaranty is a secondary suretyship obligation, not an
independent first demand instrument.” Vantage,
though, argued that Petróleo Brasileiro was bound to
all the provisions of the parties’ agreements, including
the arbitration clause in the Third Novation. Vantage
also argued that the guaranty’s choice-of-law clause
was superseded by the Third Novation’s.
On appeal, Petrobras argues that the arbitration
award was not reasoned because it did not address the
arguments that the guaranty did not create immediate
liability for Petróleo Brasileiro. The arbitrators
determined that because Petróleo Brasileiro was a
“primary obligor under the DSA and the Guaranty,”
Petróleo Brasileiro “remain[ed] responsible for
breaches of [the DSA].” The arbitration award
discusses whether Petróleo Brasileiro was a proper
defendant, explaining the claimants’ position, the
respondents’ position, and the tribunal’s own analysis.

27a
This is “more than a simple result.” Sarofim, 440 F.3d
at 215 n.1. Or “[i]t is, at the very least, doubtful that
the award is not more than a simple result.” Rain CII
Carbon, 674 F.3d at 474. Accordingly, vacatur as to
Petróleo Brasileiro was not warranted.
AFFIRMED.

28a

APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-20435
D.C. Docket No. 4:18-CV-2246
[Filed: July 16, 2020]
_____________________________________________
VANTAGE DEEPWATER COMPANY;
)
VANTAGE DEEPWATER DRILLING,
)
INCORPORATED,
)
)
Plaintiffs - Appellees
)
)
v.
)
)
PETROBRAS AMERICA, INCORPORATED;
)
PETROBRAS VENEZUELA INVESTMENTS )
& SERVICES B.V.; PETROLEO
)
BRASILEIRO S.A.-PETROBRAS,
)
)
Defendants - Appellants
)
_____________________________________________)
Appeal from the United States District Court for the
Southern District of Texas
Before SOUTHWICK, COSTA, and DUNCAN, Circuit
Judges.

29a
JUDGMENT
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of the
District Court is affirmed.
IT IS FURTHER ORDERED that appellants pay to
appellees the costs on appeal to be taxed by the Clerk
of this Court.

30a

APPENDIX C
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:18-CV-02246
[Entered: May 17, 2019]
_______________________________________
VANTAGE DEEPWATER COMPANY, )
et al,
)
)
Plaintiffs,
)
)
VS.
)
)
PETROBRAS AMERICA INC, et al,
)
)
Defendants.
)
_______________________________________)
ORDER
Before the Court are Vantage’s Petition to Confirm
Arbitration Award (Doc. #1), Petrobras’s Opposition
(Doc. #46 & 65), and Vantage’s Reply (Doc. #69). Also,
before the Court are Petrobras’s Motion to Vacate (Doc.
#34 & 53), Vantage’s Opposition (Doc. #69), and
Petrobras’s Reply (Doc. #77 & 78). Additionally, the
Court heard oral argument from the parties and
received post-hearing briefing (Doc. #138, Doc. #137 &
139). After reviewing the parties’ arguments and

31a
applicable legal authority, the Court denies Petrobras’s
Motion to Vacate and grants Vantage’s Petition to
Confirm.
I.

Background

This Petition arises out of the arbitration
proceedings between Petitioners Vantage Deepwater
Company and Vantage Deepwater Drilling, Inc.
(together, “Vantage”) and Respondents Petrobras
America Inc., Petrobras Venezuela Investments &
Services, BV, and Petróleo Brasileiro S.A. – Petrobras
(together, “Petrobras”), concerning an Agreement for
the Provision of Drilling Services (“DSA”). In addition
to the DSA, Vantage and Petrobras entered into a
Form of Payment and Performance Guaranty
(“Guaranty”), which guaranteed Petrobras’s obligations
under the DSA.
The eight-year term of the DSA for the performance
of offshore drilling services commenced on December 2,
2012, upon delivery of the ultra-deepwater drilling rig,
the Titanium Explorer. On October 27, 2014, Vantage
and Petrobras executed the Third Novation and
Amendment Agreement to the DSA (“Third Novation”)
to perform drilling services in the Gulf of Mexico. The
parties agreed under the Third Novation that all
disputes were to be resolved before the International
Centre for Dispute Resolution (“ICDR”) of the
American Arbitration Association (“AAA”) in Houston,
Texas. Doc. #1, Ex. D at ¶ 24.2.
On August 31, 2015, Petrobras attempted to
terminate the DSA. It was this termination that led
Vantage to commence the arbitration proceeding in this

32a
case, captioned Vantage Deepwater Co. et al. v.
Petrobras America Inc., et al., No. 01-15-0004-8503 (the
“Arbitration”), conducted under the auspices of the
ICDR of the AAA. Vantage requested that the
Arbitration Tribunal (the “Tribunal”) award expectancy
damages for the remaining portion of the DSA’s term
wrongfully cancelled by Petrobras. In response,
Petrobras argued that the cancellation of the DSA was
due to operational failures by Vantage and that the
DSA was void or unenforceable for allegedly being
procured through bribery.
The Arbitration merits hearing took place in
Houston, Texas, from May 16 through June 1, 2017.
Pursuant to the Third Novation, the Tribunal consisted
of three arbitrators–the Chairperson, Professor
William Park (“Chairman Park”), and one arbitrator
appointed by each party. See Doc. #1 at 6 ¶; Ex. D at
¶ 24.2. Judge Charles N. Brower (“Judge Brower”) was
appointed by Vantage and Mr. James Gaitis (“Mr.
Gaitis”) was appointed by Petrobras.1

1

Initially, Vantage’s party-appointed arbitrator was David E.
Keltner, Esq. However, on July 11, 2016, the ICDR sustained
Petrobras’s challenge against Mr. Keltner and ordered Vantage to
appoint an arbitrator to replace him. Doc. #34, Ex. 45. On August
29, 2018, Judge Brower filed his Notice of Appointment with the
ICDR and disclosed potential conflicts. Id., Ex. 44. On August 30,
2016, the ICDR informed the parties of Judge Brower’s
appointment to replace Mr. Keltner. Id., Ex. 46. On September 14,
2016, Petrobras challenged Judge Brower’s appointment alleging
he was not “neutral or impartial” due to a “close personal
friendship” with a partner at Vantage’s counsel’s law firm. Id., Ex.
47. On September 30, 2016, the ICDR denied Petrobras’s challenge
to Judge Brower’ s appointment. Id., Ex. 49.

33a
After the conclusion of the Arbitration, the Tribunal
issued its ruling (the “Final Award”) on June 29, 2018.
Doc. #1, Ex. A. The majority (Chairman Park and
Judge Brower) found Petrobras “liable for US$ 615.62
million by reason of early termination of the DSA
without justification or payment of the amount due for
the rest of the Contract term.” Id. at ¶ 531. The Final
Award further determined that the damages would
accrue as of “1 April 2018, to bear interest compounded
monthly at a rate of 15.2% and running” through the
final payment of the award. Id. at ¶ 534. Mr. Gaitis did
not join the majority decision and issued a dissent. Id.,
Ex. E.
On July 6, 2018, following receipt of the Final
Award and the dissent, Petrobras applied to the ICDR
for the withdrawal of the Final Award and removal of
its authors. Doc. #34, Ex. 57. The ICDR denied this
request. Id., Ex. 104.
On July 8, 2018, Vantage petitioned this Court
under 9 U.S.C. §§ 301-307 (“Chapter 3 of the Federal
Arbitration Act”) to Confirm the Final Award. See Doc.
#1, Ex.1. Subsequently, Petrobras filed a Motion to
Vacate the Final Award and a Response opposing
confirmation of the Final Award. Doc. #34 & Doc. #46.
Petrobras argues that vacatur is appropriate on three
grounds under 9 U.S.C. § 10(a). Doc. #34 at 24.
Furthermore, Petrobras opposes confirmation of the
Final Award arguing that it should be set-aside under
two provisions of Article V of the Inter-American
Convention on International Commercial Arbitration of
January 30, 1975 (the “Inter-American Convention”).
Doc. #46 at 9.

34a
II.

Motion to Vacate the Final Award
A. Legal Standard

The Federal Arbitration Act (“FAA”) reflects a
national policy favoring arbitration. Cooper v. WestEnd
Capital Mgmt., L.L.C., 832 F.3d 534, 543 (5th Cir.
2016). “In light of the strong federal policy favoring
arbitration, judicial review of an arbitration award is
extraordinarily narrow” and “exceedingly deferential.”
Id. at 543-44 (citing Rain CII Carbon, L.L.C. v.
ConocoPhillips Co., 674 F.3d 469, 471-72 (5th Cir.
2012)). Courts may vacate an arbitration award “only
in very unusual circumstances.” Oxford Health Plans
L.L.C. v. Sutter, 569 U.S. 564, 568 (2013).
Vacatur is available only for the limited statutory
reasons outlined in Section 10 of the FAA. 9 U.S.C.
§ 10; See Citigroup Global Mkts. Inc. v. Bacon, 562 F.3d
349, 358 (5th Cir. 2009) (overruling previous nonstatutory grounds for vacatur of an arbitration award
and holding that arbitration awards under the FAA
may be vacated only for the reasons provided in Section
10). Under Section 10(a), an arbitration award may be
vacated: (1) “where the award was procured by
corruption, fraud, or undue means;” (2) “where there
was evident partiality or corruption in the arbitrators;”
(3) “where the arbitrators were guilty of misconduct or
of any other misbehavior by which the rights of any
party have been prejudiced;” or (4) “where the
arbitrators exceeded their powers, or so imperfectly
executed them that a mutual, final, and definite award
upon the subject matter submitted was not made.” 9
U.S.C. § 10(a)(1-4). The Court does not “conduct a
review of an arbitrator’s decision on the merits,”

35a
therefore “arguments concerning the merits are
irrelevant” to the Court’s “determination of whether
there are statutory grounds within Section 10(a) under
which the arbitration award should be vacated.”
Householder Grp. v. Caughran, 354 F. App’x 848, 851
(5th Cir. 2009) (citations omitted). An arbitration
award “may not be set aside for a mere mistake of fact
or law.” Cooper, 832 F.3d at 546 (quoting Rain CII
Carbon, L.L.C., 674 F.3d at 472). “The burden of proof
is on the party seeking to vacate the award, and any
doubts or uncertainties must be resolved in favor of
upholding it.” Id. at 544 (citing Brabham v. A.G.
Edwards & Sons, Inc., 376 F.3d 377, 385 & n.9 (5th
Cir. 2004)).
B. Analysis
Petrobras moves to Vacate the Final Award based
upon 9 U.S.C. § 10(a)(2), (3), and (4). Although
Petrobras’s briefing discusses at great length the
iniquity of the alleged bribery scheme, which it also
argued during the Arbitration,2 Petrobras’s arguments
concerning the merits of the dispute are irrelevant to
the Court’s determination of whether there are
statutory grounds for vacatur under Section 10(a). See
Caughran, 354 F. App’x at 851 (citation omitted)
(“Section 10(a) does not provide for vacatur of an
arbitration award based on the merits of a party’s
claim” nor does the Court “have the authority to

2

Petrobras asserts that the DSA was procured through fraud.
Specifically alleging that Vantage procured the DSA through
bribes distributed as kickbacks to Petrobras officials. See Doc. #34
at 11-16; Doc. #46 at 14-17.

36a
conduct a review of an arbitrator’s decision on the
merits.”).
As to the specific statutory grounds, Petrobras puts
forth three arguments for vacatur under 9 U.S.C.
§ 10(a). Doc. #34 at 9-10. Under Section 10(a)(2),
Petrobras argues that Judge Brower “refused to act on
serious conflicts of interest” and that his tendentious
conduct during the Arbitration proceeding revealed
actual bias against Petrobras. Id. at 9. Under Section
10(a)(3), Petrobras argues that it was “repeatedly
denied the ability to adduce evidence showing that the
contract at issue was obtained through bribery,” and
under 10(a)(4) “that the Majority rendered an
incomplete award, which failed to address a key
defense.” Id.
1. 9 U.S.C. § 10(a)(2)
Petrobras contends that Judge Brower exhibited
evident partiality which requires vacatur under Section
10(a)(2). Under the FAA, courts may vacate an
arbitration award “where there was evident partiality
or corruption in the arbitrators.” Cooper, 832 F.3d at
545 (citing Bacon, 562 F.3d at 352 (quoting 9 U.S.C.
§ 10(a)(2)). “A party can establish evident partiality by
demonstrating that the arbitrator failed to disclose
relevant facts or that he displayed actual bias during
the arbitration.” Weber v. Merrill Lynch Pierce Fenner
& Smith, Inc., 455 F. Supp. 2d 545, 549 (N.D. Tex.
2006).
Petrobras argues that “Judge Brower’s close
personal relationship with Vantage’s counsel is
evidence of partiality necessitating vacatur” and that

37a
Judge Brower’s conduct during the Arbitration
proceedings displayed “actual bias favoring Vantage.”
Doc. #34 at 30, 35.
a. Relationship with Vantage’s Counsel
When challenging an arbitration award based upon
disclosure of an arbitrator’s relationship with the
parties, it must be shown that the arbitrator had a
“significant compromising connection to the parties.”
Ameser v. Nordstrom, Inc., 442 F. App’x 967, 970 (5th
Cir. 2011). “[A]n award may not be vacated because of
a trivial or insubstantial prior relationship between the
arbitrator and the parties to the proceeding.” Positive
Software Sols., Inc. v. New Century Mortg. Corp., 476
F.3d 278, 283 (5th Cir. 2007) (en banc).
“Courts have found that a reasonable impression of
partiality is established when the arbitrator has had a
direct business or professional relationship with one of
the parties to the arbitration.” Weber, 455 F. Supp. 2d
at 552; see also Olson v. Merrill Lynch, Pierce, Fenner
& Smith, Inc., 51 F.3d 157, 159 (8th Cir. 1995) (finding
a reasonable impression of partiality where the
arbitrator failed to disclose that his employer did a
“substantial amount of business with” a party to
arbitration proceedings); Middlesex Mut. Ins. Co. v.
Levine, 675 F.2d 1197, 1202 (11th Cir. 1982) (vacatur
was appropriate where the arbitrator had ‘“repeated’
and ‘significant’ business dealings involving thousands
of dollars with one of the parties to the arbitration over
a period of four or five years”); Thomas Kinkade Co. v.
White, 711 F.3d 719, 724 (6th Cir. 2013) (“[w]hen the
neutral arbitrator engages in or attempts to engage in
mid-arbitration business relationships with non-

38a
neutral participants, it jeopardizes what is supposed to
be a party-structured dispute resolution process.”).
Here, there are no alleged undisclosed business or
financial relationships between Judge Brower and
Vantage. Rather, upon his appointment to the
Tribunal, Judge Brower disclosed that one of his former
law clerks from the Iran-United States Claims
Tribunal was a partner at the law firm representing
Vantage. Doc. #34, Ex. 44. Petrobras timely objected to
Judge Brower’s appointment and, after due
consideration, the ICDR denied Petrobras’s challenge
to Judge Brower’s appointment. Id., Ex. 49.
Petrobras now argues that Judge Brower’s
friendship with his former law clerk created evident
partiality which merits vacatur, suggesting that the
relationship created an “appearance of bias.” Doc. #34
at 31. However, the standard for assessing evident
partiality is not the mere appearance of bias. See
Positive Software Sols., 476 F.3d at 285 (“[T]he ‘mere
appearance’ standard would make it easier for a losing
party to challenge an arbitration award for
nondisclosure than for actual bias . . .” and “hold
arbitrators to a higher ethical standard than federal
Article III judges”). “Evident partiality is a ‘stern
standard”’ and requires “upholding arbitration awards
unless bias is clearly evident in the decisionmakers.”
Id. at 281. Here, Judge Brower’s former law clerk was
not an advocate representing Vantage during the
Arbitration proceeding. But, even if the former law
clerk were an advocate in the Arbitration proceeding,
this would not be a significant compromising
relationship that establishes clear bias in an arbitrator.

39a
It is common knowledge in the legal profession that
former law clerks regularly practice before judges for
whom they once clerked. In re Martinez-Catala, 129
F.3d 213, 221 (1st Cir. 1997). Certainly, the
relationship between a judge and his former law clerk
is not the type of relationship that would merit vacatur
under Section 10(a).
Furthermore, the case that Petrobras relies upon to
argue vacatur under Section 10(a)(2), Thomas Kinkade
Co. v. White, 711 F.3d 719, 724 (6th Cir. 2013), involved
a substantial business relationship between the
arbitrator and one of the parties. The facts of Kinkade
are not applicable to this case. Petrobras points to no
case, nor has the Court found one, where an arbitration
award was vacated for non-business or non-financial
relationships (i.e., mere friendships). Doc. #133 at 99.
Accordingly, Petrobras has not met its burden of
showing that a significant compromising connection
exists between Vantage and Judge Brower that would
merit vacatur.
b. Judge Brower’s Actions During the
Arbitration Proceedings
Petrobras argues that Judge Brower’s behavior
during the Arbitration proceeding displayed evident
partiality amounting to actual bias. The Fifth Circuit
“has a very high threshold for a plaintiff to
demonstrate evident partiality under 9 U.S.C. § 10(a).”
Ameser, 442 F. App’x at 970. Arbitral awards are
upheld “unless bias was clearly evident in the
decisionmakers.” Cooper, 832 F.3d at 545 (quoting
Positive Software Sols., 476 F.3d at 281). Thus, for the
arbitration award to be vacated, Petrobras “must

40a
produce specific facts from which a reasonable person
would have to conclude that the arbitrator was partial
to” Vantage. Id. (citing Caughran, 354 F. App’x. at
852). This includes establishing “specific facts that
indicate improper motives on the part of the
arbitrator.” Kinkade, 711 F.3d at 724. The “alleged
partiality must be direct, definite, and capable of
demonstration rather than remote, uncertain, or
speculative.” Cooper, 832 F.3d at 545 (citing Caughran,
354 F. App’x at 852).
Petrobras alleges that Judge Brower displayed
actual bias by “aggressively questioning” Petrobras’s
witnesses, “displaying hostility toward Petrobras’s
counsel,” being “inattentive and disengaged,” adopting
the “role of Vantage’s advocate,” and interrupting
Chairman Park’s ability to control the hearing.
Specifically, Petrobras complains that Judge Brower
“aggressively question[ed] a critical Petrobras witness
for over 90 minutes and ma[de] belittling comments
about Petrobras’ counsel under his breath.” Doc. #34 at
9. Pertrobras’s allegations involve two categories of
behavior that Petrobras argues displayed partiality and
amounted to actual bias–the way Judge Brower treated
counsel for Petrobras and the way Judge Brower
treated the witnesses for Petrobras.3

3

Upon review of the record, the Court notes that Petrobras did not
object during the merits hearing as to the behavior of which
Petrobras now complains concerning the alleged “aggressive
questioning” of Petrobras witnesses. Petrobras did challenge Judge
Brower to the ICDR after the close of the merits hearing by
submitting the unofficial Arbitration transcript and identifying the
examples of behaviors that Petrobras alleges reveal actual bias.

41a
i. Treatment of Petrobras’s Counsel
Petrobras alleges that Judge Brower “displayed
hostility towards Petrobras’s counsel by continuously
making inappropriate, off-the-record comments under
his breath and laughing at Petrobras’s counsel’s
questions during cross-examination of Vantage’s
witnesses.” Doc. #34 at 21. However, “an arbitrator’s
alleged interruptions and interjections of comments or
explanations favorable to one party or hostile to the
other party to the point where that party’s lawyer felt
like he was facing an adversary [are] insufficient to
show evident partiality.” Lummus Glob. Amazonas S.A.
v. Aguaytia Energy del Peru S.R. Ltda., 256 F. Supp. 2d
594, 628-29 (S.D. Tex. 2002) (quoting Fort Hill
Builders, Inc. v. Nat’l Grange Mut. Ins. Co., 866 F.2d 11
(1st Cir. 1989)) (cleaned up).
Because the comments that Judge Brower allegedly
made were off-the-record, there is nothing that
Petrobras points the Court to as demonstrative of when
such comments were made, how often, or in what
context. The only reference on the record concerning
comments made by Judge Brower was on May 24,
2017, when counsel for Petrobras asked Judge Brower
to stop making “snide” and “snarky” comments under
his breath and vocalized concerns about Judge
Brower’s impartiality. Doc. #34, Ex. 8, Tr. 1871:7–19,
1880:5–10.
Petrobras alleges that the “snide” and “snarky”
comments were remarks such as, “Ridiculous,”
Doc. #34, Ex. 54. The ICDR denied Petrobras’s challenge and reaffirmed Judge Brower. Id. at Ex. 55.

42a
“Already talked about,” and “Asked and answered.”
Doc. #34 at 21. Although Petrobras may feel that the
comments allegedly made by Judge Brower were
abrasive, critical, or rude, these same comments can be
viewed as Judge Brower’s efforts to move the
proceeding along or an expression of his perception that
the questions were repetitive or irrelevant. Regardless,
“[a]bsent some sort of overt misconduct, a disappointed
party’s perception of rudeness on the part of an
arbitrator is not the sort of ‘evident partiality’
contemplated by the [FAA] as grounds for vacating an
award.” Fairchild & Co. v. Richmond, F. & P. R. Co.,
516 F. Supp. 1305, 1313 (D.C. Cir. 1981).
ii. Treatment of Petrobras’s Witnesses
Petrobras describes Judge Brower’s questioning of
Petrobras’s witnesses as “aggressive and antagonistic,
and clearly aimed at discrediting the witnesses and
undermining Petrobras’s case” and as “antagonistic
interrogations of Petrobras’s witnesses, seeking to
embarrass them and downplay Vantage’s knowledge of
bribery.” Doc. #34 at 20. Petrobras points to a few
excerpts from the 3,021-page arbitration record to
argue that Judge Brower treated Petrobras and
Vantage witnesses unequally.4 Doc. #34 at 20-21.

4

Petrobras describes the questioning of witnesses thusly: Lance
Labiche as “degrading” and “extraordinarily critical”; Alvaro
Negrao as a “harsh rebuttal” or “line-by-line attack”; and Vantage’s
expert Judge Stephen Schwebel as a “gratuitous rehabilitation.”
Doc. #34 at 12-13, 21-22. However, the record does not support
Petrobras’s characterizations of Judge Brower’s questions as being
improper or prejudicial as to any of the witnesses.

43a
Much of Petrobras’s argument about the unequal
treatment of witnesses concerns the questioning of Mr.
Padilha, who was the only witness Petrobras called to
testify on the issue of bribery. Petrobras argues that
Judge Brower “aggressively questioned” Mr. Padilha
for over 90 minutes and characterizes his questioning
as an “interrogation,” as a “hostile cross-examination,”
as “probing,” and aimed at embarrassing him.
The record reveals that all three arbitrators
questioned Mr. Padilha and that Judge Brower
indicated before his questions began that the
“questions from the bench” would be lengthy. Ex. #34,
Ex. 6 at Tr. 1507: 10-14. There were no objections made
about the lengthy questioning of Mr. Padilha during
the hearing. Id. at Tr. 1508:15-22. Petrobras concedes
that arbitrators may ask probing questions of
witnesses and test a witness’s credibility. Doc. #77 at
8. It should not have been unexpected that the
questioning of Petrobras’s sole witness on the issue of
bribery was lengthy and that his credibility would be
an issue addressed by the arbitrator’s questions.
Furthermore, the Tribunal faced several interruptions
during the questioning of Mr. Padilha when Chairman
Park and Judge Brower both had to instruct Mr.
Padilha repeatedly to stop whispering to his lawyers
while the arbitrators were posing their questions to
him. Doc. #34, Ex. 6 at Tr. 1537:6-1538:15; Tr. 1568:31569:15. As such, the record does not support
Petrobras’s characterization of Judge Brower’s
questioning of Petrobras’s witnesses as improper or
prejudicial.

44a
In addition, Petrobras alleges that Judge Brower
was biased because he adopted the “role of Vantage’s
advocate,” was intermittently disengaged from the
proceeding, and was aggressive towards the other
arbitrators and interrupted Chairman Park’s “ability to
control the hearing.”5 Doc. #34. at 20-21.
A court in this district analyzed similar allegations
of “partisan behavior” concerning an arbitrator in the
case Lummus Glob. Amazonas S.A. v. Aguaytia Energy
del Peru S.R. Ltda., 256 F. Supp. 2d 594, 628-29 (S.D.
Tex. 2002). In Lummus, the arbitrator’s behavior was
described as interrupting witnesses, “usurping” the role
of the chair of the panel, and assuming the role of an
advocate. Id. The court found that the alleged conduct
did not amount to evident partiality or provide a basis
for vacating the arbitration award. Id. Moreover,
Petrobras points to no case, nor does the Court find
one, where a court has granted vacatur based upon the
conduct of an arbitrator for which Petrobras complains.
See Doc. #133 at 96-97. Petrobras further concedes that
no case in the Fifth Circuit has vacated an arbitration
award based upon evident partiality. Id. at 105-106.

5

The only allegation Petrobras makes concerning Judge Brower’s
impeding Chairman Park’s ability to control the hearing was when
Judge Brower reminded Chairman Park that a witness who was
testifying needed to leave the proceeding early. Doc. #34, Ex. 9 at
Tr. 2216:24-2217:2. Furthermore, there is only one disagreement
between Judge Brower and Mr. Gaitis that Petrobras construes as
aggression toward the other arbitrators. Id., Ex. 7 at Tr. 1822:1425. The record does not support Petrobras’s contention that Judge
Brower usurped Chairman Park’s role or was aggressive toward
the other arbitrators.

45a
In light of the strict standard of review of
arbitration awards, a reasonable person would not
have to conclude based on the facts before this Court
that Judge Brower was evidently partial toward
Vantage. Consequently, the Court is not persuaded
that Petrobras has met its burden to demonstrate that
the arbitrator’s behavior in this case amounted to
evident partiality and, as such denies Petrobras’s
motion to vacate the Final Award under Section
10(a)(2).
2. 9 U.S.C. § 10(a)(3)
Petrobras argues that vacatur is merited under
Section 10(a)(3) because the Tribunal refused to hear
evidence “pertinent and material to the controversy.”
Doc. #34 at 36. Each of the parties to an arbitration
must be given “an adequate opportunity to present its
evidence and arguments.” Karaha Bodas Co. v.
Perusahaan Pertambangan Minyak Dan Gas Bumi
Negara, 364 F.3d 274, 300 (5th Cir. 2004) (citations
omitted). However, “an arbitrator is not bound to hear
all of the evidence tendered by the parties.” Id. “Every
failure of an arbitrator to receive relevant evidence
does not constitute misconduct requiring vacatur of an
arbitrator’s award.” Id. at 301. “A federal court may
vacate an arbitrator’s award only if the arbitrator’s
refusal to hear pertinent and material evidence
prejudices the rights of the parties to the arbitration
proceedings” such that “the exclusion of evidence
deprives a party of a fair hearing.” Id.
Here, Petrobras alleges that the Tribunal denied its
unopposed request to depose former Vantage
employees it claims had knowledge of the bribery

46a
scheme, precluded a meaningful cross-examination of
Douglas Hackett (“Mr. Hackett”) (Vantage’s witness
that testified on the issue of bribery), and refused to
accord weight to Vantage’s disclosure of its settlement
offer to the Securities Exchange Commission (“SEC”).
Doc. #34 at 37.
Taken in turn, Petrobras first argues that it was
denied a fair hearing because the Tribunal did not
order third-party depositions of three former Vantage
officers and directors, Mr. Bragg, Mr. O’Leary, and
Christopher DeClaire. Doc. #34 at 10; Ex. 53. Petrobras
requested these depositions on January 23, 2017. The
Tribunal declined to issue the subpoena stating “the
Tribunal declines to order depositions, without
prejudice to the Parties’ right to agree with any or all
of the three above-named individuals on a process for
depositions on a voluntary basis under agreed
procedures.” Doc. #34, Ex. 53. Importantly, the
Tribunal did not preclude Petrobras from acquiring
voluntary depositions from the witnesses nor did the
Tribunal preclude Petrobras from obtaining documents
from these persons. Previously, on May 31, 2016, the
Tribunal granted Petrobras’s request to subpoena
documents from Mr. Bragg and Mr. DeClaire. Doc. #34,
Ex. 122-23. Furthermore, there is no evidence that
Petrobras attempted to call or was precluded from
calling any of these individuals to testify at the
Arbitration proceeding. Had Petrobras been precluded
from calling any witnesses on the issue of bribery, then
the argument that the proceeding was unfair would be
plausible. See Tempo Shain Corp. v. Bertek, Inc., 120
F.3d 16, 21 (2d Cir. 1997) (finding that excluding a
witness who was the “only person” who could have

47a
rebutted an issue before the court not being allowed to
testify amounted to fundamental unfairness and
misconduct sufficient to vacate the award pursuant to
Section 10(a)(3) of the FAA). However, Petrobras
presented a host of evidence and called the witness it
decided to present on the issue of bribery. Accordingly,
the Court finds that Petrobras has not met its burden
of showing that the Tribunal’s decision not to order
subpoenas for depositions of these third-party
witnesses deprived Petrobras of a fair hearing.
Petrobras next argues that the Tribunal
circumscribed Petrobras’s ability to question Vantage’s
witness, Mr. Hackett, concerning the “bribery scheme
to obtain the DSA” and about “[the Weil report]
submitted on Vantage’s behalf to the DOJ [Department
of Justice] and SEC.” Id. However, the record reveals
that Petrobras was given the opportunity to crossexamine Mr. Hackett on the issues it desired, namely
“the content of the [Weil] report.” Doc. #34, Ex. 2, Tr.
294:24-295:5; Tr. 320:5-9. The only questions Petrobras
was prohibited from asking were those that sought to
delve into information covered by attorney-client
privilege. Id. However, “[t]he arbitrator is the judge of
the relevance and admissibility of the evidence
presented in an arbitration proceeding.” Lummus, 256
F. Supp. 2d at 617 (citations omitted). So, even if the
Tribunal’s ruling on whether information was
privileged was an error of law, it would not be a proper
reason for vacatur. See Rainier DSC 1, L.L.C. v.
Rainier Capital Mgmt., L.P., 828 F.3d 362, 364 (5th
Cir. 2016) (“To constitute misconduct requiring vacatur
of an award, an error in the arbitrator’s determination
must be one that is not simply an error of law, but

48a
which so affects the rights of a party that it may be
said that he was deprived of a fair hearing.”).
Lastly, Petrobras complains that the Tribunal did
not give weight to Vantage’s disclosure of its settlement
offer to the SEC. The Court’s review is limited to
determining whether “the exclusion of the contested
evidence prevented the parties from receiving a
fundamentally fair hearing.” Lummus, 256 F. Supp. 2d
at 618 (emphasis added) (citations omitted). The
Tribunal did not refuse to hear nor exclude this
evidence. In fact, the Tribunal re-opened the record to
admit this evidence at Petrobras’s request. Doc. #77 at
20. Whether or not the Tribunal decided to give weight
to a particular piece of admitted evidence has no
bearing on the issue of whether misconduct occurred
meriting vacatur.
On these facts, Petrobras has not shown that the
Tribunal denied it an adequate opportunity to present
its evidence and arguments. Accordingly, the Court
finds that Petrobras did not carry its burden of
demonstrating that it was deprived a fair hearing.
Therefore, vacatur is not appropriate under Section
10(a)(3).
3. 9 U.S.C. § 10(a)(4)
Petrobras argues that the Final Award provided no
foundation for the finding of liability against Petróleo
Brasileiro S.A. (“Petróleo Brasileiro”), a defect that
Petrobras argues requires vacatur as to Petróleo
Brasileiro under Section 10(a)(4). Doc. #34 at 10, 47.
Section 10(a)(4) authorizes a federal court to set
aside an arbitration award “where the arbitrators

49a
exceeded their powers.” BNSF R. Co. v. Alstom
Transp., Inc., 777 F.3d 785, 788 (5th Cir. 2015). A party
seeking relief under that provision bears a heavy
burden. “It is not enough . . . to show that the
[arbitrator] committed an error–or even a serious
error.” Oxford Health Plans, 569 U.S. at 569. Under
Section 10(a)(4) the Court looks at “whether the
arbitrator’s award was so unfounded in reason and
fact, so unconnected with the wording and purpose of
the [contract] as to manifest an infidelity to the
obligation of an arbitrator.” Cooper, 832 F.3d at 545
(quoting Timegate Studios, Inc. v. Southpeak
Interactive, L.L.C., 713 F.3d 797, 802 (5th Cir. 2013)).
“[A]n arbitrator has not exceeded his powers unless he
has utterly contorted the evident purpose and intent of
the parties–the ‘essence’ of the contract.” Id.
Here, Petrobras argues the Tribunal did not issue a
reasoned award as to Petróleo Brasileiro. However, the
Final Award sets forth the basic reasoning concerning
Petróleo Brasileiro as the Guarantor, and that is all
that is necessary. See Leeward Constr. Co., Ltd v. Am.
Univ. of Antigua-Coll. of Med., 826 F.3d 634, 640 (2d
Cir. 2016) (“A reasoned award sets forth the basic
reasoning of the arbitral panel on the central issue or
issues raised before it. It need not delve into every
argument made by the parties.”). The plain language of
the Guaranty lists Petróleo Brasileiro as the Guarantor
of the DSA. Doc. #1, Ex. C. During the Aribtration, the
Tribunal analyzed its jurisdiction over Petróleo
Brasileiro, considered the plain language of the
Guaranty and the Guaranty’s reference to the DSA.
Doc. #1, Ex. 3 at ¶¶ 196-205. The Tribunal concluded
that it had jurisdiction over Petróleo Brasileiro and

50a
found “for the avoidance of doubt, the Tribunal
confirms its jurisdiction over Petróleo Brasileiro, which
as primary obligor under the DSA and the Guaranty
remains responsible for the breaches of the Contract.”
Doc. #1, Ex. 3 at ¶ 530.
It is clear that the Final Award as to Petróleo
Brasileiro gave effect to the intent of the parties with
respect to the DSA and the Guaranty. Therefore, the
arbitrators did not exceed their powers by issuing an
award against Petróleo Brasileiro. Accordingly, the
Court finds that vacatur under Section 10(a)(4) is not
appropriate.
4. Dissent
Petrobras makes an overall argument that the
arbitral process was “fundamentally flawed” under
Section 10(a) and that it was the “flawed Arbitration”
that “produced the extraordinary Dissent filed” by Mr.
Gaitis. Doc. #34 at 10.
In his dissent, Mr. Gaitis stated his “Objection and
Dissent is based not only on [his] differing conclusions
regarding the merits of the parties’ dispute, but also
[his] belief and conclusion that the prehearing, hearing,
and posthearing processes that led to the issuance of
the Final Award [] denied [Petrobras] in this
proceeding the fundamental fairness and due process
protections meant to be provided to arbitrating parties
. . . .” Doc. #1, Ex. 7.6 Mr. Gaitis provides no reasoning

6

As to fairness and due process, the majority stated “the
Chairman and Judge Brower each confirms that he has remained
independent and impartial throughout the proceedings. The

51a
or factual support for his conclusions. Additionally,
Petrobras does not point to a case, nor does the Court
find one where a dissenting opinion provides grounds
for vacatur of the majority’s arbitration award. The
record does not support the position that Petrobras was
denied a fair arbitration or that the Arbitration was
fundamentally flawed. And the issuance of a dissent in
and of itself does not make vacatur arguments more
meritorious.
For the reasons stated, Petrobras has not met its
burden of demonstrating that vacatur is warranted
under Section 10(a). Therefore, Petrobras’s Motion to
Vacate the Final Award is denied.
III.

Confirmation of the Final Award

Vantage submits the Petition to Confirm the Final
Award under Chapter 3 of the FAA, 9 U.S.C. §§ 301307, which provides for the enforcement of the InterAmerican Convention over the Convention on the
Recognition and Enforcement of Foreign Arbitral
Awards of June 10, 1958 (the “New York Convention”)
when “a majority of the parties to the arbitration
agreement are citizens of a State or States that have
ratified or acceded to the Inter-American Convention
and are member States of the Organization of
American States.” See 9 U.S.C. § 305. Because most of
the parties to the Final Award are citizens of

Chairman and Judge Brower each confirms that the pre-hearing,
hearing, and post-hearing processes leading to the issuance of this
Final Award have been conducted with full respect for all Parties’
rights to fundamental fairness and due process . . . .” Doc. #1, Ex.
3 at ¶ 529.

52a
signatories to the Inter-American Convention (United
States and Brazil), the Inter-American Convention
applies in this case.7 The Court “shall confirm” the
Final Award under the Inter-American Convention
(“Convention”) according to 9 U.S.C. § 301 unless a
ground to refuse enforcement specified in the
Convention applies. Asignacion v. Rickmers Genoa
Schiffahrtsgesellschaft mbH & Cie KG, 783 F.3d 1010,
1015 (5th Cir. 2015).
Petrobras argues that the Final Award should be
refused under two provisions of Article V of the
Convention. Under Article V(2)(b), Petrobras argues
that the Court should refuse to confirm the Final
Award because it would violate public policy to require
them to pay damages for amounts that it would have
owed Vantage on a contract that was “invalidly
obtained by bribery.”8 Doc. #46 at 21. Next, Petrobras
argues that the Court should refuse the Final Award
under Article V(1)(d) because the Arbitration was not
conducted in accordance with the agreement of the
parties. Lastly, Petrobras alleges that the Court does

7

The parties agree that the case law construing the New York
Convention’s Article V is applicable to proceedings under Article
V of the Inter-American Convention and applicable to the Court’s
decision in this case. See, e.g., PDV Sweeny, Inc. v. ConocoPhillips
Co., No. 14-CV-5183, 2015 WL 5144023, at *4 (S.D.N.Y. Sept. 1,
2015).
8

Although Petrobras contends that the DSA was “invalidly
obtained by bribery,” Petrobras does not oppose confirmation of the
portion of the Final Award “awarding Vantage $6.4 million as a
measure of quantum meruit for services already rendered.” Doc.
#46 at 21.

53a
not have subject matter jurisdiction over Petróleo
Brasileiro. Id. at 24-25.
A. Legal Standard
Awards falling under the Convention are enforced
under the FAA. Asignacion, 783 F.3d at 1015. There is
an “empathetic federal policy” favoring arbitral dispute
resolution and “this policy ‘applies with special force in
the field of international commerce.”’ Id. (quoting
Mitsubishi Motors Corp. v. Soler Chrysler-Plymouth,
Inc., 473 U.S. 614, 617 (1985)). Defenses to
enforcement of the Convention are construed narrowly,
“to encourage the recognition and enforcement of
commercial arbitration agreements in international
contracts.” Karaha Bodas, 364 F.3d at 288 (citations
omitted). Under the Convention, “the rulings of the
Tribunal interpreting the parties’ contract are entitled
to deference.” Id. at 290 (citations omitted). “Absent
extraordinary circumstances, a confirming court is not
to reconsider an arbitrator’s findings.” Id. at 288
(quoting Europcar Italia, S.p.A. v. Maiellano Tours,
Inc., 156 F.3d 310, 315 (2d Cir. 1998)). “[A] court
reviewing an award under the Convention cannot
refuse to enforce the award solely on the ground that
the arbitrator may have made a mistake of law or fact.”
Asignacion, 783 F.3d at 1015 (citations omitted). The
party opposing the enforcement of the Final Award “on
one of the grounds specified in the Convention has the
burden of proof.” Id. at 1015-16.

54a
B. Analysis
1. Article V(2)(b)
Article V(2)(b) allows a signatory country to refuse
enforcement of an arbitration award if “recognition or
enforcement of the award would be contrary to the
public policy of that country.” Asignacion, 783 F.3d at
1015 (quoting Convention art. V(2)(b)). The “public
policy defense is to be ‘construed narrowly [and]
applied only where enforcement would violate the
forum state’s most basic notions of morality and
justice.”’ Id. at 1016 (quoting Karaha Bodas, 364 F.3d
at 306). “The standard is high, and infrequently met.”
TermoRio S.A. E.S.P. v. Electranta S.P., 487 F.3d 928,
938 (D.C. Cir. 2007). “The public policy exception
cannot be used to simply question the merits of the
underlying award.” Hardy Expl. & Prod. (India), Inc. v.
Gov’t of India, Ministry of Petroleum & Nat. Gas, 314
F. Supp. 3d 95, 109 (D.C. Cir. 2018) (citations omitted).
Petrobras argues that the Final Award “dealt with
the bribery issue in a manner that was at best both
cursory and vague” and that confirming an arbitration
award involving a contract procured through bribery
would violate the public policy of the United States and
should not be confirmed by the Court. Doc. #46 at 19.
Petrobras raised its contention that the contract
was void and unenforceable–alleging it was procured
through bribery–during the Arbitration. The Tribunal
considered the bribery arguments and the claim that

55a
the contract was void. See Doc. #1, Ex. 3.9 Despite
Petrobras’s arguments, the Tribunal found that
Petrobras ratified the DSA. Id. at ¶ 373, 433. Petrobras
cannot now use the public policy defense to question
the merits of the Final Award in an attempt to
relitigate its bribery claims before this Court. See
Europcar Italia, 156 F.3d at 315 (stating that if a party
“did raise the issue to the arbitrators, it cannot seek to
relitigate the matter here”).
Rather than performing a reconsideration of the
merits of Petrobras’s arguments already made to the
Tribunal, the Court’s review under the Convention’s
public policy defense looks to whether “an arbitrator’s
contract interpretation violates some explicit public
policy.” See Asignacion, 783 F.3d at 1016. In its Final
Award, the Tribunal determined that after Petrobras
was aware of the bribery allegations, it ratified the
DSA. Doc. #1, Ex. 3 at ¶¶ 288-290. The Court notes
that under Texas law, “ratification occurs when a
person induced by fraud to enter into an agreement
continues to accept benefits under the agreement after
he becomes aware of the fraud, or if he conducts
himself so as to recognize the agreement as binding.”
Olney Sav. & Loan Ass’n v. Trinity Banc Sav. Ass’n,
885 F.2d 266, 270 (5th Cir. 1989) (citations omitted).
The Tribunal stated that the “Second Novation and
Third Novation, occurring two months after [Petrobras]

9

The Final Award reveals that the Tribunal seriously considered
the issue of bribery including the positions of the parties, evidence,
findings, conclusions, and re-opened the record to admit additional
evidence tendered by Petrobras on the issue of bribery. See Doc. #1,
Ex. 3 at ¶¶ 255–292; 339–376; 399–403; 406–409; 433–434.

56a
completed a bribery audit in October 2013, shows
[Petrobras was] aware of bribery allegations, and yet
continued with the Parties’ Agreement.” Doc. #1, Ex. 3
¶ 288. Furthermore, the Tribunal found that “the
Second Amendment and First Novation were formed
without the involvement of any actors alleged to have
been involved in bribery.” Id. at ¶ 289. Therefore, the
Tribunal concluded that Petrobras “knowingly ratified
the DSA in its current form, and now find themselves
estopped from claiming the Contract is void or
voidable.” Id. at ¶¶ 290, 373, 409. The Tribunal also
found that Petrobras did “not carry their burden of
demonstrating that Vantage was guilty of bribery on
the evidence presented” and “even if [the contract] had
been procured by bribery – [it] was ratified by the ‘nonbribing’ party.” Doc. #1, Ex. 3 at ¶¶ 375, 402.
Therefore, the question before the Court is whether
enforcing a contract alleged to have been procured
through bribery–and subsequently ratified by the nonbribing party–would violate public policy.
A court in this district analyzed the public policy
defense in a similar case, where the losing party to an
arbitration attempted to avoid the arbitration award
alleging that the contract was procured through the
payment of “kickbacks to obtain dining services”
contracts. Tamimi Glob. Co. v. Kellogg Brown & Root
L.L.C., No. CIV.A. H-11-0585, 2011 WL 1157634, at *3
(S.D. Tex. Mar. 24, 2011). The court emphasized that
even if proven, the allegations would not support the
public policy defense and held that the “[e]nforcement
of an arbitration award or other judgment in favor of
one party alleged to have committed fraud against the
other party allegedly engaged in the same fraudulent

57a
misconduct does not violate the most basic notions of
morality and justice.” Id. The court explained that
public policy does not favor allowing a party engaged in
fraud to attempt to use fraud as a defense to a valid
arbitration award in favor of its alleged co-conspirator.
Id. The same reasoning is applicable here. It does not
violate public policy to enforce an arbitration award
against parties who were alleged to have mutually
engaged in some misconduct during the formation of a
contract, particularly when that contract was later
ratified.
Accordingly, Petrobras has not met its burden of
showing that the Tribunal’s contract interpretation
violates some explicit public policy. Petrobras’s attempt
to relitigate the merits of its contract dispute and the
general appeal to a public policy against paying and
accepting bribes to form contracts does not meet the
high burden of showing that enforcement of the actual
arbitration decision in this case would violate the most
basic notions of morality and justice.
2. Article V(1)(d)
Article V(1)(d) permits courts to refuse enforcement
of arbitration awards when “[t]he composition of the
arbitral authority or the arbitral procedure was not in
accordance with the agreement of the parties.” Art.
V(1)(d). See Encyclopaedia Universalis S.A. v.
Encyclopaedia Britannica, Inc., 403 F.3d 85, 90 (2d Cir.
2005). Petrobras alleges that the Court should refuse to
confirm the Final Award because “Judge Brower failed
to comply with the requirements in the parties’
arbitration agreement that he ‘remain neutral,
impartial, and independent regarding the dispute and

58a
the parties,”’ as agreed upon in the Third Novation.
Doc. #46 at 22. However, the composition of the
Tribunal was in accordance with the agreement of the
parties as specified in the Third Novation. Doc. #1, Ex.
D at ¶ 24.2. The parties chose the forum for handling
their dispute, arbitration. And, the parties agreed to a
panel of three arbitrators–one appointed by each party
and one by the ICDR. That is what they received. The
fact that Petrobras disputes whether Judge Brower
was neutral does not transform Petrobras’s dislike for
one of the arbitrators into a violation of Article
V(1)(d).10 Accordingly, Petrobras’s argument that the
Court refuse the Final Award under Article V(1)(d)
fails.
IV.

Jurisdiction under FSIA

Lastly, Petrobras argues that the Court does not
have jurisdiction over Petróleo Brasileiro under the
Foreign Sovereign Immunities Act (“FSIA”). However,
Petrobras’s argument is without merit. The FSIA
provides that a foreign state is not immune from the
jurisdiction of the courts of the United States in a case
to enforce an arbitral award where the confirmation
proceeding is governed by treaty. 28 U.S.C.
§ 1605(a)(6). See Chevron Corp. v. Republic of Ecuador,
949 F. Supp. 2d 57, 62 (D.C. Cir. 2013). This is a
confirmation proceeding governed by the Convention to
10

Petrobras makes the same arguments against the Judge Brower
to support its Article V(1)(d) argument that it alleged in the
Motion for Vacatur under Section 10(a)(2). See supra II.B. The
Court did not find that the allegations of Petrobras concerning
Judge Brower rose to the level of evident partiality and a rehash
of these arguments is not appropriate under Article V(1)(d).

59a
enforce an arbitration award. Therefore, no immunity
to suit that might apply under FSIA is applicable to
this proceeding. Accordingly, Petrobras’s argument
that the FSIA deprives the Court of jurisdiction over
Petróleo Brasileiro is contrary to governing law.
V.

Conclusion

For the foregoing reasons, Vantage’s Petition to
Confirm the Arbitration Award is GRANTED.
Petrobras’s Motion to Vacate the Award is DENIED.
It is so ORDERED.
DATED this May 17, 2019
/s/ A H Bennett
The Honorable Alfred H. Bennett
United States District Judge

60a

APPENDIX D
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
CIVIL ACTION NO. 4:18-CV-02246
[Entered: May 22, 2019]
_______________________________________
VANTAGE DEEPWATER COMPANY, )
et al,
)
)
Plaintiffs,
)
)
VS.
)
)
PETROBRAS AMERICA INC, et al,
)
)
Defendants.
)
_______________________________________)
FINAL JUDGMENT
On May 17, 2019, the Court granted Petitioners
Vantage Deepwater Company and Vantage Deepwater
Drilling, Inc.’s (“Vantage”) Motion to Confirm the
arbitration award (the “Final Award”) issued by the
arbitration tribunal in the case captioned Vantage
Deepwater Co. et al. v. Petrobras America Inc., et al.,
No. 01-15-0004-8503. Doc. #146. In the same Order, the
Court denied Respondents Petrobras America Inc.,
Petrobras Venezuela Investments & Services, BV, and

61a
Petróleo Brasileiro S.A. – Petrobras’s (“Petrobras”)
Motion to Vacate the Final Award. Id.
Accordingly, the Court ORDERS that:
1. The Final Award is RECOGNIZED and
CONFIRMED.
2. Petitioners recover from Respondents, jointly
and severally:
a. U.S. $733,968,000.00 (comprised of the
award amount of U.S. $622,020,000.00 plus
additional interest as provided for in the
award of U.S. $111,948,000.00 through May
22, 2019);
b. Costs of court, pursuant to Federal Rule of
Civil Procedure 54(d); and
c. Post-judgment interest on all foregoing
amounts calculated at the federal statutory
post-judgment interest rate set in 28 U.S.C.
§ 1961 of 2.32%, and running from the day
after entry of this Final Judgment until paid.
All writs and processes for the enforcement and
execution of this Final Judgment and costs shall issue
as necessary and allowable by law, including, to the
extent applicable, 28 U.S.C. § 1610.
This is a final judgment. The Court DENIES all
relief not granted in this judgment.
It is so ORDERED.
DATED this May 22, 2019

62a
/s/ A H Bennett
The Honorable Alfred H. Bennett
United States District Judge

63a

APPENDIX E

INTERNATIONAL CENTRE FOR DISPUTE RESOLUTION
ICDR Case No. 01-15-0004-8503

Vantage Deepwater Company
Vantage Deepwater Drilling, Inc.
Claimants
v.
Petrobras America Inc.
Petrobras Venezuela Investments & Services, BV
Petróleo Brasileiro S.A. (Petrobras Brazil)
Respondents
FINAL AWARD

64a
Table of Contents
I.

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
A. The Parties and Counsel . . . . . . . . . . . . . . . . . 1
B. Constitution of the Tribunal . . . . . . . . . . . . . . 3
II.
Overview of the Dispute . . . . . . . . . . . . . . . . . 4
A. The Arbitration Provisions . . . . . . . . . . . . . . . 4
B. Nature of the Controversy . . . . . . . . . . . . . . . 6
C. Procedural Rules . . . . . . . . . . . . . . . . . . . . . . . 7
D. Language . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
E. Key Contract Provisions . . . . . . . . . . . . . . . . . 8
III.
Procedural History . . . . . . . . . . . . . . . . . . . . 23
A. Initial Communication . . . . . . . . . . . . . . . . . 23
B. Applicable Arbitration Rules . . . . . . . . . . . . 23
C. Jurisdiction of Tribunal over PVIS and PAI
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
D. Challenge to and Replacement of Arbitrator
Keltner . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
E. Demand for Arbitration and Subsequent
Briefs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
F. Document Production . . . . . . . . . . . . . . . . . . 26
G. Third Party Subpoenas . . . . . . . . . . . . . . . . . 32
H. Claimants’ Change of Counsel . . . . . . . . . . . 32
I. Submissions . . . . . . . . . . . . . . . . . . . . . . . . . . 33
J. Evidentiary Hearings . . . . . . . . . . . . . . . . . . 38
K. Post-Hearing Submissions . . . . . . . . . . . . . . 39
L. Deliberations and Award Drafting . . . . . . . . 39
M. Close of Hearing . . . . . . . . . . . . . . . . . . . . . . 39
N. Final Iterations of Parties’ Positions . . . . . . 40
O. SEC Filing of 4 May 2018 . . . . . . . . . . . . . . . 41
P. Claimants’ Withdrawn Tort Claims . . . . . . . 42
IV.
Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . 43
A. Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43
B. Counterclaims . . . . . . . . . . . . . . . . . . . . . . . . 47

65a
V.

Analysis of Vantage’s Claims . . . . . . . . . . . . 48
A. Breach of Contract. . . . . . . . . . . . . . . . . . . . . 48
B. Bribery and Corruption. . . . . . . . . . . . . . . . . 54
C. Respondents’ Breach of the Duty of Good
Faith and Fair Dealing . . . . . . . . . . . . . . . . . 60
D. “Limitation of Liability” Clause 19.9 of
the DSA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61
E. Unpaid Invoices: Chinook 6 Lien . . . . . . . . . 65
VI.
Analysis of Respondents’ Counterclaims . . . 67
A. Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67
B. Bribery and Corruption. . . . . . . . . . . . . . . . . 69
C. Contract as Void, Voidable, and
Unconscionable . . . . . . . . . . . . . . . . . . . . . . . 72
D. Common Law Fraud and Fraudulent
Inducement . . . . . . . . . . . . . . . . . . . . . . . . . . 74
E. Assisting in Breach of Fiduciary Duty . . . . . . 77
F. Civil RICO Violations . . . . . . . . . . . . . . . . . . 78
G. Civil Conspiracy . . . . . . . . . . . . . . . . . . . . . . 79
H. Negligent Misrepresentation . . . . . . . . . . . . 80
I. Unjust Enrichment (Money Had and
Received) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81
J. Constructive Trust . . . . . . . . . . . . . . . . . . . . 82
K. Exemplary Damages for Alleged Fraud. . . . . . 83
L. Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . 84
VII. Damages Analysis . . . . . . . . . . . . . . . . . . . . . 85
A. Quantum . . . . . . . . . . . . . . . . . . . . . . . . . . . . 85
B. Interest. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 90
C. Bareboat Charter. . . . . . . . . . . . . . . . . . . . . . 92
D. Offset (Profits, Fees and Costs). . . . . . . . . . . 95
VIII. Costs and Attorneys’ Fees . . . . . . . . . . . . . . . 95
A. Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . 95
B. Respondents’ Position . . . . . . . . . . . . . . . . . . 97
C. Claimants’ Position . . . . . . . . . . . . . . . . . . . . 98
D. Tribunal Analysis . . . . . . . . . . . . . . . . . . . . . 99

66a
IX.

Majority Comment on the Objection and
Dissent . . . . . . . . . . . . . . . . . . . . . . . . . . . . 100
X.
Disposition . . . . . . . . . . . . . . . . . . . . . . . . . . 100
A. Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . 100
B. Claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 101
C. Counterclaims . . . . . . . . . . . . . . . . . . . . . . . 101
D. Costs and Attorneys’ Fees . . . . . . . . . . . . . . 101
Signatures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 102
Annexes: Parties’ Summaries of Claims . . . . . . . . 103

67a
We the undersigned arbitrators, having been
designated in accordance with the arbitration
agreement entered into between the above-named
parties, contained in the Third Novation of the
Agreement for the Provision of Drilling Services, dated
27 October 2014, having been duly sworn, and having
duly heard the proofs and allegations of the parties, do
hereby, AWARD, as follows.
I.

Introduction

1.

Pursuant to the Commercial Rules of the
American Arbitration Association (the “AAA
Commercial Rules”), the Arbitral Tribunal
constituted in this present case (the “Tribunal”)
hereby renders this Award.

2.

Except where context requires otherwise,
conclusions of the “Majority” or the “Tribunal” in
respect to jurisdiction, liability, and quantum,
represent views of Messrs. Brower and Park.

3.

The terms “Claimants” and “Vantage” will be
used interchangeably, as will the terms
“Respondents” and “Petrobras.”

4.

Claimants and Respondents are collectively
referred to as the “Parties.”

A. The Parties and Counsel
1. Claimants
5.

Claimants in this arbitration are Vantage
Deepwater Company and Vantage Deepwater
Drilling, Inc. (collectively, “Claimants” or
“Vantage”).

68a
6.

Unless otherwise indicated or as required by
context, reference to “Vantage” in the singular
indicates Claimants in these proceedings.

7.

Vantage Deepwater Company is a company
organized and established under the laws of the
Cayman Islands, with its registered office at c/o
Maples Corporate Services Limited, P.O. Box
309, Ugland House, Grand Cayman, KY1-1104,
Cayman Islands.

8.

Vantage Deepwater Drilling, Inc. is a Delaware
corporation with its registered office at 777 Post
Oak Boulevard, Suite 800, Houston, Texas
77056, United States of America.

9.

Claimants are represented by:
Karl Stern, Esq.
Charles Eskridge, Esq.
Kate Kaufmann Shih, Esq.
Quinn Emanuel Urquhart & Sullivan, LLP
Pennzoil Place
711 Louisiana St., Suite 500
Houston, TX 77002
karlstern@quinnemanuel.com
charleseskridge@quinnemanuel.com
kateshih@quinnemanuel.com
Tel: +1 (713) 221-7000
Tai-Heng Cheng, Es.
Quinn Emanuel Urquhart & Sullivan LLP
51 Madison Avenue, 22nd Floor,
New York, New York 10010
taihengcheng@quinnemanuel.com
Tel: +1 (212) 849-7000

69a
Paul J. Dobrowski, Esq.
Danielle N. Andrasek, Esq.
Dobrowski, Larkin & Johnson
4601 Washington Ave. #300
Houston, Texas 77007
pjd@doblaw.com
dna@doblaw.com
Tel: + 1 (713) 659-2900
2. Respondents
10.

Respondents in this arbitration are Petrobras
America Inc., Petrobras Venezuela Investments
& Services, BV, and Petróleo Brasileiro S.A.
(collectively, “Respondents” or “Petrobras”).

11.

Unless otherwise indicated or as required by
context, reference to “Petrobras” in the singular
indicates Respondents in these proceedings.

12.

Petrobras America Inc. is a Delaware
corporation with its registered office at 10350
Richmond Avenue, Suite 1400, Houston, Texas
77042, USA.

13.

Petrobras Venezuela Investments & Services
B.V. is a company organized and established
under the laws of the Netherlands with its
registered office at Prins Bernhardplein 200,
1097 JB, Amsterdam, Netherlands.

14.

Petróleo Brasileiro S.A (Petrobras Brazil) is a
company organized and established under the
laws of Brazil with its registered office at
Avenida Republica do Chile, 330, Rio de Janeiro
– RJ, 20031-170, Brazil.

70a
15.

Respondents are represented by:
Andrew B. Derman, Esq.
William M. Katz, Jr., Esq.
Catherine W. Clemons, Esq.
Thompson & Knight LLP
One Arts Plaza
1722 Routh Street, Suite 1500
Dallas, Texas 75201
Andrew.Derman@tklaw.com
William.Katz@tklaw.com
Catherine.Clemons@tklaw.com
Telephone: + 1 (214) 969-1700
Fernando Gama, Esq.
Petrobras America, Inc.
10350 Richmond Avenue
Suite 1400
Houston, TX 77042
f.gama@petrobras.com

B. Constitution of the Tribunal
16.

On 31 August 2015, Claimants filed their Notice
of Arbitration against Respondents and
nominated David Keltner, Esq. as their partynominated arbitrator. Judge Keltner was
subsequently removed as arbitrator and
replaced by Judge Brower, as noted below.

17.

Respondents nominated James M. Gaitis, Esq.
as their party-nominated arbitrator, with the
appointment confirmed by the IDCR/AAA on 9
December 2015.

71a
18.

On 24 March 2016, following a preliminary
telephone call with counsel for both sides, the
AAA confirmed appointment of Professor
William W. Park as the presiding arbitrator
(Chairman) in these proceedings.

19.

To fill the vacancy created by removal of Judge
David Keltner, the AAA on 30 September 2016
confirmed the appointment of Judge Charles N.
Brower as Claimants’ party-nominated
arbitrator.

VDEEP

Vantage Deepwater Company

VDDI

Vantage Deepwater Drilling,
Inc.

PAI

Petrobras America Inc.

PVIS

Petrobras Venezuela
Investments & Services, BV

Petrobras Brazil

Petróleo Brasileiro S.A.

Contract, Parties’
Agreement, DSA
or Drilling
Services
Agreement

Agreement for the Provision of
Drilling Services (4 February
2009), the original contract
entered into by PVIS and
VDDI, subsequently amended
by Novation including First
(2012), Second (2013), and
Third (2014) Novation
Agreements, and First (2009),
Second (2012), and Third
(2013) Amendment
Agreements

72a
First Novation

First Novation of the DSA, 18
April 2012

Second Novation

Second Novation of the DSA,
20 December 2013

Third Novation

Third Novation of the DSA, 27
October 2014

WACC

Weighted Average Cost of
Capital, for use in damages
calculation

BSEE

Bureau of Safety and
Environmental Enforcement

FCPA

United States Foreign Corrupt
Practices Act

BCA

Bareboat Charter Agreement

SEC

United States Securities and
Exchange Commission

II.

Overview of the Dispute

A. The Arbitration Provisions
20.

This arbitration arises from an instrument
which, in the proceedings, has been alternatively
described as (i) the Contract, (ii) the DSA,
(iii) the Drilling Services Agreement, and/or (iv)
the Parties’ Agreement.

21.

The Tribunal considers those various labels as
referring to the operative parts of the same
commitments between the two sides to this

73a
proceeding. Such commitments derive from the
Agreement for the Provision of Drilling Services
between Petrobras Venezuela Investments &
Services B.V. and Vantage Deepwater Company
dated 4 February 2009, including relevant
amendments, novations and associated
guarantees, as described in the First Procedural
Order of 4 May 2016, revised on 3 June 2016, 8
June 2016, 1 July 2016 and 17 October 2016.
22.

The applicable dispute resolution provision is set
forth below, as contained in paragraph 8.1 of the
Third Novation, amending Clause 24.2 of the
Drilling Services Agreement, referred to as “the
Contract” in paragraph 8.1 of the Third
Novation:
Resolution of Disputes. The parties shall
exclusively and finally resolve any dispute or
controversy (“Dispute”) between them arising
out of this Contract, including any claim,
liability, loss, demand, damages, lien, or cause of
action, (“Claim”) using direct negotiations and
arbitration as set out in this article 24.2. A Party
who violates this Article 24.2 shall pay all legal
and consulting fees and costs incurred by the
other Party in any suit, action or proceeding to
enforce Article 24.2. While the procedures in this
Article 24.2 are pending, each Party shall
continue to perform its obligations under this
Agreement and Contract, unless to do so would
be impossible or impracticable under the
circumstances.

74a
Arbitration. If the Dispute is not resolved by
direct negotiations in good faith between the
parties in dispute, then the Dispute shall be
finally settled by binding arbitration and either
Party may at any time initiate such arbitration
by giving notice to the other Party. The
arbitration shall be conducted in accordance
with the Commercial Arbitration Rules of the
International Center for Dispute Resolution of
the American Arbitration Association (“AAA”).
To the extent of any conflicts between the
applicable Arbitration Act or the AAA Rules and
the provisions of this Agreement, the provisions
of this Agreement shall prevail. The AAA is the
appointing authority. The place of the
arbitration shall be Houston, Texas and the
language of the arbitration shall be English.
The number of arbitrators shall be three, one
indicated by each Party and the third indicated
by the two arbitrators previously selected.
The following provisions shall apply to any
arbitration proceedings commenced pursuant to
this Section:
(A)
The number of arbitrators shall be one if
the Parties in dispute agree to a single
arbitrator. Otherwise, the number of
Arbitrators shall be three.
(B)
The arbitrator or arbitrators must remain
neutral, impartial and independent
regarding the Dispute and the Parties.
(C)
The Parties shall submit true copies of all
documents considered relevant with their

75a

(D)

(E)

(F)

respective statements of claim or defense
and any counterclaim or reply. Neither
Party may compel the other to produce
additional documents. However, the
arbitrator or arbitrators may decide to
require the submission of additional
documents limited to specific, narrow and
well-defined classes of documents that the
arbitrator considers or arbitrators
consider necessary for the arbitrator’s or
arbitrators’ understanding and resolution
of the Dispute.
The Parties waive any Claim for, and the
arbitrator has or arbitrators have no
power to award, the damages waived and
released. The arbitrator has or arbitrators
have no authority to appoint or retain
expert witnesses for any purpose unless
agreed to by the Parties. The arbitrator
has or arbitrators have the power to rule
on objections concerning jurisdiction,
including the existence or validity of this
arbitration clause and the existence or
the validity of this Agreement.
All arbitration fees and costs shall be
borne equally regardless of which Party
prevails. Each Party shall bear its own
costs of legal representation and witness
expenses.
The arbitrator is or arbitrators are
authorized to take any interim measures
as the arbitrator considers or arbitrators
consider necessary, including the making
of interim orders or awards or partial

76a

(G)

(H)

final awards. An interim order or award
may be enforced in the same manner as a
final award using the procedures specified
below. Further, the arbitrator is or
arbitrators are authorized to make pre- or
post-award interest at applicable
statutory interest rates during the
relevant period.
The arbitrator or arbitrators must render
a reasoned award in writing. The award
is final and binding.
The Dispute will be resolved as quickly as
possible.

Enforceability.
(I)
The Parties waive irrevocably their right
to any form of appeal, review or recourse
to any court or other judicial authority, to
the extent that such waiver may be
validly made.
(J)
Proceedings towards granting injunctive
relief measures may be brought in any
court having jurisdiction over the person
or assets of the non-prevailing Party.
(K)
Proceedings to enforce judgment entered
on an award may be brought in any court
having jurisdiction over the person or
assets of the nonprevailing Party. The
prevailing Party may seek, in any court
having jurisdiction, judicial recognition of
the award, or order of enforcement or any
other order or decree that is necessary to
give full effect to the award.

77a
(L)

The foregoing arbitration provisions shall
be governed by and construed in
accordance with the laws of Texas, USA.

Confidentiality.
(M) The Parties agree that any Dispute and
any negotiations and arbitration
proceedings between the Parties in
relation to any Dispute shall be
confidential and will not be disclosed to
any third party.
(N)
The Parties further agree that any
information, documents or materials
produced for the purposes of, or used in,
negotiations, mediation or arbitration of
any Dispute shall be confidential and will
not be disclosed to any third party.
(O)
Without prejudice to the foregoing, the
Parties agree that disclosure may be
made:
(1)
In order to enforce any of the provisions of
this Agreement including without
limitation, the Parties agreement to
arbitrate, any arbitration order or award
and any court judgment.
(2)
To the auditors, legal advisers, insurers
and Affiliates of that Party to whom the
confidentiality obligations set out in this
Agreement shall extend.
(3)
Where that Party is under a legal or
regulatory obligation to make such
disclosure, but limited to the extent of
that legal obligation.

78a
(4)

With the prior written consent of the
other Party.

B. Nature of the Controversy
23.

The Parties’ difference relates to an oil drilling
rig (also called a deep-water drilling ship) leased
by Vantage to Petrobras for a period of eight (8)
years, delivered on 7 December 2012 with an
expected lease period until 7 December 2020.

24.

The rental arrangement was cancelled on 31
August 2015, leaving a term to run of
approximately five years and three months.

25.

The rental was concluded at a rate of US$
490,000 per day with a 12.5% bonus.

26.

Claimants seek compensation for the alleged
breach of contract through early termination.

27.

Respondents deny liability and also seek
damages through multiple counterclaims, many
related to alleged fraudulent inducement of the
DSA.

C. Procedural Rules
28.

Although an ambiguity in the DSA (discussed
below) triggered some initial uncertainty, both
sides ultimately agreed on application of the
American Arbitration Association’s Commercial
Arbitration Rules.

29.

The applicable rules for this proceeding thus
include the following: (i) the AAA’s Commercial
Arbitration Rules; (ii) the ICDR Guidelines for

79a
Arbitrators Concerning Exchanges of
Information; and (iii) the AAA’s Accelerated
Exchange Program.
30.

The above-mentioned ambiguity derived from
Clause 24.2 of the Drilling Services Agreement
as amended by the Third Novation (Clause
8.1.1), which cited “Commercial Arbitration
Rules of the International Center for Dispute
Resolution.”

31.

The provision has been interpreted to apply the
AAA Commercial Rules, which, in Rule 7,
provide as follows, with the singular “arbitrator”
construed to include a three-member tribunal:
(a) The arbitrator shall have the power to rule
on his or her own jurisdiction, including any
objections with respect to the existence, scope, or
validity of the arbitration agreement or to the
arbitrability of any claim or counterclaim.
(b) The arbitrator shall have the power to
determine the existence or validity of a contract
of which an arbitration clause forms a part.
Such an arbitration clause shall be treated as an
agreement independent of the other terms of the
contract. A decision by the arbitrator that the
contract is null and void shall not for that reason
alone render invalid the arbitration clause.
(c) A party must object to the jurisdiction of the
arbitrator or to the arbitrability of a claim or
counterclaim no later than the filing of the
answering statement to the claim or
counterclaim that gives rise to the objection. The

80a
arbitrator may rule on such objections as a
preliminary matter or as part of the final
award.1
32.

Despite their mention in earlier iterations of the
Parties’ agreements, it is clear that the LCIA
Rules do not apply.

D. Language
33.

The First Procedural Order (i) designated the
language of the hearing to be English and
(ii) assigned the duty of arranging any required
interpretation of oral testimony to the Parties.

E. Key Contract Provisions
34.

For convenience, the following key provisions of
the DSA and related documents have been set
forth below, given their frequent consultation by
the Tribunal, without any suggestion that other
relevant contract language has not been
considered. The arbitration provisions from
which the Tribunal derives its jurisdiction have
been set forth supra.

35.

The Tribunal notes that the DSA and related
documents often vary in connection with use of
“Article” and “Clause” as referenced in the
various contract documents. The DSA generally
uses the term “Article” for the main titles, but
internally refers to provisions as “Clauses”.

1

AAA Commercial Rule 7. See Procedural Order of 1 July 2016 at
¶ 11 (reciting the Parties’ agreement to the applicable AAA
procedural rules).

81a
Similar variations occur among the DSA and the
Novation agreements.
36.

For example, the Third Novation “Clause 8.1”
speaks in the same provision, concerning
arbitration, of both “Clause 24.2” and “Article
24.2”. The provision on “Reimbursements and
Other Charges” is given the heading “Article 16”
but later in Clause/Article 9.1.1.1 reference is
made to “Clause 16” concerning unpaid invoices.
The Guarantee generally uses the term “Article”.

37.

In this Award, unless context requires some
other reading, no significance will be given to
the two terms, which will on occasion be used
interchangeably. As a general matter, the label
“Article” will be given to an overall heading,
with “Clause” reserved for subdivisions.
1. Original DSA
Clause 4.1 Term
4.1.1 This Contract shall be valid from the Effective
Date. The Term of this Contract shall commence on
the Commencement Date and shall be valid and in
force for:
4.1.1.1 a period of eight (8) years from such
Commencement Date (the “Initial Term”); and
4.1.1.2 an additional period of up to two (2) years at
the sole discretion of the COMPANY on the same
terms and conditions of this Contract provided that
the Parties may negotiate a revision of the
Operational Daily Rate.

82a
4.1.2 If, at the end of the Term, Drilling Operations
for a Well are ongoing, the Term shall be extended
so that CONTRACTOR shall conclude such
operations, and any such extension shall be on the
same terms and conditions as otherwise apply
under this Contract.2
Clause 9.1 Termination
This Contract shall terminate without notice at the
end of the Term or any extension thereof. In
addition to the foregoing, and notwithstanding any
other provision of this Contract, this Contract may
only be terminated:
9.1.1 By COMPANY, for the following reasons:
....
9.1.1.2
if any relevant CONTRACTOR item suffers
substantial structural damage or major breakdown
not caused by Company, (a “Material Breakdown”),
unless CONTRACTOR has sent written notice to
COMPANY within five (5) days following occurrence
of the Material Breakdown that it elects to remedy
such Material Breakdown, and such remedy, in the
reasonable opinion of COMPANY, can be effected
within a period of one hundred and eighty (180)
days from the date of such notice, (each a “Material
Breakdown Suspension Period”); provided, however,
that COMPANY may terminate this Contract at
any time following the expiration of the Material
2

J-001 Agreement for the Provision of Drilling Services, Cl. 4, at 9.

83a
Breakdown Suspension Period if the Material
Breakdown is not cured to the satisfaction of
COMPANY prior to such expiration. For avoidance
of doubt, the remedy of such Material Breakdown
shall not be considered as a repair of the Drilling
Unit and CONTRACTOR shall not be entitled to
receive any Daily Rate or reimbursement for the
period commencing upon the date of such Material
Breakdown and ending upon the date such Material
Breakdown is remedied to the satisfaction of
COMPANY;
9.1.1.3
if CONTRACTOR commits a material breach of its
obligations under this Contract.
....
9.1.1.7
if CONTRACTOR repeatedly fails to conduct the
Services in accordance with Good Oil and Gas Field
Practices; or
....
9.1.3
By either Party:
...
9.1.3.2
if any of the other Party’s representations and
warranties are false in any material respect;
provided however, CONTRACTOR shall not have

84a
the right to terminate the Contract under this
Clause for COMPANY’s inability to secure
COMPANY’s Authorizations in which case
COMPANY shall nominate an alternative Country
of operation.3
Clause 9.2: Termination for convenience
9.2.1 COMPANY shall not be entitled to terminate
this Contract for convenience.4
Clause 9.3 Cure
With respect to each of the items of default
identified in Clauses 9.1., items 9.1.1.3 to 9.1 1.8,
and 9.1.3, the right of COMPANY or
CONTRACTOR to terminate this Contract shall be
suspended if, after the defaulting Party has been
provided Notice of such default, it has, within five
(5) days of such Notice, advised the other Party in
writing that it elects to remedy such default. If
within thirty (30) days of receipt of the original
Notice of default the defaulting Party has failed to
cure such default or to commence to cure (in the
event the remedy will take longer than the cure
period) to the non-defaulting Party’s reasonable
satisfaction, the non-defaulting Party shall be
entitled to terminate this Contract. No Daily Rate
shall be due during such thirty (30) day cure period

3

J-001 Agreement for the Provision of Drilling Services, Cl. 9.1, at
14-6.
4

J-001 Agreement for the Provision of Drilling Services, Cl. 9.2, at
16.

85a
or any other period to cure the CONTRACTOR’s
default, if such default prevents the Drilling Unit to
properly perform the Drilling Operations.5
Clause 10.1 Basic Obligations
10.1.1 CONTRACTOR shall perform the Services
without undue delays or interruptions, and in so
doing, shall comply with Applicable Law, this
Contract, the respective Drilling Programs and
Good Oil and Gas Field Practices.6
Clause 10.2 Drilling Operations
CONTRACTOR shall perform all Drilling
Operations and related services in strict accordance
with the Drilling Program and in full compliance
with Applicable Law and Good Oil and Gas Field
Practices.7
Clause 10.4 CONTRACTOR Personnel
10.4.1 CONTRACTOR shall provide CONTRACTOR
Personnel in the numbers and with the
classifications set forth in APPENDIX G, in order to
allow the Drilling Unit to achieve full performance
of the Services, including offline capability.

5

J-001 Agreement for the Provision of Drilling Services, Cl. 9.3, at
16.
6

J-001 Agreement for the Provision of Drilling Services, Cl. 10.1,
at 17.
7

J-001 Agreement for the Provision of Drilling Services, Cl. 10.2,
at 17.

86a
10.4.2 CONTRACTOR shall at all times enforce
strict discipline and good order among
CONTRACTOR Personnel and CONTRACTOR
Subcontractors to abide by the rules and regulations
set forth onboard the Drilling Unit.
10.4.3 CONTRACTOR shall, at its own expense and
as soon as possible, replace any CONTRACTOR
Personnel as may be reasonably requested by
writing.
10.4.4 CONTRACTOR may not replace any
CONTRACTOR Key Personnel or change any of
their duties, even on a temporary basis, without the
prior consent of COMPANY, which shall not be
unreasonably withheld or delayed. All
CONTRACTOR Key Personnel shall be fluent in
spoken and written English.
10.4.5 CONTRACTOR Personnel shall be skilled,
experienced, competent and efficient and shall meet
or surpass any qualifications that are required
under this Contract or by Applicable Law and
CONTRACTOR’s training and experience
standards. CONTRACTOR shall deliver curriculum
vitae (i) for CONTRACTOR Key Personnel
according to appendix G at least thirty (30) days
prior to Mobilization Initial Date and such
personnel shall be subject to the approval of
COMPANY which should not be unreasonably
withheld; and (ii) for CONTRACTOR Personnel or
any CONTRACTOR Subcontractor as and when
required by COMPANY.

87a
10.4.6 Subject to Clauses 10.4.3 and 10.4.4, the
selection, replacement, hours of labor, shifts,
remuneration and all other aspects and matters
concerning CONTRACTOR Personnel and
employees shall be determined solely by
CONTRACTOR, in accordance with Applicable Law,
it being understood that such personnel shall be the
employees solely of CONTRACTOR and not of
COMPANY.
10.4.7 CONTRACTOR shall observe all
employment-related Applicable Law in each of the
Countries and the country of origin of
CONTRACTOR.
10.4.8 Whenever CONTRACTOR has knowledge
that any actual or potential labor dispute is
delaying or threatens to delay the timely
performance of the Services, CONTRACTOR shall
immediately give written notice thereof, including
all relevant information regarding the cause and
nature of such dispute, to COMPANY.
10.4.9 CONTRACTOR shall be solely responsible for
the administration of any and all costs, expenses or
liabilities connected with CONTRACTOR
Personnel, including:
10.4.9.1 the payment of wages, salaries, overtime,
social security contributions, vacation pay, bonuses
and living allowances, if any, including payment of
applicable Taxes, expenses, indemnities, insurance
premiums and benefits required by
CONTRACTOR’s employment policies or by
Applicable Law;

88a
10.4.9.2 the cost of accommodation, traveling and
transport, subsistence and medical treatment,
except as expressly set forth in this Contract; and
10.4.9.3 the provision of all required Authorizations,
including but not limited to, passports, visas, work
permits, driving licenses, health certificates and all
licenses and permits related to CONTRACTOR
Personnel or required to operate CONTRACTOR
Items in the applicable Country.8
Clause 10.14 Ethics
10.14.1 CONTRACTOR agrees to follow the United
States Foreign Corrupt Practices Act and any
similar Applicable Law adopted in the Countries or
by the Parties. Notwithstanding the foregoing,
CONTRACTOR shall immediately notify
COMPANY of any request CONTRACTOR receives
to take any action that might constitute a violation
against what is set forth in this Clause.
10.14.2 CONTRACTOR represents that it has not
paid or granted, and shall not offer or grant or agree
to give to any person acting or to be nominated or
on behalf of the foregoing as a government officer or
employee in the services of federal and municipal
government or any government official or public
international organization or any agency,
department or instrumentality thereof, any gift or
fee or gratuity or rebate of any kind, directly or
indirectly, or consideration of any kind as an

8

J-001 Agreement for the Provision of Drilling Services, Cl. 10.4,
at 19.

89a
inducement or reward for doing forbearing to do or
for having done or forborne to do any act in relation
to the obtaining or execution of this Contract or for
showing or forbearing to show favor or disfavor to
any person in relation to this Contract or to
COMPANY.
10.14.3 CONTRACTOR represents that it has not
paid or granted and shall not offer or grant or agree
to give to any person in the services of COMPANY
any gift or fee or gratuity or rebate of any kind,
directly or indirectly, or consideration of any kind as
inducement or reward for doing or forbearing to do
or for having done or forborne to do any act in
relation to the obtaining or execution of this or any
other contract for COMPANY or for showing or
forbearing to show favor or disfavor to any person in
relation to this or any other contract with
COMPANY.
10.14.4 CONTRACTOR represents that no owner,
partner, officer, director or employee of
CONTRACTOR is a government officer or employee
in the services of federal and municipal government
or any government official or public international
organization or any agency, department, or
instrumentality thereof. In case such owner,
partner, officer, director or employee becomes a
government official during the Term,
CONTRACTOR shall notify COMPANY as soon as
possible.9

9

J-001 Agreement for the Provision of Drilling Services, Cl. 10.14,
at 25-6.

90a
Clause 10.15 Compliance with Law
CONTRACTOR acknowledges and agrees that it
will be transporting the Drilling Unit between the
Countries and conducting Drilling Operations in
each of the Countries. CONTRACTOR shall comply
with all Applicable Law, including all Applicable
Law in each of the Countries, in connection with the
Services performed by CONTRACTOR.
CONTRACTOR shall, at its sole cost and expense,
obtain all Authorizations (including drilling
permits) needed to conduct the Services within the
Countries, which by their nature or under
Applicable Law are required to be applied for or
supplied by or issued in the name of
CONTRACTOR, except as otherwise set forth
in Clause 11.2 herein. COMPANY and/or the
relevant Permitted Assignee shall, whenever
reasonably requested by CONTRACTOR, assist
CONTRACTOR in obtaining such Authorizations;
provided that compliance with this Clause shall
remain the sole responsibility of CONTRACTOR.
CONTRACTOR shall establish and register an
office in the Countries (and any applicable political
subdivision thereof), qualify as an organization
operating and doing business therein, and register
and file such notices and tax returns with the
relevant Governmental Authorities as may be
required by Applicable Law. The cost of any fees or
Taxes which may arise as a result of
CONTRACTOR’s negligence or failure to comply

91a
with Applicable
CONTRACTOR.10

Law

shall

be

borne

by

Clause 10.19 Independent Contractor
CONTRACTOR shall be an independent contractor
and in no event shall any member of
CONTRACTOR Group be considered an agent or
employee of COMPANY. Therefore, CONTRACTOR
shall be in complete charge of CONTRACTOR
Items, CONTRACTOR Personnel and
CONTRACTOR Subcontractors, with the right,
duties and responsibilities to control, manage and
direct the detailed manner and means of
performance and the Services to be carried out
under this Contract, subject to COMPANY’s right to
give instructions as to the scope and program of the
Services and general powers to inspect, monitor or
to suspend the Services in order to ensure that the
Services are being carried out with due care,
diligence, efficiency, in a safe and workmanlike
manner, without undue delays or interruptions,
observing at all times Good Oil and Gas Field
Practices and the terms and conditions of this
Contract.11

10

J-001 Agreement for the Provision of Drilling Services, Cl. 10.15,
at 26.
11

J-001 Agreement for the Provision of Drilling Services, Cl. 10.19,
at 27.

92a
Clause 10.20 Business Practices
10.20.1 COMPANY and CONTRACTOR are aware
of a practice where consultants (termed “Illegal
Information Brokers”) approach contractors and
offer them confidential information or illicit
influence to obtain business through corruption of
the competitive bidding process.
10.20.2 CONTRACTOR recognizes that the practice
of “Illegal Information Brokering” or any other
corruption of the contract award process is not
permitted by COMPANY and CONTRACTOR
warrants and represents that it has not and will not
utilize “Illegal Information Brokering” in connection
with this Contract.
10.20.3 CONTRACTOR agrees that if an Illegal
Information Broker approaches CONTRACTOR
concerning this Contract, CONTRACTOR will
promptly contact COMPANY. COMPANY
undertakes that the information will be treated
with the utmost confidentiality and also that
COMPANY will handle this Contract with extra
security measures in order to prevent any
competitor from gaining any unfair advantage.
10.20.4 CONTRACTOR Group shall:
10.20.4.1 take no action on behalf of COMPANY, in
the performance of the Services, that would subject
any Party to liability or penalty under any and all
laws, rules, regulations, or decrees of any
Governmental Authority;

93a
10.20.4.2 ensure that all invoices, financial
settlements, reports and billings by CONTRACTOR
under this Contract reflect properly the facts about
all activities and transactions handled for its
account hereunder; and
10.20.4.3 notify COMPANY promptly upon
discovery of any instance where CONTRACTOR has
not complied with the requirements of Subsection
(i); or (ii) above.
10.20.5 CONTRACTOR Group shall not without the
prior written consent of COMPANY: (a) use the
name or any trade name or registered trademark of
COMPANY or of any of its Affiliates in any
advertising or communications to the public in a
format except as necessary to perform the Services;
or (b) make publicity releases or announcements,
except as required by Applicable Law, regarding
this Contract or any related activities.12
Clause 10.21 Conflict Of Interest
CONTRACTOR shall exercise reasonable care and
diligence to prevent any actions or conditions which
could result in a conflict with COMPANY’s
interests. This obligation shall apply to the
activities of CONTRACTOR’s employees and agents
in their relations with COMPANY’s employees and
their families, representatives, vendors,
subcontractors, and Third Parties. CONTRACTOR’s
efforts shall include establishing precautions to

12

J-001 Agreement for the Provision of Drilling Services, Cl. 10.20,
at 27-8.

94a
prevent its employees or agents from making,
receiving, providing or offering gifts or
entertainment of more than nominal value,
payments, loans, or other consideration.13
Clause 10.23 Background Checks
CONTRACTOR shall, to the extent as permitted by
law, obtain background checks on such employees
and agents and in such manner as is specified in
APPENDIX J.14
Clause 13.2 Safety Measures
CONTRACTOR shall take all necessary measures
by acting to preserve or to protect the environment
and the Well from adverse effects of
CONTRACTOR’s activities and to minimize any
nuisance which may arise from performance of the
Services and to avoid and control Kicks, Blow Outs
and reservoir damages and spills or seepages.
CONTRACTOR shall provide, operate, and
maintain, in good working condition, all necessary
gas detectors, spark arresters, automatic shutdown
devices and proper safety devices and guards on
CONTRACTOR Items. Whenever oil or gas is
encountered in sufficient quantities to jeopardize
CONTRACTOR items or the Well, CONTRACTOR
shall shut down any heaters, fires, or other

13

J-001 Agreement for the Provision of Drilling Services, Cl. 10.21,
at 28.
14

J-001 Agreement for the Provision of Drilling Services, Cl. 10.23,
at 29.

95a
equipment and appurtenances that might constitute
a hazard.15
Clause 13.6 CONTRACTOR Personnel
13.6.1 CONTRACTOR shall ensure that all
CONTRACTOR Personnel and CONTRACTOR
Subcontractors shall comply with all Applicable
Law regarding safety, environmental protection,
pollution control and the HSE Requirements.16
Clause 13.7 CONTRACTOR’s Environmental Policy
13.7.1 At least thirty (30) days prior to the
Commencement Date CONTRACTOR shall prepare
and submit to COMPANY an environmental
protection work plan specific to the Services. This
plan shall describe the environmental protection
issues and risks associated with, and the
management system that will be used in, the
execution of the Services, and CONTRACTOR’s
programs in place to address these issues.
CONTRACTOR shall provide and maintain at each
location where the Services are being carried out or
provided a copy of such plan together with
documentation evidencing compliance therewith.
13.7.2 CONTRACTOR shall perform this Contract
in such a way as to prevent or avoid environmental
damage or pollution.
15

J-001 Agreement for the Provision of Drilling Services, Cl. 13.2,
at 36.
16

J-001 Agreement for the Provision of Drilling Services, Cl. 13.6,
at 39-40.

96a
13.7.3 CONTRACTOR shall maintain each site free
and clear from any and all obstructions which are
caused by CONTRACTOR, CONTRACTOR
Personnel or CONTRACTOR Subcontractors.
CONTRACTOR shall have cleared any debris which
CONTRACTOR may have caused and restored each
site to the reasonable satisfaction of COMPANY
and in accordance with Applicable Law prior to
demobilization of the Drilling Unit from each site.17
Clause 15.3 Operational Daily Rate
Except as otherwise set forth in this Contract,
COMPANY shall pay CONTRACTOR the
Operational Daily Rate during the Term. The
Operational Daily Rate will be in the amount stated
in the APPENDIX F per day (pro rata for partial
days) for each Country.18
Clause 19.9 Consequential Damages
Neither COMPANY on one hand, nor the
CONTRACTOR on the other hand (nor its
respective Affiliates) shall be liable to the other
party for any indirect, incidental, special, punitive,
consequential or exemplary Damages, whether any
claim for such losses or damages is based on
contract, warranty, tort (including negligence, joint,
concurrent or several, in any amount), strict

17

J-001 Agreement for the Provision of Drilling Services, Cl. 13.7,
at 40.
18

J-001 Agreement for the Provision of Drilling Services, Cl. 15.3,
at 42.

97a
liability or otherwise, or other fault of any of the
other Party . . . including, without limitation, loss of
revenue, loss of profits, loss of production, business
interruptions, use of capital, reservoir loss or
damage, however same may be caused (collectively
“Consequential Damages”).19
Clause 24.1 Governing Law
This Contract shall be construed, enforced and
governed in accordance with the laws of England
and Wales, excluding, however, any provision
thereof which would refer to the application of the
laws of any other jurisdiction.20
Clause 24.2 Disputes
CONTRACTOR, on the one hand and COMPANY
on the other hand (each a “Disputing Party”) agree
to negotiate or to settle in good faith any and all
claims, controversies, differences and/or disputes
(each a “Dispute”), at any time, arising out of or in
connection with this Contract, including any
questions regarding its existence, interpretation,
validity, termination or any breach thereof,
following the giving of notice in writing to the other
Disputing Party specifying the cause thereof.21

19

J-001 Agreement for the Provision of Drilling Services, Cl. 19.9,
at 55.
20

J-001 Agreement for the Provision of Drilling Services, Cl. 24.1,
at 62.
21

J-001 Agreement for the Provision of Drilling Services, Cl. 24.2,
at 62.

98a
Clause 27.1 Contractor Representations
CONTRACTOR represents and
COMPANY as to it itself that:

warrants

to

27.1.1 It is duly organized, validly existing and in
good standing under the laws of the Cayman
Islands.
27.1.2 It has all necessary power and authority to
execute, deliver and perform its obligations under
this Contract (including its Appendices), and each
of the execution, delivery and performance by it of
this Contract (including its Appendices) has been
duly authorized by all necessary action on its part.
27.1.3 Neither the execution and delivery by it of
this Contract, nor the consummation by it of any of
the transactions contemplated hereby, requires any
Authorizations (i) except such as are not yet
required (as to which it has no reason to believe
that the same will not be readily obtainable in the
ordinary course of business upon due application
thereof); or (ii) which have been duly obtained and
are in full force and effect.
27.1.4 It has duly and validly executed and
delivered this Contract and this Contract
constitutes a legal, valid and binding obligation of
it enforceable against it in accordance with its
terms.
27.1.5 It has all of the required skills and capacity
(including any capacity in terms or means,
expertise, human resources and technical
capability) necessary to perform, or cause to be

99a
performed, the Services in accordance with the
terms of this Contract.
27.1.6 It has knowledge of all Applicable Law and
business practices that must be followed in
performing the Services.
27.1.7 It is financially solvent, able to pay its debts
as they mature and possessed of sufficient working
capital to complete its obligations under this
Contract.
27.1.8 It owns or has the right to use all the
patents, trademarks, service marks, trade names,
copyrights, licenses, franchises, permits or rights
with respect to the foregoing necessary to perform
the Services and to carry on its business as
presently conducted and presently planned to be
conducted without conflict with the rights of others.
27.1.9 The execution of this Contract does not
contravene any other contract executed with a
Third Party.
27.1.10 Without prejudice to any other rights or
remedies t ha t CO MP AN Y m a y ha v e,
CONTRACTOR acknowledges and agrees that
Damages alone would not be an adequate remedy
for any breach of the terms of this Contract by the
CONTRACTOR. Accordingly,
COMPANY shall be entitled, without proof of
special damages, to the remedies of injunction,
specific performance or other equitable relief for any
threatened or actual breach of the terms of this
agreement.

100a
27.1.11 Nothing in this Contract is intended to, or
shall be deemed to establish any partnership or
joint venture between any of the Parties, constitute
any Party the agent of another Party, nor authorize
any Party to make or enter into any commitments
on or behalf of any other Party.
27.1.12 Each Party shall and shall use all
reasonable endeavors to procure that any necessary
Third Party shall execute, acknowledge and deliver
such further documents or instruments, and do all
further similar acts, as may reasonably be required
for the purpose of giving full effect to this
Contract.22
Clause 27.5. No Waiver
No Party shall be deemed to have waived, released
or otherwise reduced any of its rights under this
Contract unless such Party has expressly stated its
intention to do so in a written instrument duly
executed by such Party; provided further that any
such instrument shall relate only to such matter,
non-compliance or breach as it expressly refers to,
and therefore shall not apply to any subsequent or
other matter, non-compliance or breach whatever.23

22

J-001 Agreement for the Provision of Drilling Services, Cl. 27.1,
at 65-6.
23

J-001 Agreement for the Provision of Drilling Services, Cl. 27.5,
at 67-8.

101a
2. Novations
a) First Novation
Clause 3.6
The Parties acknowledge and agree that in relation
to their respective obligations, duties and liabilities
(whether in contract, tort or delict including
negligence or for breach of duty, statutory or
otherwise) under the Contract:
(a)

(b)

(c)

any obligations, duties and liabilities of PVIS
owed to VANTAGE under the Contract in
respect of the period prior to the Novation
Date which remain undischarged at the
Novation Date shall not be deemed to be
waived by VANTAGE by virtue of this
Novation Agreement;
any obligations, duties and liabilities of
VANTAGE owed to PVIS under the Contract
in respect of the period prior to the Novation
Date which remain undischarged at the
Novation Date shall not be deemed to be
waived by PVIS by virtue of this Novation
Agreement;
any obligations, duties and liabilities of PAI
owed to VANTAGE US under the Contract
incurred during the Novation Term which
remain undischarged at the end of the
Novation Term shall not be deemed to be
waived by VANTAGE US by virtue of the
reassignment of the Contract to PVIS and
VANTAGE (or another Affiliate); and

102a
(d)

any obligations, duties and liabilities of
VANTAGE US owed to PAI under the
Contract incurred during the Novation Term
which remain undischarged at the end of the
Novation Term shall not be deemed to be
waived by PAI by virtue of the reassignment
of the Contract to PVIS and VANTAGE (or
another Affiliate).24

b) Second Novation
Clause 3.6
The Parties acknowledge and agree that in relation
to their respective obligations, duties and liabilities
(whether in contract, tort or delict including
negligence or for breach of duty, statutory or
otherwise) under the DSA:
(a)

(b)

24

any obligations, duties and liabilities of
ASSIGNOR owed to VANTAGE under the
DSA in respect of the period prior to the
Transfer Date which remain undischarged at
the Transfer Date shall not be deemed to be
waived by VANTAGE by virtue of this
Agreement;
any obligations, duties and liabilities of
VANTAGE owed to ASSIGNOR under the
DSA in respect of the period prior to the
Transfer Date which remain undischarged at
the Transfer Date shall not be deemed to be

J-005 Novation and Amendment Agreement to the Agreement
for the Provision of Drilling Services, Cl. 3.6, at 4-5.

103a

(c)

(d)

25

waived by ASSIGNOR by virtue of this
Agreement;
any obligations, duties and liabilities of
ASSIGNEE owed to VDDI and VDVIC,
respectively, under the DSA incurred during
the Committed Programme and the
Contingent Programme (if exercised
pursuant to Section 2.12 of this Agreement)
which remain undischarged at the end of the
Committed Programme shall not be deemed
to be waived by VDDI and VDVIC,
respectively, by virtue of the reassignment of
the DSA to ASSIGNOR and VANTAGE (or
another Affiliate); and
any obligations, duties and liabilities of
VDDI and VDVIC, respectively, owed to
ASSIGNEE under the DSA incurred during
the Committed Programme and the
Contingent Programme (if exercised
pursuant to Section 2.12 of this Agreement)
which remain undischarged at the end of the
Committed Programme and the Contingent
Programme (if exercised pursuant to Section
2.12 of this Agreement) shall not be deemed
to be waived by ASSIGNEE by virtue of the
reassignment of the DSA to ASSIGNOR and
VANTAGE (or another Affiliate).25

J-008 Second Agreement to the Agreement for the Provision of
Drilling Services, Cl. 3.6, at 14.

104a
c) Third Novation
Clause 3.6
The Parties acknowledge and agree that in relation
to their respective obligations, duties and liabilities
(whether in contract, tort or delict including
negligence or for breach of duty, statutory or
otherwise) under the Contract:
a) any obligations, duties and liabilities of each of
the Parties owed to the other Parties under the
Contract shall not be deemed to be waived by any of
the Parties by virtue of the novation, assignment or
reassignment of the Contract pursuant to this Third
Novation Agreement.26
Clause 3.7
PVIS and PAI hereby expressly agree to be jointly
and severally liable to the Vantage Parties for each
of the obligations and liabilities of PAI or PVIS
under and pursuant to the Contract from the
Effective Date until the remainder of the Third
Novation Period.27
Clause 8.1
The Parties agree that during only that period of
time from the Effective Date until the remainder of

26

J-010 Third Novation and Amendment Agreement to the
Agreement for the Provision of Drilling Services, Cl. 3.6, at 6.
27

J-010 Third Novation and Amendment Agreement to the
Agreement for the Provision of Drilling Services, Cl. 3.7, at 6.

105a
the Third Novation Period, the Contract shall be
amended as follows:
8.1.1 Clause 24.1, 24.2 and 24.3 of the Contract
shall be deemed entirely deleted and replaced by
the following wording:
24.1 GOVERING LAW
This Contract shall be governed by, interpreted,
enforced and construed in accordance with the
general maritime law of the United States of
America, not including, however, any of its conflicts
of law rules which would direct or refer the Parties
to the laws of any other jurisdiction. If, for any
reason, the general maritime law of the United
States of America is not applicable, then the
Contract will be governed by the laws of the State of
Texas, not including, however, any of its conflicts of
law rules which would direct or refer the Parties to
the laws of any other jurisdiction.
24.2 RESOLUTION OF DISPUTES
Resolution of Disputes. The parties shall exclusively
and finally resolve any dispute or controversy
(“Dispute”) between them arising out of this
Contract, including any claim, liability, loss,
demand, damages, lien, or cause of action, (“Claim”)
using direct negotiations and arbitration as set out
in this Article 24.2. A Party who violates this
Article 24.2 shall pay all legal and consulting fees
and costs incurred by the other Party in any suit,
action or proceeding to enforce Article 24.2. While
the procedures in this Article 24.2 are pending, each
Party shall continue to perform its obligations

106a
under this Agreement and Contract, unless to do so
would be impossible or impracticable under the
circumstances.
Arbitration. If the Dispute is not resolved by direct
negotiations in good faith between the parties in
dispute, then the Dispute shall be finally settled by
binding arbitration and either Party may at any
time initiate such arbitration by giving notice to the
other Party. The arbitration shall be conducted in
accordance with the Commercial Arbitration Rules
of the International Center for Dispute Resolution
of the American Arbitration Association (“AAA”). To
the extent of any conflicts between the applicable
Arbitration Act or the AAA Rules and the provisions
of this Agreement, the provisions of this Agreement
shall prevail. The AAA is the appointing authority.
The place of the arbitration shall be Houston, Texas
and the language of the arbitration shall be
English.
The number of arbitrators shall be three, one
indicated by each Party and the third indicated by
the two arbitrators previously selected.
The following provisions shall apply to any
arbitration proceedings commenced pursuant to this
Section:
(A)

The number of arbitrators shall be one if the
Parties in dispute agree to a single
arbitrator. Otherwise, the number of
Arbitrators shall be three.

107a
(B)

(C)

(D)

(E)

(F)

The arbitrator or arbitrators must remain
neutral, impartial and independent
regarding the Dispute and the Parties.
The Parties shall submit true copies of all
documents considered relevant with their
respective statements of claim or defense and
any counterclaim or reply. Neither Party
may compel the other to produce additional
documents. However, the arbitrator or
arbitrators may decide to require the
submission of additional documents limited
to specific, narrow and well-defined classes of
documents that the arbitrator considers or
arbitrators consider necessary for the
arbitrator’s or arbitrators’ understanding and
resolution of the Dispute.
The Parties waive any Claim for, and the
arbitrator has or arbitrators have no power
to award, the damages waived and released.
The arbitrator has or arbitrators have no
authority to appoint or retain expert
witnesses for any purpose unless agreed to
by the Parties. The arbitrator has or
arbitrators have the power to rule on
objections concerning jurisdiction, including
the existence or validity of this arbitration
clause and the existence or the validity of
this Agreement.
All arbitration fees and costs shall be borne
equally regardless of which Party prevails.
Each Party shall bear its own costs of legal
representation and witness expenses.
The arbitrator is or arbitrators are
authorized to take any interim measures as

108a

(G)

(H)

the arbitrator considers or arbitrators
consider necessary, including the making of
interim orders or awards or partial final
awards. An interim order or award may be
enforced in the same manner as a final
award using the procedures specified below.
Further, the arbitrator is or arbitrators are
authorized to make pre- or post-award
interest at applicable statutory interest rates
during the relevant period.
The arbitrator or arbitrators must render a
reasoned award in writing. The award is
final and binding.
The Dispute will be resolved as quickly as
possible.

Enforceability.
(I)
The Parties waive irrevocably their right to
any form of appeal, review or recourse to any
court or other judicial authority, to the extent
that such waiver may be validly made.
(J)
Proceedings towards granting injunctive
relief measures may be brought in any court
having jurisdiction over the person or assets
of the non-prevailing Party.
(K)
Proceedings to enforce judgment entered on
an award may be brought in any court
having jurisdiction over the person or assets
of the non-prevailing Party. The prevailing
Party may seek, in any court having
jurisdiction, judicial recognition of the award,
or order of enforcement or any other order or
decree that is necessary to give full effect to
the award.

109a
(L)

The foregoing arbitration provisions shall be
governed by and construed in accordance
with the laws of Texas, USA.

Confidentiality.
(M) The Parties agree that any Dispute and any
negotiations and arbitration proceedings
between the Parties in relation to any
Dispute shall be confidential and will not be
disclosed to any third party.
(N)
The Parties further agree that any
information, documents or materials
produced for the purposes of, or used in,
negotiations, mediation or arbitration of any
Dispute shall be confidential and will not be
disclosed to any third party.
(O)
Without prejudice to the foregoing, the
Parties agree that disclosure may be made:
(1)
In order to enforce any of the provisions of
this Agreement including without limitation,
the Parties agreement to arbitrate, any
arbitration order or award and any court
judgment.
(2)
To the auditors, legal advisers, insurers and
Affiliates of that Party to whom the
confidentiality obligations set out in this
Agreement shall extend.
(3)
Where that Party is under a legal or
regulatory obligation to make such
disclosure, but limited to the extent of that
legal obligation.

110a
(4)

With the prior written consent of the other
Party.28

Clause 10.5
All other terms and conditions of the Contract, any
subsequent amendments, purchase orders and
change orders not specifically modified in this Third
Novation Agreement shall remain in force and
binding on the Parties.29
III.

Procedural History

A. Initial Communication
38.

On 31 August 2015, Claimants filed their Notice
of Arbitration.

39.

On 5 April 2016 and 27 April 2016, the Tribunal
consulted with the Parties through telephone
conferences and evaluated written exchanges
between the two sides in anticipation of issuing
the First Procedural Order.

40.

On 4 May 2016, the Tribunal issued the First
Procedural Order, addressing matters related to
the timetable and applicable arbitration rules.

41.

Following consultation with the Parties, the
Tribunal adjusted the First Procedural Order on

28

J-010 Third Novation and Amendment Agreement to the
Agreement for the Provision of Drilling Services, Cl. 8.1, at 9-12.
29

J-010 Third Novation and Amendment Agreement to the
Agreement for the Provision of Drilling Services, Cl. 10.5, at 15.

111a
3 June 2016, 8 June 2016, 1 July 2016 and 17
October 2016.
B. Applicable Arbitration Rules
42.

On 17 November 2015, Respondents in
Respondents’ First Amended Answering
Statement and Counterclaim requested that the
Tribunal apply the International Rules of the
International Center for Dispute Resolution (the
“International Rules”) to this arbitration.

43.

Respondents also noted the “Commercial
Arbitration Rules of the International Center for
Dispute Resolution” (detailed in the Article 24.2
within Clause 8.1 of the Third Novation) do not
exist.

44.

In the First Procedural Order, the Tribunal
found that all Parties agreed that (i) the
applicable rules for this proceeding are the
AAA’s Commercial Arbitration Rules; (ii) the
ICDR Guidelines for Arbitrators Concerning
Exchanges of Information shall provide guidance
in this proceeding; and (iii) that the AAA’s
Accelerated Exchange Program shall apply to
this proceeding.

C. Jurisdiction of Tribunal over PVIS and PAI
45.

Claimants have asserted breach of contract and
breach of the duty of good faith and fair dealing
claims against all Respondents.

46.

Respondents contend PVIS and PAI are not
proper parties to this arbitration.

112a
47.

This Tribunal has noted in the First Procedural
Order that, subject to and without waiving the
jurisdictional arguments raised by two of the
Respondents, the Parties represent to the
Tribunal: (i) that all related entities necessary to
award any relief on Claimants’ claims or
Respondents’ counterclaims are already named
parties to this proceeding, and (ii) that no other
parent or affiliated company or other form of
entity must be joined as a party to this
proceeding for the Tribunal to award full and
complete relief among the Parties on their
respective claims and counterclaims.

D. Challenge to and Replacement of Arbitrator Keltner
48.

On 11 July 2016, the ICDR/AAA informed
Messrs. Gaitis and Park that Mr. David E.
Keltner had been removed as arbitrator in this
proceeding.

49.

Through email exchanges and during a
teleconference held on 13 July 2016, the
Tribunal requested the Parties’ views on
whether to continue with conducting the 19 July
2016 hearing (originally set for 22 July 2016, but
moved for a scheduling conflict).

50.

Claimants requested to reschedule the hearing,
with any determination on motions to compel, or
objections relating to the scope of disclosure,
adjourned until confirmation of the successor
arbitrator.

51.

Respondents requested to maintain the 19 July
2016 hearing date. Respondents were concerned

113a
that rescheduling the hearing would adversely
impact receipt of documents under outstanding
non-party subpoenas with a response date of 19
July 2016, issued pursuant to Section 7 of the
Federal Arbitration Act.
52.

In Procedural Order of 13 July 2016, the
Tribunal concluded, in the interest of efficiency,
to proceed with the 19 July 2016 hearing. The
Tribunal noted maintaining the hearing date for
19 July 2016 would reduce the risk of the
arbitration timetable sliding and jeopardizing
the three weeks of evidentiary hearings fixed for
May and June of 2017.

53.

Additionally, the Tribunal concluded that the 19
July 2016 hearing would be held only for the
purpose of receiving documents presented
pursuant to any subpoena duces tecum executed
by the Tribunal Chairman on 1 June 2016 and
signed by all three arbitrators sitting at that
time.

54.

The Tribunal also concluded that the telephone
hearings between counsel and all initially
appointed arbitrators, held on 5 April 2016, 27
April 2016 and 19 May 2016, constituted
commencement of hearings under Article 20(b)
of the AAA Commercial Arbitration Rules,
applicable to these proceedings.

55.

As a result, absent an agreement otherwise by
all Parties and the remaining two arbitrators,
the Tribunal emphasized no decision would be
made at the 19 July 2016 hearing, which was

114a
maintained only for the purpose of receiving
documents presented pursuant to a subpoena
duces tecum.
56.

On 11 August 2016, Vantage submitted a
request for withdrawal and change of counsel,
substituting the Quinn Emmanuel firm for the
lawyers at the Jackson Walker firm who had
initially represented Vantage.

57.

On 30 September 2016, the ICDR/AAA
confirmed that all steps had been taken to
permit Judge Charles N. Brower to be appointed
as successor arbitrator to Judge Keltner on the
present Tribunal.

E. Demand for Arbitration and Subsequent Briefs
58.

On 2 December 2016, Claimants filed their
Third Amended Demand for Arbitration.
Respondents filed Respondents’ Second
Amended Answering Statement and
Counterclaim.

59.

On 16 December 2016, Claimants filed their
Response to Respondents’ Second Amended
Answering Statement and Counterclaim.
Respondents filed their Response to Claimants’
Third Amended Demand for Arbitration. The
Tribunal acknowledged receipt of all
submissions to that date.

60.

On 22 December 2016, Respondents filed a letter
on the question of third-party funding, i.e.,
Letter Concerning Claimants’ Lenders Having a
Financial Interest in this Arbitration.

115a
61.

On 23 December 2016, the Tribunal
acknowledged receipt of the communication on
third-party funding. The Tribunal took notice
that Vantage confirmed that (i) no third-party
funder is financing these proceedings, (ii) none
of Claimants’ lenders have a right to the award,
and (iii) Claimants’ lenders did not require this
arbitration to be filed.

62.

On 3 January 2017, the Tribunal concluded that
there was no third-party funder with an interest
in this arbitration.

63.

On 6 January 2017, Respondents filed
Respondents’ Dispositive Motion and Brief in
Support seeking rulings on the following issues:
(i) whether the contract was obtained by bribery;
(ii) whether Claimants were bound by their
agents’ knowledge and participation, if any, in
the bribery scheme that obtained the Drilling
Services Agreement; (iii) whether the alleged
fraud was to vitiate the Drilling Services
Agreement; (iv) whether the Novations waive
any of Respondents’ rights; and (v) whether
Claimants are unable to recover most, if not all,
of the damages it is seeking in this arbitration,
assuming the Drilling Services Agreement is
enforceable.

64.

On 10 January 2017, Claimants filed an
Application to Strike Respondents’ Dispositive
Motion.

116a
65.

On 16 January 2017, Respondents filed a
Response to Claimants’ Application to Strike
Respondents’ Dispositive Motion.

66.

On 17 January 2017, Claimants filed a Reply to
Respondents’ Response to Claimants’
Application to Strike Respondents’ Dispositive
Motion

67.

On 25 January 2017, the Tribunal issued an
order that found no basis in the AAA Rules or its
prior orders to preclude Claimants’ Application
to Strike Respondents’ Dispositive Motion.

68.

On 27 January 2017, Claimants filed their
Opposition to Respondents’ Dispositive Motion,
along with the following documents in support:
(i) the Witness Statement of Douglas Halkett;
(ii) the Expert Report of E. Allen Jacobs; and
(iii) the Expert Report of Stephen Schwebel.

69.

On 16 February 2017, the Tribunal issued an
order declining to grant Respondents’
Dispositive Motion.

70.

On 17 February 2017, both Parties filed their
Pre-Hearing Briefs. Claimants subsequently
submitted Amended Annex A to their PreHearing Brief to correct a clerical error.

F. Document Production
71.

On 13 May 2016, both Parties submitted their
respective Redfern Requests for Document
Production.

117a
72.

On 10 October 2016, Claimants submitted their
objections to Respondents’ Redfern Requests.
Respondents also submitted their objections to
Claimants’ Redfern Requests on the same date.

73.

On 12 October 2016, the Tribunal revised the
First Procedural Order to set new deadlines for
the remainder of the proceedings and a new
venue for the hearing.

74.

On 14 October 2016, both Parties moved the
Tribunal to grant their respective document
requests.

75.

On the morning of 17 October 2016, the Parties
met to discuss their document requests, at which
time Vantage agreed to voluntarily produce
documents responsive to Petrobras’s Redfern
Requests Nos. 5 and 6, which production
Petrobras had sought to compel in their 14
October 2016 motion.

76.

Vantage later clarified that such voluntary
production was conditional. As reflected in the
third column of Claimants’ Objections to
Respondents’ amended Redfern Schedule,
Claimants agreed subject to either the
Tribunal’s order or Respondents’ agreement or
to “a reciprocal production by Respondents.”
Claimants confirmed this conditionality during
the telephone conference of 25 October 2016 (see
pages 22-23 of Transcript) and the letter of 4
November 2016 sent by Ms. Kate Shih on behalf
of Claimants. According to Mr. Stern, counsel for
Claimants, if the Tribunal denied Claimants’

118a
requests there would be no “equivalence” and
thus no reason for Claimants to offer the
documents (see pages 22-23 of Transcript to the
Telephone Conference of 25 October 2016).
77.

Following that conference of 17 October 2016,
Vantage submitted its Amended Reply in
Support of Redfern Requests and Motion to
Compel, which narrowed the scope of Vantage’s
initial Redfern Requests and reiterated
Vantage’s concern that Petrobras’s internal
organization personnel had gathered documents
for production without the supervision of
counsel.

78.

Vantage suggested that since Petrobras would
seek to compel production only of its Redfern
Requests Nos. 5 and 6, “[Petrobras’s] motion [to
compel] is moot.”

79.

In reply, Petrobras submitted that (i) Vantage
has “refused to narrow their wide-ranging
requests” and thus requested the Tribunal to
resolve a dispute over the scope of Document
Exchange as provided in Section 25 of the First
Procedural Order, and (ii) that Petrobras’s
motion to compel was not moot because a third
requested category of documents required
reciprocal production from Vantage for
“corresponding document requests” in
Petrobras’s Redfern Schedule.

80.

For the proposition of reciprocal exchange,
Petrobras cited the following: AAA-R 22(a) (The
Tribunal should “manage any necessary

119a
exchange of information among the parties with
a view to achieving an efficient and economical
resolution of the dispute, while at the same time
promoting equality of treatment and
safeguarding each party’s opportunity to fairly
present its claims and defenses”); ICDR
Guidelines for Arbitrators Concerning
Exchanges of Information at 1(a) (The Tribunal
“should endeavor to avoid unnecessary delay
and expense while at the same time balancing
the goals of avoiding surprise, promoting
equality of treatment, and safeguarding each
party’s opportunity to present its claims and
defenses fairly”).
81.

On 19 October 2016, Vantage objected to
Petrobras’s interpretation of the scope of
discovery, voicing concern that “Petrobras have
made no similar effort to narrow their original
broad Requests” and arguing that “in response
to [Vantage’s] narrowed requests, equality of
treatment does not require the Panel to compel
production in response to Petrobras’s broad
requests. In fact, doing so would constitute
improper, unequal treatment of [Vantage.]”

82.

With the agreement of both sides, on 25 October
2016 the Parties participated in a “Chairman
only” telephone conference with Professor Park,
with a transcript provided to Messrs. Brower
and Gaitis to permit them to review the points
raised during the conference. During the
conference, the Parties debated whether
Vantage’s Requests Nos. 5 and 6 would trigger a

120a
broadened scope of discovery under the alleged
“reciprocity” standard. The Parties also
discussed treatment of claims of privilege, in
terms of both applicable privileges and a
possible privilege log requirement. Since the
Parties came to no conclusion on these issues
during the hearing, the Tribunal (i) requested a
joint submission to summarize the issues
contested between the Parties and (ii) invited
further submissions on the issues of reciprocity
and claims of privilege.
83.

On 27 October 2016, both Parties met to confer
regarding (i) how the “reciprocity” argument the
Parties have identified should operate; and
(ii) how the Tribunal should deal with claims of
privilege. The same day, Petrobras submitted
Revised Redfern Requests with narrowed
document requests from Vantage which
Petrobras contended were reciprocal to
Vantage’s requests.

84.

On 28 October 2016, the Tribunal received (i) a
revised version of the 26 October hearing
transcript; and (ii) a letter from Vantage
concerning its views of reciprocity and claims of
privilege.

85.

On 1 November 2016, Vantage noted that
Petrobras did not include in its updated Redfern
Requests of 27 October any statement about the
necessity or relevance to the Tribunal’s
understanding of the dispute as required by
Section 25 of the First Procedural Order.
Vantage also conditionally narrowed its requests

121a
by (1) abandoning Vantage Requests Nos. 1–13
on the condition that production is not compelled
under either of Petrobras’s original broad
Requests or updated 27 October Requests Nos.
1 –13; and (ii) abandoning Vantage’s Requests
Nos. 23–27 on the condition that production is
not compelled under Petrobras’s original broad
Requests or 27 October Requests Nos. 23–27.
Vantage also contested the reciprocity of some of
Petrobras’s newly narrowed Requests from 27
October. In summary, Vantage conditioned its
narrowed production on Petrobras abandoning
its original broad Requests.
86.

On 2 November 2016, the Parties made a joint
submission summarizing the issues contested
between them.

87.

On 5 November 2016, Petrobras reiterated its
concern that Vantage’s voluntary production of
documents was incomplete and applied for a
ruling accordingly.

88.

On 7 November 2016, the Tribunal invited
Vantage to comment on Petrobras’s allegations
of 5 November 2016.

89.

On 7 November 2016, the Tribunal directed the
Parties to file their respective lists of definitive
document requests, to be made “without any
conditions of circularity, contingency,
reciprocity, or equivalence.” The Tribunal set 9
November 2016 (18:00) Houston time as the
deadline for all definitive lists and final filings
pertaining to document production.

122a
90.

On 9 November 2016, the Tribunal received each
Party’s final, definitive lists of Requests.

91.

On 10 November 2016, the Tribunal
acknowledged receipt of the Parties’ emails
concerning the final lists of document production
requests and invited counsel to submit brief
letters commenting on those lists, including
observations on the critiques articulated by the
other side.

92.

In response to the Tribunal’s invitation, the
Parties filed their observations at 15:00 Houston
Time on Friday 11 November 2016.

93.

On 17 November 2016, the Tribunal issued a
Procedural Order that (i) ruled on the final,
definitive list of specific Document Requests
from both Parties; (ii) ordered supervision by
each side’s outside named counsel to verify the
proper function of the production process;
(iii) ordered objections to production based on
privilege to be made within five calendar days;
(iv) set the deadline for production of documents
by 18 November, as required by the First
Procedural Order of 17 October 2016, but invited
the Parties to propose a new deadline within 48
hours from the Order; and (v) invited
Respondents to confirm Claimants’ corrections
to the Transcript of the 25 October 2016
telephone conference. On 18 November 2016, the
Tribunal issued an order declining to compel “all
documents considered relevant” to be attached to
amended pleadings on 2 December 2016.

123a
94.

On 14 December 2016, Claimants filed their
Letter on Applicable Privilege Law alongside
Claimants’ Privilege Log.

95.

On 16 December 2016, Respondents confirmed
they were not withholding documents based on
privilege. The Tribunal acknowledged receipt of
all submissions to date on document production.

96.

On 19 December 2016, Respondents filed their
Response to Claimants’ Privilege Claims.
Respondents argued that the crime-fraud
exception applies to negate many of Claimants’
privilege claims.

97.

On 23 December 2016, the Tribunal
acknowledged receipt of further communications
on (i) privilege claims and (ii) third-party
funding. With respect to privilege claims, the
Tribunal notified the Parties it would come to a
conclusion on the matter as soon as possible.

98.

On 3 January 2017, the Tribunal issued an
order: (i) confirming that there is no third-party
funding in this arbitration; (ii) inviting the filing
of an affidavit on Claimants’ privilege claims;
and (iii) inviting submissions on the crime-fraud
exception.

99.

On 6 January 2017, Claimants submitted (i) the
Affidavit of Kate Kaufmann Shih in Support of
Privilege Log and (ii) a proposed schedule of
submissions on the crime-fraud exception.
Respondents approved the submission schedule
the same day.

124a
100.

On 9 January 2017, Claimants submitted their
Letter on Deficiencies in Respondents’
Production, alleging that Respondents were
withholding documents that were subject to the
Tribunal’s document exchange order.

101.

Also, on 9 January 2017, Claimants and
Respondents came to an agreement regarding
the crime-fraud briefing. Claimants agreed to
produce drafts of the First, Second, and Third
Novations in exchange for Respondents agreeing
to moot the matter of the crime-fraud exception
raised in their 19 December 2016 Letter.

102.

On 17 January 2017, Respondents filed their
Response to Claimants’ 9 January 2017 Letter
Regarding Respondents’ Production.

103.

On 19 January 2017, Claimants filed their
Letter on Deficiencies in Respondents’
Production.

104.

On 23 January 2017, Respondents filed
(i) Respondents’ Application for Depositions of
Paul Bragg, Christopher Declaire and John
O’Leary; and (ii) Response to Claimants’ 19
January 2017 Letter Regarding Respondents’
Document Production.

105.

On 26 January 2017, the Tribunal issued a
Procedural Order ruling that a majority of the
Tribunal considered the Affidavit supplied by
Ms. Kate Shih adequate to sustain Claimants’
assertions of privilege, both under Texas law
and under the Tribunal’s Order of 3 January
2017.

125a
106.

On 28 January 2017, the Tribunal ordered
Respondents to complete its review and make
any remaining production by 2 February 2017
and that all parties remain subject to ongoing
obligations to produce responsive documents.

107.

On 2 March 2017, Claimants filed the letter on
Respondents’ Supplemental Production, alleging
that Respondents were still deficient in their
document production, and requesting that the
Tribunal make adverse inferences.

108.

On 7 March 2017, Respondents submitted their
Response to Claimants’ 2 March 2017 Letter
that (i) responded to Claimants’ allegations of
deficient document production and (ii) requested
a show-cause hearing because Claimants had
requested documents from a government agency
through the Freedom of Information Act after
the deadlines for Document Requests as set
forth in the First Procedural Order.

109.

On 9 March 2017, Claimants filed their Reply
Regarding Document Deficiencies and Response
to Respondents’ New Allegations.

110.

On 13 March 2017, Respondents filed their
Response to Claimants’ 9 March 2017 Letter.

111.

On 16 March 2017, the Tribunal issued a
Procedural Order which (i) reserved the
Tribunal’s discretion to draw adverse inferences
if subsequent developments were to show
documents had been wrongfully withheld, but
declining to make a ruling at that time;
(ii) declined to hold a show-cause hearing

126a
because the deadlines in the First Procedural
Order were intended to cover requests for
Tribunal’s orders and assistance, but not
Freedom of Information Act requests to
government agencies; and (iii) reminded counsel
that its Procedural Order of 28 January 2017
imposed an ongoing obligation to produce
responsive documents however late they may be
found.
112.

On 11 April 2017, Respondents filed a Motion to
Compel Claimants to produce additional
documents containing facts or data considered
by Claimants’ damages expert, Dr. E. Allen
Jacobs.

113.

On 14 April 2017, Claimants replied in their
Response to Respondents’ Motion to Compel.
The same day, Respondents filed a
Supplemental Expert Report of Dr. Robert
Maness.

114.

On 19 April 2017, Claimants filed their Surreply
Regarding Respondents’ Motion to Compel.

115.

On 24 April 2017, the Tribunal issued its
Procedural Order declining to grant
Respondents’ Motion to Compel of 11 April 2017.

116.

On 22 May 2017, Claimants submitted their
Application to Admit Evidence and Authorities
and Regarding Expert Direct Testimony, listing
as evidence: (i) the Bareboat Charter (C-1005);
(ii) the Purchase and Sale Agreement for the
Titanium Explorer (C-1006); (iii) a spreadsheet
showing all intercompany transfers made by

127a
Claimants pursuant to the Charter (C-1007);
(iv) an email exchange in October 2013 between
Claimants and Respondents regarding
ownership of the Titanium Explorer and Tax
Structures concerning the DSA (C-1008); (v) IRS
Notice 88-123, 1988-2 CB 458, A Study of
Intercompany Pricing under Section 482 of the
Code (CL-293); and (vi) Accounting Review
Bulletin 51, Consolidated Financial Statements
§6 (CL-294). In addition, Claimants applied to
extend the time for the direct testimony of Dr.
Jacobs and Dr. Maness from 15 to 30 minutes so
as to enable Dr. Jacobs to address the damages
arguments of Dr. Maness and Respondents.
Claimants requested, in the alternative, that the
Tribunal strike and decline to consider
Respondents’ damages arguments concerning
Claimants’ transfer pricing and bankruptcy
restructuring, depreciation, and tax liabilities.
117.

On 23 May 2017, Claimants submitted the
Slides of Judge Schwebel’s Testimony on the
Applicable Law on the Merits and the Applicable
Evidentiary Standards.

118.

On 23 May 2017, Respondents submitted a letter
to (i) oppose Claimants’ 22 May 2017 application
to admit certain evidence and (ii) extend the
time for the direct testimony of each respective
Party’s damages experts, claiming that
Claimants’ application conflicted with the First
Procedural Order and should be denied in its
entirety.

128a
119.

On 23 May 2017, Respondents provided a list of
Respondents, including name, specific address,
and place of incorporation. On the same day,
Claimants provided a list of their entities with
name, abbreviation, place of incorporation,
address, and role of each entity.

120.

On 24 May 2017, Claimants wrote to correct a
clerical error in their letter of 23 May 2017, in
which they mistakenly named Vantage Drilling
Company as the current corporate parent when
in fact the current corporate parent was Vantage
Drilling International. Claimants submitted a
corrected chart of Vantage entities.

121.

On 30 May 2017, Respondents wrote to request
permission to submit supplemental evidence
regarding damages produced by Claimants on 20
May 2017 and admitted into evidence during the
26 May 2017 session.

122.

On 31 May 2017, Claimants opposed
Respondents’ a ppl i ca t i on to submit
supplemental expert evidence from Dr. Maness
to address (i) Claimants’ exclusion from their
damages quantum of transfer of profits offshore
for tax reasons; and (ii) documents related to
this transfer of profits offshore through a charter
because Respondents had a fair opportunity to
address this issue at the hearing.

123.

On 1 June 2017, Claimants and Respondents
submitted their respective closing decks of
slides.

129a
124.

On 1 June 2017, Respondents submitted a letter
confirming both Parties’ consent that the
Tribunal not be bound to issue an award within
30 days of the last post-hearing submission
pursuant to AAA Commercial Rule 45.

125.

On 2 June 2017, Respondents submitted the
Second Supplemental Expert Report of Dr.
Maness.

126.

On 9 June 2017, Claimants submitted the
Second Rebuttal Report of Dr. Jacobs.

127.

On 9 June 2017, Claimants objected to
paragraphs 19–23 of the Second Supplemental
Expert Report of Dr. Maness for the reason that
the new arguments were beyond the scope of
what the Tribunal had granted on 26 May 2017.
Claimants asserted Dr. Maness’s arguments
were “entirely new” and had “nothing to do with
Exhibits 1005-1008.” Claimants requested that
the Tribunal ignore these arguments and
provided a response in the Second Supplemental
Rebuttal Report of Dr. Jacobs.

128.

On 14 June 2017, Respondents submitted a
response to Vantage’s objection to the Second
Supplemental Expert Report of Dr. Maness. Dr.
Maness was permitted by the Tribunal to submit
a supplemental expert report so long as the
report provided “new insights” and did not
“rehash old testimony” in relation to Exhibits C1005 to C-1008. Respondents’ argued in their
response letter that he had done so.
Respondents requested the Tribunal to overrule

130a
Claimants’ Objection because Dr. Maness’s new
report provided new insights on Exhibits C-1005
through C-1008.
129.

On 14 June 2017, the Tribunal acknowledged
receipt of Respondents’ 14 June 2017 letter
concerning paragraphs 19–23 of the Second
Supplemental Export Report of Dr. Maness.

130.

On 16 June 2017, the Tribunal ruled to admit
both the entire 2 June 2017 Report of Dr.
Maness and the 9 June 2017 Supplemental
Rebuttal Report of Dr. Jacobs.

G. Third Party Subpoenas
131.

On 19 July 2016, the Tribunal held a hearing to
(i) take and receive evidence subpoenaed from
non-parties, (ii) hear any disputes related to the
production of such non-party evidence, and
(iii) hear any disputes between the Parties
presented by the Redfern Schedule.

132.

Arbitrators James Gaitis and William W. Park
attended the hearing, but no witnesses
appeared. The hearing did not result in the
receipt of any evidence.

H. Claimants’ Change of Counsel
133.

On 11 August 2016, Claimants submitted Notice
of Withdrawal and Substitution of Counsel
notifying this Tribunal that Charles L. “Chip”
Babcock, Kent Sullivan, Kathy Silver and Luke
Gilman of Jackson Walker LLP would withdraw
the same day as counsel for Claimants, Vantage

131a
Deepwater Company and Vantage Deepwater
Drilling, Inc., in this proceeding.
134.

Effective the same day, Claimants substituted
as counsel of record Karl Stern, Charles
Eskridge, Tai-Heng Cheng, and Kate Kaufmann
Shih of Quinn Emmanuel Urquhart & Sullivan
LLP.

135.

On 12 August and 13 August 2016, arbitrators
William W. Park and James M. Gaitis wrote to
the ICDR/AAA disclosing that Claimants’
selection of Quinn Emmanuel as counsel would
not create circumstances as to call into question
the independence of their impartiality,
respectively.

136.

On 30 September 2016, the ICDR/AAA
confirmed the completed appointment of
arbitrator Judge Charles N. Brower.

137.

On 5 October 2016, the Parties jointly submitted
the Stipulated Extension of Confidentiality
Provisions, a joint stipulation facilitating the
Parties’ confidential communications with their
respective clients, consultants, and litigation
support vendors, and allowing third parties to
produce documents in connection with the
arbitration to avail themselves of the
confidentiality provisions.

138.

On 20 April 2017, Claimants notified the
Tribunal that Paul J. Dobrowski and Danielle N.
Andrasek of Dobrowski, Larkin & Johnson LLP
would also be appearing as additional counsel
for Claimants.

132a
I.

Submissions

139.

Set forth below are the submissions filed with
the Tribunal following its full constitution on 24
March 2016 through AAA’s confirmation of
Professor Park as Tribunal Chairman.

Date

Party

Document

13 May 2016

Vantage

Claimants’ Requests for
Disclosure of Documents

13 May 2016

Petrobras

Respondents’ Request for
Documents

10 Oct. 2016

Vantage

Claimants’ Objections to
Respondents’ Redfern
Requests

10 Oct. 2016

Petrobras

Respondents’ Objections
to Claimants’ First
Request for Disclosure of
Documents

14 Oct. 2016

Vantage

Claimants’ Reply in
Support of Redfern
Requests and Motion to
Compel

12 Oct. 2016

Petrobras

Respondents’ Motion to
Compel Production of
Documents

17 Oct. 2016

Vantage

C l a i m a nt s’ Am ended
Reply in Support of
Redfern Requests and
Motion to Compel

133a
17 Oct. 2016

Vantage
&
Petrobras

Agreement to Produce
Respondents’ Request
Nos. 5 and 6

20 Oct. 2016

Petrobras

Respondents’ Reply in
Support of Redfern
Requests

25 Oct. 2016

Vantage

Conference Call Hearing
Transcript

28 Oct. 2016

Vantage

Revisions to Arbitration
Hearing Transcript

28 Oct. 2016

Vantage

Report on 27 October
Meet and Confer

1 Nov. 2016

Vantage

Claimants’ Second
Amended Reply in
Support of Redfern
Requests and Motion to
Compel

2 Nov. 2016

Vantage
&
Petrobras

Joint Submission
Summarizing Issues
Currently Contested
Between The Parties

3 Nov. 2016

Petrobras

Respondents’ First
Amended Reply in
Support of Redfern
Requests

5 Nov. 2016

Petrobras

Application to Tribunal
on “Issues 1 and 2”

134a
9 Nov. 2016

Petrobras

Respondents’ List of
Definitive Document
Requests

9 Nov. 2016

Vantage

Letter Re: Issues 1 and 2
and List of Definitive
Document Requests

9 Nov. 2016

Vantage

Letter on Amended
Pleadings

10 Nov. 2016

Vantage

Application to Object to
Respondents’
9
November
Final
Document Requests

11 Nov. 2016

Vantage

R e s p o n s e t o
Respondents’
9
November Submission

11 Nov. 2016

Petrobras

Letter Response to
Claimants’ 11 November
Objection

11 Nov. 2016

Petrobras

Letter on Amended
Pleadings
and
Documentary Exhibits

18 Nov. 2016

Respondents

Confirmation
of
Claimants’ Corrections to
The 25 October 2016
Transcript

135a
19 Nov. 2016

Vantage
&
Petrobras

Letter on Agreed
Document Production
Deadline, P riv i l ege
Claim Deadline, and
Clarifying Gas Sensor
Date

2 Dec. 2016

Vantage

Third Amended Demand
for Arbitration

2 Dec. 2016

Petrobras

Respondent s’ Second
Amended Answering
Statement
and
Counterclaim

2 Dec. 2016

Petrobras

PAI 22646-52

14 Dec. 2016

Vantage

L et t e r o n Appli ca b l e
Privilege Law

14 Dec. 2016

Vantage

Claimants’ Privilege Log

15 Dec. 2016

Vantage

Response to Footnote 1 of
Respondents’ Second
Amended Answering
Statement
and
Counterclaim

16 Dec. 2016

Vantage

Response to Second
Amended Answering
Statement
and
Counterclaim

16 Dec. 2016

Petrobras

Response to Claimants’
Third Amended Demand
for Arbitration

136a
16 Dec. 2016

Petrobras

Confirmation That
Respondents Are Not
Withholding Documents
Based on Privilege and
Offering Comment on
Claimants’ Position on
Applicable Law

19 Dec. 2016

Petrobras

Respondents’ Response
to Claimants’ Privilege
Claims

22 Dec. 2016

Petrobras

Response to Claimants’
15 December 2016 Letter
Concerning Claimants’
Lenders Having A
Financial Interest in this
Arbitration

22 Dec. 2016

Vantage

Request Permission to
Respond to Respondents’
Letter Dated 22
December
2016
Regarding Claimants’
Lenders

23 Dec. 2016

Vantage

Letter on Privilege
Claims and Request to
Deny In Camera
Inspection

137a
24 Dec. 2016

Petrobras

Request to Submit
Supplemental Response
on Privilege Matters of
Claimants’ 23 December
Letter

27 Dec. 2016

Petrobras

Respondents’ Response
to Claimants’ Privilege
Claims

6 Jan. 2017

Vantage

Joint Agreement on
Schedule for CrimeFraud Issue Submissions

6 Jan. 2017

Petrobras

Respondents’ Dispositive
Motion and Brief in
Support

6 Jan. 2017

Vantage

Affidavit of Kate
Kaufmann Shih in
Support of Privilege Log

9 Jan. 2017

Vantage

Letter on Deficiencies in
Respondents’ Production

9 Jan. 2017

Vantage
&
Petrobras

Agreement Regarding
Crime-Fraud Briefing

10 Jan. 2017

Vantage

Application to Strike
Respondents’ Dispositive
Motion

12 Jan. 2017

Petrobras

Application to Respond
to Claimants’ Motion to
Strike

138a
16 Jan. 2017

Petrobras

Respondents’ Response
to Claimants’ Application
to Strike Respondents’
Dispositive Motion

17 Jan. 2017

Vantage

Application to Respond
to Respondents’ Letter
Regarding Production
Deficiencies

17 Jan. 2017

Petrobras

Response to Claimants’ 9
January 2017 Letter
Regarding Respondents’
Production

18 Jan. 2017

Petrobras

Respondents’ Response
to Claimants’ Privilege
Affidavit

19 Jan. 2017

Vantage

Letter on Deficiencies in
Respondents’ Production

23 Jan. 2017

Petrobras

Response to Claimants’
19 January 2017 Letter
Regarding Respondents’
Document Production

23 Jan. 2017

Petrobras

Respondents’ Application
for Depositions of Paul
Bragg , Chri stopher
Declaire, and John
O’Leary

139a
24 Jan. 2017

Vantage

Application to Respond
to
Respondents’
Application
for
Depositions

27 Jan. 2017

Vantage

Claimants’ Opposition to
Respondents’ Dispositive
Motion

27 Jan. 2017

Vantage

Witness Statement of
Douglas Halkett

27 Jan. 2017

Vantage

Expert Report of E. Allen
Jacobs

27 Jan. 2017

Vantage

Expert Report of Stephen
Schwebel

30 Jan. 2017

Vantage

Claimants’ Response to
Application
for
Depositions of Paul
Bra g g, Chri stopher
Declaire, and John
O’Leary

31 Jan. 2017

Petrobras

Application to Respond
to Claimants’ Comments
on
Respondents’
Application
for
Depositions

17 Feb. 2017

Petrobras

Respondents’ PreHearing Brief

17 Feb. 2017

Vantage

Claimants’ Pre-Hearing
Brief

140a
17 Feb. 2017

Vantage

Amended Annex A

2 Mar. 2017

Vantage

R e s p o n d e n t s ’
Supplemental Production

7 Mar. 2017

Petrobras

Response to Claimants’ 2
March 2017 Letter

9 Mar. 2017

Vantage

Reply Regarding
Document Deficiencies
and Response to
Respondents’ New
Allegations

13 Mar. 2017

Petrobras

Response to Claimants’ 9
March 2017 Letter

16 Mar. 2017 Vantage

Letter Notifying
Tribunal of Applicable
Paris Cour d’appel
Decision

17 Mar. 2017 Petrobras

Respondents’ PreHearing Response Brief

17 Mar. 2017

Vantage

Claimants’ Response to
Respondents’ PreHearing Brief

11 Apr. 2017

Petrobras

Respondents’ Motion to
Compel

14 Apr. 2017

Vantage

R e s p o n s e t o
Respondents’ Motion to
Compel

141a
14 Apr. 2017

Petrobras

Supplemental Expert
Report of Robert Maness,
Ph.D.

14 Apr. 2017

Vantage

Claimants’ Reply PreHearing Brief

14 Apr. 2017

Petrobras

Respondents’ PreHearing Reply Brief

19 Apr. 2017

Vantage

Surreply Regarding
Respondents’ Motion to
Compel

2 May 2017

Vantage

Request to Call
Witnesses Adversely

9 May 2017

Vantage

Joint Exhibits and
Claimants’ Exhibits

9 May 2017

Petrobras

Respondents’ Exhibit
List

12 May 2017

Vantage

Agreement on Expert
Witness Grouping

12 May 2017

Petrobras

Email on Padilha’s
Counsel and Scheduled
Testimony from Rio

22 May 2017

Vantage

Application to Admit
Evidence and Authorities
and Regarding Expert
Direct Testimony

142a
23 May 2017

Vantage

Response to Claimants’
22 May 2017 Application
to Admit Evidence and
Authorities
and
Regarding Expert Direct
Testimony

23 May 2017

Petrobras

L i s t o f R e s p ondent s,
Specific Address, Place of
Incorporation

23 May 2017

Vantage

Chart of Vantage
Entities, with error
corrected on 24 May 2017

23 May 2017

Vantage

Testimony of Stephen M.
Schwebel (Slides)

24 May 2017

Vantage

Corrected Chart of
Vantage Entities

30 May 2017

Petrobras

Respondents’ Application
to Submit Supplemental
Evidence Regarding
Damages

31 May 2017

Petrobras

(Slides) Testimony by
Expert Labiche

31 May 2017

Vantage

(Slides) Testimony by
Expert Danenberger

31 May 2017

Vantage

O p p o s i t i o n t o
Respondents’ Application
to Submit Supplemental
Expert Evidence

143a
1 June 2017

Petrobras

Closing Slides

1 June 2017

Vantage

Closing Slides

1 June 2017

Petrobras

Letter confirming the
consent of both Parties
that Tribunal not be
bound to Issue an award
within 30 days of the last
post-hearing submission
pursuant to AAA
Commercial Rule 45

2 June 2017

Petrobras

Second Supplemental
Expert Report of Robert
Maness, Ph.D.

9 June 2017

Vantage

Supplemental Rebuttal
Expert Report of E. Allen
Jacobs

9 June 2017

Vantage

Claimants’ Objection to
Maness’s Testimony

14 June 2017 Petrobras

Respondents’ Comments
on Claimants’ Objection
to
the
Second
Supplemental Expert
Report of Robert Maness,
Ph.D.

17 July 2017

Vantage

Claimants’ Post-Hearing
Brief

17 July 2017

Petrobras

Respondents’ PostHearing Brief

144a
17 July 2017

Vantage
&
Petrobras

Revised Exhibit Lists,
one
organized
chronologically and the
other by exhibit number

18 Aug. 2017

Vantage

Claimants’ Post-Hearing
Response Brief

18 Aug. 2017 Petrobras

Respondents’ PostHearing Response Brief

8 Sept. 2017

Affidavit of William M.
Katz, Jr. in Support of
Respondents’ Request for
Legal Fees and Expenses

Petrobras

As discussed in the body of this Award, only
Respondents made a request for costs. Claimants
maintain that the terms of the DSA preclude such
recovery from either side.
27 Sept. 2017

Vantage

Claimants’ Objections to
Respondents’ Fees
Affidavit

8 Dec. 2017

Vantage

Claimants’ Summary of
Claims and Defenses

8 Dec. 2017

Petrobras

Respondents’ Review of
Claims and Defenses
Remaining for Decision

22 May 2018

Vantage

Claimants’ Comments on
Submission of Exhibit R2076

145a
22 May 2018

Petrobras

Respondents’ Comments
on Submission of Exhibit
R-2076

J. Evidentiary Hearings
140.

Evidentiary hearings took place in Houston,
Texas from Tuesday 16 May 2017 through
Thursday 1 June 2017.

141.

On 1 May 2017, the Tribunal invited counsel to
confer on any open procedural protocols,
including time allocation, and to file a joint
status report by Wednesday 10 May 2017 in
preparation for the hearings scheduled for
Tuesday 16 May 2017 in Houston.

142.

On 11 May 2017, the Tribunal issued a
Procedural Order setting forth the hearing
protocol as follows:
a. After opening statements (up to 2.5 hours
each) Claimants’ fact witnesses will testify,
followed by Respondents’ fact witnesses.
b. On 22 May 2017 Mr. Padilha will testify in
English via videoconference from Rio, with
attorneys from both sides present.
c. Experts will be heard following fact
witnesses, grouped according to expert
disciplines, presented back-to-back within
each discipline, with Claimants’ experts
testifying first. The Tribunal reserves
discretion to recall experts for conferencing
as it deems appropriate after hearing their
testimony.

146a
d. The Parties shall present closing oral
arguments of up to 2.5 hours each.
e. Time for witness examination and crossexamination will be allocated according to a
principle of parity on a 50/50 basis, subject to
appropriate adjustment during hearings to
ensure the case is heard properly. The
Parties shall calculate the hours available for
each side based on a hearing day from 09:30
to 17:30, with an hour for lunch and two 15minute stretch breaks. Each side shall
designate a time-keeper, the two of whom
shall confer daily as to time used. Arbitrator
questions will normally be charged to the
side conducting the examination or crossexamination, except that exchanges over five
minutes will be allocated on a 50/50 basis.
Time spent on procedural objections will
normally be charged to the side conducting
the examination or cross-examination, except
if more than five minutes, in which event
time will be charged to the side against
which a ruling is made.
143.

On 12 May 2017, Respondents notified the
Tribunal that Mr. Padilha would be represented
by Morrison & Foerster, as well as by Monica
Bity, Rafael Guetta, and João Filipe Lima of
Eskanazi Pernidji Advogados and by Rodrigo
Brocchi of Barbuda Brocchi, Napolitano
Advogados.

147a
144.

On the same day, Claimants notified the
Tribunal that both Parties agreed on the
following grouping of expert witnesses:
Operations: Dr. Eric Van Oort, Dr. Alvaro
Felippe Negrao
International Law: Judge Stephen Schwebel
Regulatory: Elmer Danenberger, Lance Labiche
Damages: Dr. E. Allen Jacobs, Dr. Robert
Maness

K. Post-Hearing Submissions
145.

By letter of 7 June 2017, sent by Quinn
Emmanuel on behalf of both sides, the Parties
agreed to the following Post-Hearing Brief
schedule:
17 July 2017: Deadline for simultaneous PostHearing Briefs;
18 August 2017: Deadline for simultaneous
responsive Post-Hearing Briefs;
8 September 2017: Deadline to submit
simultaneously by affidavit and supporting
evidence any request for attorneys’ fees and
costs;
6 October 2017: Deadline for simultaneous
objections to affidavits and evidence submitted
in support of any request for attorneys’ fees and
costs.

146.

Claimants submitted their objections concerning
costs on 27 September 2017. In light of
Claimants’ position that the DSA precluded cost

148a
recovery, Vantage made no request for costs, and
thus Petrobras filed no objection.
L. Deliberations and Award Drafting
147.

The Tribunal deliberated during face-to-face
meetings in Boston at the offices of the
ICDR/AAA, as well as through email and
telephone exchanges.

148.

The Tribunal addressed procedural questions in
person during the May 2017 hearings and
through telephone and email exchanges at other
times.

149.

Arbitrator Gaitis ultimately declined to
participate in the award drafting process,
notwithstanding invitations from the Chairman,
copied to the American Arbitration Association.

M.

Close of Hearing

150.

By letter of 12 June 2017, the ICDR noted that
the last receipt of the final submission from the
Parties would represent the date of closing of the
hearings, absent a Tribunal direction or
agreement otherwise.

151.

The ICDR also confirmed that the Parties, by
letter dated 1 June 2017, provided consent that
the Tribunal need not be bound to issue an
award within thirty (30) days of the last posthearing submission pursuant to AAA
Commercial Rule 45.

152.

On 27 April 2018, the ICDR wrote to the Parties
that it had received notice from the Tribunal

149a
that no additional evidence was to be submitted,
and that hearings were declared closed as of 25
April 2018. The Parties were instructed not to
transmit any further communications or
documentation directly to the Tribunal.
153.

On 10 May 2018, Respondents applied to reopen
the hearings, as elaborated more fully infra in
connection with the United States Securities and
Exchange Commission (“SEC”) Filing of 4 May
2018.

154.

On 20 May 2018, having considered the Parties’
respective communications on Respondents’
application of 10 May 2018, the Tribunal ruled
that hearings would d be reopened for the
limited purpose of admitting and considering
Form 10-Q filed with the SEC on 4 May 2018 by
Vantage Drilling International, now labelled as
Exhibit R-2076.

155.

The ruling to re-open the hearings was issued by
a majority of the Tribunal, Judge Brower and
Chairman Park, as permitted by AAA Rule 44-B,
with Arbitrator Gaitis stating that he abstained
from deciding whether to reopen the record.

156.

The Parties were directed to submit any final
comments on the effect and weight to be given to
Exhibit R-2076, to be filed simultaneously, fortyeight (48) hours from issuance of this ruling,
after which the hearings were to be closed to
permit the Tribunal to consider the effect of
Exhibit R-2076 on this arbitration.

150a
157.

To ensure simultaneity in submissions, the
Parties were directed to send comments only to
Ms. Quiroz at the ICDR, who on receipt of
observations from both sides will forward them
to the Tribunal.

158.

On 22 May 2018, the Parties submitted final
comments on the effect and weight to be given to
that Exhibit R-2076, filed simultaneously
through the ICDR/AAA.

N. Final Iterations of Parties’ Positions
159.

On 27 November 2017, the Tribunal requested a
reiteration from each side of their currently
applicable requests for relief, given that a
number of changes had occurred since the
proceedings began. For example, on 15 May
2017 Claimants had withdrawn, and decided not
to pursue, their claims for fraudulent
inducement, negligent misrepresentation, and
promissory estoppel, as well as their claims for
reliance damages.

160.

These summaries were received on 8 December
2017 and have been inserted below as Annexes
to this Award.

161.

The Tribunal has included these summaries as
Annexes, to permit each side’s positions to
maintain their original style and format, one
being in table, and the other in narrative. The
location has no bearing on the status of the
summaries, which the Tribunal includes as
integral elements of the Award.

151a
O. SEC Filing of 4 May 2018
162.

Respondents on 10 May 2018 applied to reopen
the hearings to consider a document labeled
“Exhibit R-2076.” Respondents argued that the
document was not available when the Parties
were notified that the hearings had been closed.

163.

The exhibit in question is Form 10-Q, filed by
Claimants with the SEC on 4 May 2018 (“SEC
Report”). According to Respondents, the filing
discloses an agreement in principle between
Claimants and the SEC staff to settle Claimants’
alleged violations of the FCPA, including a
payment of US$ 5 million.

164.

The Tribunal acknowledged receipt
Respondents’ application that same day.

165.

Claimants commented on 11 May 2018,
contending that the hearings should not be
reopened as the information contained in the
Form 10-Q was available to Respondents since
31 December 2017. Moreover, Claimants argued
that evidence of the settlement would not be
admissible under Rule 408 of the Federal Rules
of Evidence and similar rules adopted by most
state courts.

166.

Respondents commented again on 13 May 2018,
arguing that their request was timely under
ICDR Rule 40, which allows the Tribunal to
reopen the hearings before an award is issued.
Respondents contended further that the
settlement agreement would be relevant if the
Department of Justice decision not to prosecute

of

152a
Claimants for bribery and corruption was
relevant.
167.

On 14 May 2018 Claimants commented again, to
the effect that they had cited the Department of
Justice decision not to prosecute Claimants only
in response to Respondents’ argument that
Claimants had admitted liability through
submissions to the Department of Justice.
Claimants cited their Post-Hearing Response
Brief at ¶ 81.

168.

Following the Tribunal’s decision to reopen the
hearings to admit Exhibit R-2076, the Parties
submitted further views on the effect of that
SEC Report.

169.

As directed by the Tribunal on Sunday 20 May
2018, further comments were filed by each side
simultaneously on 22 May 2018.

170.

On 22 May 2018, Respondents submitted, inter
alia, that they had proven that Claimants
obtained the Contract through bribery and
corruption, and that Exhibit R-2076 disclosed an
agreement in principle to settle claims for
violation of the Federal Corrupt Practices Act.
Respondents further submitted that the
Department of Justice decision not to prosecute
Claimants criminally does not disprove that
Claimants engaged in bribery and corruption
and has no bearing on liability in this
arbitration. Additionally, Respondents
contended that the Tribunal should give Exhibit
R-2076 the same weight as Exhibit C-1009 (11

153a
August 2017 DOJ letter). Respondents stated
further that Exhibit R-2076 should be
admissible under standards of evidence allowed
for AAA Commercial Arbitration Rules rather
than Rule 408 of the Federal Rules of Evidence.
171.

On 22 May 2018, Claimants submitted that the
Tribunal should not accord any weight or effect
to Exhibit R-2076, which describes a settlement
offer by Vantage. Claimants cited AAA
Commercial Rule 34(b), which gives the
Tribunal broad discretion on admissibility and
relevance of evidence, permitting exclusion of
evidence that is cumulative or irrelevant.
Claimants contend that Exhibit R-2076 is not
relevant because Vantage has not admitted to
any FCPA violations, and the Form 10-Q simply
recounts the offer of a settlement that the SEC
staff expects to finalize if accepted by the
Commission. The DSA generally uses the term
“Article” for the main titles, but internally refers
to provisions as “Clauses”. Similar variations
occur among the DSA and its novations.
Claimants continue that in the United States,
evidence of settlement and an offer of settlement
are generally not admissible on the merits of a
disputed claim. Claimants commented on Rule
408 of the Federal Rules of Evidence and its
underlying policies, including the promotion of
settlement, which encourage voluntary
resolution of disputes, sometimes phased as
efforts to “buy peace.”

154a
172.

The Tribunal notes that Respondents carry the
burden of proving corruption by Claimants.
Moreover, the information in the Form 10-Q
appears to have been available months before
the hearings were closed.

173.

Having carefully considered the Parties’
submissions, the Tribunal concludes that it
cannot give any weight to Exhibit R-2076. First,
that document describes an offer of settlement,
not a confession or proof with respect to violation
of the FCPA or the commission of bribery and
corruption. Second, consideration of that
settlement offer would be contrary to a longstanding public policy at the arbitral seat (the
United States) which aims to promote voluntary
resolution of disputes. This present analysis
hereby incorporates itself into the Tribunal’s
reasoning on the merits at Part V-B infra.

P. Claimants’ Withdrawn Tort Claims
174.

With respect to Vantage’s tort claims
for fraudulent inducement, negligent
misrepresentation, and promissory estoppel,
Vantage has withdrawn the claims “without
prejudice” (see 15 May 2017 letter to Tribunal
from Mr. Karl Stern).

175.

Respondents argue that these tort claims should
be included in items for decision by the Tribunal,
notwithstanding Vantage’s withdrawal of the
claims (see Respondents’ filing of 8 December
2017 at pages 6-7).

155a
176.

According to Respondents, these claims should
be dismissed with prejudice as voluntarily
withdrawn and deemed to fail as a matter of law
for reasons identified by Respondents in their
various briefs.

177.

The Tribunal must dismiss the tort claims
without prejudice. Claimants do not continue to
press the allegations, obviating the need to
consider those matters. Indeed, deciding issues
not submitted to the Tribunal would, absent
exceptional circumstances not present here,
normally be considered an excess of jurisdiction.

IV.

Jurisdiction

A. Claims
178.

Claimants VDEEP and VDDI contend that
jurisdiction exists over all named Respondents,
including (i) Petrobras Venezuela Investments &
Services (“PVIS”), (ii) Petrobras American Inc.
(“PAI”), and (iii) Petróleo Brasileiro S.A. (also
referred to as “Petrobras Brazil”).30

179.

In response, Respondents argue that only PAI
and VDDI are the proper parties to this
arbitration.

30

The Tribunal attaches no significance to the fact that some
references are occasionally made to Petrobras Brazil with an “s”
and sometimes with a “z.”

156a
1. Claimants’ Position
180.

Claimants look to the Third Novation to the
DSA to support jurisdiction over VDEEP, VDDI,
PVIS, and PAI. All four of these entities are
signatories and labeled as “Parties” to the Third
Novation. Clause 12.1 of the Third Novation
provides that “[a]ny dispute arising under or by
virtue of [the] Third Novation shall be resolved
in accordance with the newly amended Article
24.2 of the [DSA].” Article 24.2 of the newly
amended DSA contains the arbitration clause
that allows the “Parties” to submit their dispute
to arbitration:
Arbitration. If the Dispute is not resolved by
direct negotiations in good faith between the
parties in dispute, then the Dispute shall be
finally settled by binding arbitration and either
Party may at any time initiate such arbitration
by giving notice to the other Party. The
arbitration shall be conducted in accordance
with the Commercial Arbitration Rules of the
International Center for Dispute Resolution of
the American Arbitration Association (“AAA”).
To the extent of any conflicts between the
applicable Arbitration Act or the AAA Rules and
the provisions of this Agreement, the provisions
of this Agreement shall prevail. The AAA is the
appointing authority. The place of arbitration

157a
shall be Houston, Texas and the language of the
arbitration shall be English.31
181.

Second, Claimants argue that the Guaranty (to
the DSA) supports jurisdiction over VDEEP,
VDDI, and Petrobras Brazil.

182.

VDEEP and Petrobras Brazil were the original
signatories to what has been called “the
Guaranty” (Exhibit J-002) with full title “Form
of Payment and Performance Guaranty—
Company Guaranty.”32

183.

Claimants assert that Article 3.5 of that
Guaranty provides for jurisdiction over VDEEP
and Petrobras Brazil, stating “[a]ny and all
disputes arising out of, relating to or in
connection with this Guaranty shall be subject
to the provisions set forth in Article 24 of the
Contract.”33

184.

The “Contract” in the Guaranty refers to the
DSA,34 which in turn states that it “may be

31

J-010 Third Novation and Amendment Agreement to the
Agreement for the Provision of Drilling Services, § 8.1 (amending
Article 24.2).
32

For the avoidance of confusion, the Tribunal notes that the
contract documents also include a similar document subtitled
“Contractor Guaranty” which imposes obligations on Vantage
Drilling.
33

34

J-002 Guaranty Article 3.5.

J-002 Guaranty, Preamble (defining the “Agreement for
Provision for Drilling Services” as the “Contract”).

158a
amended in writing and signed by both parties
from time to time.”35 Thus amendments to the
DSA automatically get incorporated into the
Guaranty.
185.

In this connection, Claimants assert the
Tribunal possesses jurisdiction over VDDI by
reason of the Third Novation, where VDDI
replaced VDEEP as the successor and assignee
to the DSA under the following language:
2.10. As from the Effective Date, the defined
term “Company” shall be read PAI under the
Contract and PAI shall assume all PVIS’s rights
and obligations under the Contract. From the
Effective Date until VDVI Termination Date, the
defined term “Contractor” shall be read as VDVI
under the Contract and VDVI shall assume all
VDEEP’s rights and obligations under the
Contract. From the VDVI Termination Date
until VDDI Commencement Date, the defined
term “Contractor” shall be read as VDEEP
under the Contract and VDEEP shall assume all
rights and obligations under the Contract. From
the VDDI Commencement Date and continuing
for the remainder of the Third Novation Period,
the defined term “Contractor” shall be read as
VDDI under the Contract and VDDI shall

35

J-001 Agreement for the Provision of Drilling Services, Article
1.1 (defining “Contract”).

159a
assume all VDEEP’s rights and obligations
under the Contract.36
186.

Claimants assert Article 1.4(iv) of the Guaranty
also provides jurisdiction over VDDI as a
successor of the DSA, specifically stating that
the obligations of Petrobras Brazil apply to the
Guaranty’s successors:
1.4 Continuing Guaranty. This Guaranty is a
continuing guaranty and shall (i) remain in full
force and effect until the indefeasible payment of
the Payment Obligations and the complete
performance of the Performance Obligations,
(ii) be binding upon the Guarantor and its
respective successors and assigns, (iii) apply to
the Payment Obligations and Performance
Obligations of any assignee or transferee of
CONTRACTOR to the same extent as applicable
to those Payment Obligations and Performance
Obligations of CONTRACT and (iv) inure to the
benefit of and be enforceable by the Beneficiary
and its respective successors, transferees, and
assigns; provided, however that the obligations
of the Guarantor hereunder may not be
assigned, transferred, or delegated unless the
Guarantor remains liable hereunder.37

187.

Thus, Claimants assert Petrobras Brazil’s
obligation to honor the Guaranty (and its

36

J-010 Third Novation and Amendment Agreement to the
Agreement for the Provision of Drilling Services, § 2.10.
37

J-001. Guaranty Article 1.4(iv).

160a
arbitration clause) inure to VDDI, as successor
and assignee of the DSA under the Third
Novation.
2. Respondents’ Position
188.

Respondents contend that PAI and VDDI are the
only proper parties to this arbitration because
PAI and VDDI were the only parties to the DSA
when the DSA was terminated. Respondents
take issue with jurisdiction over VDEEP, PVIS,
and Petrobras Brazil.

189.

Respondents argue that VDEEP and PVIS do
not fall under the jurisdiction of this arbitration
because VDDI and PAI were their successors to
the Third Novation to the DSA. Moreover, VDDI
and PAI were the only remaining parties to the
DSA at its termination.

190.

Next, Respondents argue that the Guaranty
does not grant this Tribunal jurisdiction over the
Guaranty’s two signatories, VDEEP and
Petrobras Brazil. To support excluding VDEEP
and Petrobras Brazil from this arbitration,
Respondents note that the Guaranty refers to
the original Article 24 of the DSA, not Article 24
of the DSA as amended and novated in the Third
Novation.38

191.

Originally, Article 24 of the DSA called for
arbitration under the LCIA Rules, seated in

38

See J-020. Guaranty Article 3.5.

161a
London, having the governing law be the law of
England and Wales.39
192.

Article 3.5 of the Guaranty refers to Article 24 of
the “Contract” (the DSA), not any amendment,
modification, or novation to the DSA:
3.5 Dispute Resolution. Any and all disputes
arising out of, relating to or in connection with
this guaranty shall be subject to the provisions
set forth in Article 24 of the Contract.40

193.

In contrast, the original DSA affirmatively
included “as amended” language in the
definition of “Contract” (the DSA).
“Contract” means this Contract for the provision
of Drilling Operations and related services, as
the same may be amended in writing and signed
by both Parties from time to time.41

194.

Thus, Respondents contend that the inclusion of
“as amended” language in the Contract confirms
that the parties knew how to reference
amendments and novations, and that they
intentionally chose not to do so in the Guaranty.
Simply put, Petrobras Brazil only agreed to
arbitrate under the original Article 24 of the

39

J-001 Agreement for the Provision of Drilling Services, Cl. 24.

40

J-020. Guaranty Article 3.5.

41

J-001 Agreement for the Provision of Drilling Services, Cl. 1.1
(defining “Contract”).

162a
DSA, not 24’s subsequent amendments or
novations.
195.

Moreover, Article 3.7 of the Guaranty required
“writing by all the parties” for any “supplement,
modification, or amendment” to the Guaranty.42
Because Petrobras Brazil never signed any
documents to change its dispute resolution
procedure, Respondents assert that Article 24 of
the DSA, as it originally stood, governs the
dispute resolution process.

3. Tribunal analysis
196.

Respondents concede that PAI and VDDI are
proper parties to this arbitration, which leaves
VDEEP, PVIS, and Petrobras Brazil open for
debate.

197.

On balance, Claimants make the more
compelling argument to include VDEEP, PVIS,
and Petrobras Brazil in this arbitration.

198.

VDEEP and Petrobras Brazil should be in this
arbitration because they are signatories to the
Guaranty. The plain language of the Guaranty
(Article 3.5) refers to the dispute resolution of
Section 24 of the DSA:
3.5 Dispute Resolution. Any and all disputes
arising out of, relating to or in connection with

42

J-002. Guaranty Article 3.7.

163a
this guaranty shall be subject to the provisions
set forth in Article 24 of the Contract.43
199.

The DSA itself contemplates the amendment
and novation of the DSA (Article 1.1). The lack
of “as amended” language in one form or another
in Article 3.5 of the Guaranty does little to
inform the Tribunal about the intent of the
Parties to arbitrate.

200.

Respondents read the omission of “as amended”
language as proof that the Parties intended the
dispute resolution process of Article 24 of the
original DSA to apply.

201.

Such an argument could also be made to justify
the opposite of Respondents’ position. As an
example, the drafters could have just as easily
modified the language of “the Contract” to be
“the Contract, as it appears on the date of the
Guaranty.” Including this language would give
clear indication that the Parties intended to
limit themselves to Article 24 of the original
DSA. However, omission of such language would
suggest that the Parties did intend the dispute
resolution process of Article 24 of the DSA, as
amended and novated, to apply.44

43

44

J-002. Guaranty Article 3.5.

As Claimants note, “[i]f the parties had intended to fix the forum
for dispute resolution regardless of any amendment or novation to
the DSA, they could easily have done so, but they did not.” (see
Claimants’ Post-Hearing Brief, ¶ 198).

164a
202.

The language of the Guaranty is plain. The
Tribunal must consider the Guaranty’s direction
to look at the DSA for a dispute resolution
process. The DSA mentions the possibility of
amendments and novations. Indeed, the DSA
(including its arbitration clause) was amended
and novated.

203.

The Tribunal cannot read out of its mandate the
impact on this arbitration of the Guaranty and
its dispute resolution procedure. Thus, Petrobras
Brazil and VDEEP fall under this Tribunal’s
jurisdiction through the Guaranty.

204.

This leaves PVIS to be considered. PVIS,
through its agent, is a signatory to the Third
Novation.45 The Third Novation includes the
operative arbitration clause giving rise to this
Tribunal.46 Because this dispute falls within the
arbitration clause of the Third Novation, which
PVIS signed, PVIS is within the jurisdiction of
this Tribunal.

205.

Consequently, the Tribunal concludes, with
respect to Claimants’ claims, that jurisdiction
exists over all five named parties: VDDI,
VDEEP, PAI, PVIS and Petrobras Brazil.

45

J-010 Third Novation and Amendment Agreement to the
Agreement for the Provision of Drilling Services.
46

J-010 Third Novation and Amendment Agreement to the
Agreement for the Provision of Drilling Services, § 8.1.1 (amending
Article 24).

165a
B. Counterclaims
206.

In their counterclaims, Respondents argue that
PAI and PVIS are proper counter-claimants and
that VDEEP and VDDI are proper counterdefendants.

1. Respondents’ Position
207.

Respondents argue that PAI and PVIS are
proper counter-claimants because their claims
arise from their time as the operative entities
under the DSA. PAI’s claims arise from it being
party to the Third Novation in 2014. PVIS’s
claims arise from it being an original party to
the DSA in 2009.

2. Claimants’ Position
208.

Claimants argue that PAI and PVIS failed to
establish any right to recover on their
counterclaims. In this connection, the Tribunal
considers disagreement between the two sides to
relate to the merits of the case, not to
jurisdiction. Nevertheless, for good order the
Tribunal will confirm its competence to decide
these matters.

3. Tribunal analysis
209.

PAI’s counterclaims arise from the Third
Novation, over which the Tribunal possesses
jurisdiction.

210.

Counterclaims by PVIS originally arose from the
2009 DSA, the dispute resolution clause of which

166a
called for arbitration under LCIA Rules in
London. However, PVIS’s counterclaims in this
present arbitration arise under the Third
Novation, subject to proceedings pursuant to the
AAA Commercial Rules.
211.

The present arbitration proceedings pursuant to
the Third Novation thus grant jurisdiction to the
Tribunal over PAI and PVIS, as well as their
counterclaims against VDDI and VDEEP.

V.

Analysis of Vantage’s Claims

A. Breach of Contract
1. Overview
212.

Claimants assert that Respondents materially
breached the DSA, as amended and novated by
the Third Novation, pointing specifically to
purported violations of Clauses 4, 9, 15, and 24.2
of the DSA, and Sections 3.7, 8.1, and 10.5 of the
Third Novation.

213.

According to Claimants, Respondents
terminated the Contract for convenience as a
response to deteriorating market conditions and
failed to negotiate in good faith.

214.

As a result of these alleged material breaches,
Claimants assert total of US$ 560.2 million for
benefit-of-the-bargain damages plus pre-award
and post-award interest. In the alternative,
Claimants seek US$ 749.3 million, plus preaward and post-award interest, in the event that

167a
the Bareboat Charter mechanism will be
considered in calculating damages.
215.

In addition, Claimants request US$ 6.4 million
in unpaid invoices with pre-and post-award
interest of 15.2% per annum.

216.

The relevant Clauses and Sections of the DSA,
including in particular the Third Novation,
provided for an eight-year contract with day
rates payable for the entire term.

217.

Claimants acknowledge that under federal
maritime law they bear the burden of proving
not only the validity of the Contract, but also
(i) Respondents’ material breach (i.e., unjustly
terminating the Contract) and (ii) quantum of
damages.47

218.

Claimants assert they have proven the validity
of the Parties’ Agreement. In this connection,
Claimants state:
In fact, both in the DSA and in the four
amendments and three novations, the parties
expressly affirmed that the DSA, as amended
and novated, was a valid and binding contract.48

219.

Claimants argue that Respondents terminated
the DSA early, only 2 years and 9 months into

47

Claimants’ Post-Hearing Brief, ¶ 206 (citing F.W.F. Inc., 494 F.
Supp. 2d at 1360 (CL-116); B&W Supply Inc. v. Beckman, 305
S.W.3d 10 (Tex. App.—Houston [1st Dist.] 2009, pet. denied)).
48

Claimants’ Post-Hearing Brief, ¶ 209.

168a
the eight-year term and refused to pay the day
rate due them for the remaining term.
220.

Clause 9 of the DSA and Sections 3.7 and 10.5 of
the Third Novation disallow termination for
convenience, which Claimants argue
Respondents did, so as to cut costs after the
deterioration of market conditions.

221.

Clause 9.3 of the DSA specifically disallows
unreasonable refusal of cures, and Claimants
assert Respondents unreasonably refused to
accept their implemented and proposed cures
regarding the operational issues which
Respondents say were the basis for their
termination of the Contract.

222.

Claimants also allege Respondents breached
Clause 24.2 of the DSA, as amended by Section
8.1 of the Third Novation, by failing to negotiate
in good faith with Claimants and refusing to
provide notice.

2. Respondents’ Defenses on Material Breach by
Termination
223.

49

The DSA permits Respondents to terminate the
Contract if Claimants commit “a material breach
of its obligations under this Contract.”49
Respondents allege they properly terminated the
Contract under Clauses 9.1.1.3 and 9.1.1.7 of the
DSA.

Claimants’ Post-Hearing Brief, ¶ 221.

169a
224.

Clause 9.1.1.3 of the DSA provides “Contract
may only be terminated: By COMPANY
[Petrobras], for the following reasons... if
CONTRACTOR [Vantage] commits a material
breach of its obligations under this Contract.”50

225.

Clause 9.1.1.7 of the DSA provides “Contract
may only be terminated: By COMPANY
[Petrobras], for the following reasons...if
CONTRACTOR [Vantage] repeatedly fails to
conduct the Services in accordance with Good
Oil and Gas Field Practices.”51

226.

Respondents assert that they “properly
terminated the Contract under Clauses 9.1.1.3,
9.1.1.7, and 9.1.3.2 for operational reasons on
two grounds: (a) Vantage’s material breaches of
Clauses 10.4, 10.19, 13.2, 13.6, 13.7, and 27.1,
and (b) Vantage’s repeated failure to comply
with Good Oil and Gas Field Practices under
Clauses 10.1.1 and 10.2.” 52

227.

Respondents assert that Claimants materially
breached the DSA by repeated violations of Good
Oil and Gas Field Practices, principally through
the incidents of 19 May and 19 July 2015.
Respondents believe these incidents were

50

J-001 Agreement for the Provision of Drilling Services, Cl.
9.1.1.3.
51

J-001 Agreement for the Provision of Drilling Services, Cl.
9.1.1.7.
52

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶ 17.

170a
material breaches under 9.1.1.3 and under
Clause 9.1.1.7 of the DSA. As argued by
Respondents:
Vantage violated Good Oil and Gas Field
Practices on May 19 and July 19, 2015, in at
least three ways: (a) by failing to properly
monitor fluid volumes, detect losses, and give
proper notice; (b) by violating Applicable Law,
which is both a component of Good Oil and Gas
Field Practices and an independent basis for
materially breaching the Contract, as explained
below; and (c) by failing to follow its own policies
and procedures, which allegedly comport with
Good Oil and Gas Field Practices.53
228.

Respondents maintain that “[i]t takes only one
material breach of the Contract to justify
termination, and the evidence here proves that
Vantage materially breached the Contract on
May 19 and July 19, and repeatedly violated
Good Oil and Gas Field Practices.”54 As such,
Respondents assert that those events provide
sufficient justification for termination of the
Contract.

229.

Respondents also assert “non-bribery” and “nonoperational” material breaches by Claimants.
These include: (i) making misrepresentations
about Vantage’s ownership of the Titanium
Explorer, (ii) failing to disclose its use of an

53

Respondents’ Post-Hearing Brief and Appendices, ¶ 241.

54

Respondents’ Post-Hearing Response Brief, ¶ 155.

171a
“Illegal Information Broker,” and (iii) failing to
perform an adequate background check on Mr.
Padilha as required by the Contract.55 These
breaches are discussed in more detail in the
section on Respondents’ Counterclaims.
230.

Although Claimants did have a right to cure
breaches of the Contract under Clause 9.3,
Respondents maintain that Vantage’s proposed
cure was “insufficient and ineffective” and that
Respondents “properly rejected it.”56

231.

Respondents assert the burden of proof, to prove
that Respondents wrongfully terminated the
Contract or breached the Contract’s obligations,
rests with Claimants. Respondents assert that
Claimants have failed to meet that burden.

232.

Thus, Respondents assert that Claimants’
claims are barred, and Claimants are liable to
Respondents for their material breaches of the
Contract, including “failure to satisfy its
obligations under Clauses 10.1.1, 10.14.1–4,
10.15, 10.20.1–4, 10.21, and 10.23 of the
Contract.”57

55

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶ 16.
56

57

Respondents’ Post-Hearing Response Brief, ¶ 269.

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶ 9.

172a
3. Claimants’ Response to Allegations of Material
Breach
233.

In reply, Claimants say that Respondents have
the burden of proof to justify termination of the
DSA based on a material breach, and that they
did not satisfy their burden of proving a material
breach.58

234.

As a component of proving material breach,
Claimants assert that Respondents had to prove
that Claimants had not implemented or
proposed cures after being provided proper
notice, and that Respondents reasonably
rejected these cures. Claimants assert
Respondents did not satisfy their burden of proof
with regard to these components of material
breach.

235.

Claimants assert that the alleged “material
breaches” asserted by Respondents, including
the fluid loss events, were not sufficient to
trigger a termination right. While “material
breach” is not defined in the DSA, Claimants use
the definition of “material breakdown” in Clause
9.1.1.2 of the DSA to define “material” as
something “substantial” and “major.”

236.

Additionally, Claimants assert that the
operational incidents Respondents rely upon as

58

Claimants cite Howell v. Kelly, 534 S.W.2d 737 (Tex.
App.—Houston [1st Dist.] 1976), no writ) (CL- 316) to support their
argument; for a full list of cases, see Claimants Post-Hearing Brief,
footnote 34, at 76.

173a
material breaches were not material breaches of
Clauses 10.4.5, 13.2, 13.6.1,13.7.2, and 27.1.5.
Claimants assert that the incidents are in fact
attributable to Respondents. In this connection,
Claimants state:
(i) the fluid loss events were the result of
Respondents’ inadequate cementation job, which
Respondents did not disclose to Claimants,
coupled with Respondents’ deviations from
approved plans of action and ordering multiple
operations that made fluid losses inevitable and
difficult to detect; (ii) Claimants had an
outstanding record of detecting fluid losses;
(iii) the fluid loss events were not well control
events; (iv) neither Respondents nor the
regulators at BSEE viewed the fluid loss events
as serious at the time; (v) the gas sensor INC
was an isolated incident that was not viewed by
BSEE as serious and did not indicate any
systemic problems; and (v) Claimants
implemented and proposed cures that would
have been acceptable to Respondents had they
been acting reasonably.59
237.

59

As mentioned, Claimants assert that the fluid
loss events of 19 May 2015 and 19 July 2015
were principally caused by the actions of
Respondents, meaning these were not violations
of Good Oil and Gas Field Practices committed
by Claimants. In this connection, Claimants
argue:

Claimants’ Summary of Claims and Defenses, at 3.

174a
[T]he evidence shows that the fluid losses
occurred in the first place because Petrobras did
not properly cement the well and did not inform
Vantage about the top of cement. With that
information, Vantage would have known that
increased flowrates and pressure in the well
would cause fluid losses. Petrobras then ordered
an increased flow and pressure within the well
that had not been vetted in the approved [Plan
of Action] for the day or vetted through
[Management of Change], as required by the
DSA. To make matters worse, Petrobras ordered
multiple operations at the same time that were
expected to, and did, trigger multiple alarms for
reasons other than actual loss, masking the fact
that fluid losses were occurring. Given this
evidentiary record, Vantage did not fall short of
Good Oil and Gas Field Practices. Responsibility
for the losses and failure to detect them lies
principally with Petrobras.60
238.

Even if these fluid loss events were attributable
to Claimants, Claimants argue the events were
not material or substantial within the meaning
of the Contract.

239.

With regard to any incidents during the Chinook
5 campaign, Claimants assert these incidents
are irrelevant because “the evidence established
that Respondents were satisfied with Claimants’
performance on that campaign and the incidents
were not used as a basis for the termination of

60

Claimants’ Post-Hearing Brief, ¶ 130.

175a
the DSA.” Similarly, with regards to incidents
on the Chinook 6 campaign, Claimants assert
these are irrelevant as well. The sheared sub
saver was caused by a manufacturing defect and
was not the fault of Claimants, nor was the
incident the subject of any notice of default.
Other “near-miss incidents” were not subject of
a notice of a default and were cured to
Respondents’ apparent satisfaction. Claimants
note that Respondents “appeared to have
abandoned them at the merits hearing and in
their post-hearing briefing.”61
240.

In this connection, Claimants assert that
Respondents have not demonstrated they
provided Claimants an opportunity to cure, or
that Claimants failed to cure, the alleged
breaches. As noted by Claimants:
Vantage proposed reasonable cures that were
designed to prevent recurrence of incidents
similar to the untimely gas sensor recalibration
and the fluid loss incidents. Petrobras rejected
these out of hand, without engaging in
substantive, good faith discussions with
Vantage. And Petrobras refused to acknowledge
or address its role in causing the events.
Petrobras cannot show that Vantage’s cures
were insufficient to satisfy a reasonable
operator. To the contrary, the evidence

61

Claimants’ Summary of Claims and Defenses, at 4.

176a
demonstrates that Petrobras’s rejection was
unreasonable.62
241.

Claimants argue they did not violate the
Contract, and Respondents’ termination of the
Contract was unjust and unwarranted under
Clauses 9.1.1.3 and 9.1.1.7 of the DSA. Instead,
Claimants argue:
[T]he evidence established that: (i) by every
objective metric, Claimants’ performance was
excellent; (ii) as Claimants’ experts testified,
Respondents could not reasonably expect to
locate and engage a safer contractor; (iii) for the
reasons indicated above with respect to Clauses
10.4.5, 13.2, 13.6.1, 13.7.2, and 27.1.5, the events
at issue were not material; (iv) the cited
incidents did not reflect systemic issues; and
(v) Claimants implemented and proposed cures
that would have been acceptable to Respondents
had they been acting reasonably.63

4. Tribunal Analysis
242.

The Tribunal sets forth below its principal
analysis on breach of contract, reserving to later
sections its discussion of (i) bribery, (ii) breach of
good faith, (iii) limitation of liability and (iv) the
Chinook 6 invoices.

62

Claimants’ Post-Hearing Brief, ¶ 239.

63

Claimants’ Summary of Claims and Defenses, at 3.

177a
243.

The Tribunal has not found that Respondents
have met their burden in proving a material
breach.

244.

As an initial matter, Respondents have not
demonstrated that Claimants failed to
implement or propose cures after being provided
proper notice following the alleged material
breaches.

245.

Even assuming the fluid loss events (19 May
2015 and 19 July 2015) were the fault of
Claimants, they were not sufficient to trigger a
right of termination. In this connection, while
“material breach” is not defined in the DSA, the
notion of “material breakdown” in DSA Clause
9.1.1.2 provides some assistance to the Tribunal,
defining “material” in that context as
implicating something “substantial” and “major.”

246.

The Tribunal considers it more likely than not
that the events of 19 May and 19 July were
principally caused by the actions of
Respondents, rather than as violations of Good
Oil and Gas Field Practices committed by
Claimants.

247.

In this connection, the Tribunal has been
convinced that Petrobras did not properly
cement the well. With that information, Vantage
would have known that increased flowrates and
pressure in the well might cause fluid losses and
could have taken precautions.

248.

In addition to the undisclosed inadequate
cementation, Respondents contributed to the

178a
loss by deviations from approved plans of action
and the ordering of multiple operations that
made fluid losses inevitable.
249.

It is significant to note that neither Respondents
nor the regulators at BSEE viewed the fluid loss
events as serious at the time. Rather, they seem
to have become the focus of Respondents’
complaints after the decision to terminate the
Contract.

250.

Similarly, the gas sensor incident was an
isolated event that was not viewed by BSEE as
serious and did not indicate any systemic
problems.

251.

Neither can the incidents during the Chinook 5
campaign or the Chinook 6 campaign be seen as
serious enough to justify termination. In the
Chinook 6 campaign, the sheared sub saver was
caused by a manufacturing defect not the fault
of Claimants. Moreover, the incident was not the
subject of any notice of default.

252.

Finally, Respondents did not provide Claimants
any meaningful opportunity to cure. Vantage
proposed cures, designed to prevent recurrence
of incidents similar to the gas sensor
recalibration and the fluid loss incidents, which
were rejected by Petrobras without good faith
discussions.

253.

In summary, there is no evidence that
Respondents considered any of the controverted
breaches as material when they occurred, or as
rising to the level of materiality that would

179a
allow termination of the Contract. Nor did
Respondents give Claimants a reasonable
opportunity to cure.
254.

Consequently, the Tribunal finds that
Respondents committed a material breach under
the Contract, through early termination and
refusal to pay the day rate due Claimants for the
remainder of the Contract’s term without
justification.

B. Bribery and Corruption
1. Claimants’ Position
255.

Claimants argue that the DSA was a valid
contract, and that Respondents seek to void the
DSA via common law and contractual defenses
based on bribery and corruption allegations.
Claimants believe the burden of proof is on
Respondents to assert the following: (i) illegal
payments were made or offered to Petrobras’s
officials; (ii) with Vantage’s knowledge;
(iii) unbeknownst to Petrobras; and (iv) for the
purpose of inducing, and in fact inducing, the
Contract at issue. 64 Claimants argue
Respondents have not met this burden of proof.

256.

With respect to the common law defenses of
Respondents, Claimants assert that
Respondents (i) failed to show illicit payments
were made, and that (ii) Claimants knew of any
illicit payments. Claimants assert Respondents

64

Claimants’ Post-Hearing Brief, ¶ 264.

180a
did not establish Claimants’ knowledge of
bribery through imputed knowledge of Mr.
Padilha or Mr. Su. Claimants assert
Respondents failed to show their own
unawareness of any illicit payments. Lastly,
Claimants assert that Respondents failed to
establish that any illicit payments actually
induced the DSA, “much less on terms to which
Respondents would not have otherwise
agreed.”65
257.

Claimants assert that Respondents knowingly
ratified the DSA, waiving any right to avoid the
DSA based on bribery. According to Claimants:
A contract is ratified, and any bribery defense
waived, if the innocent party acts in a manner
that affirms the contract after obtaining
knowledge as to the defect in its formation that
would give the party a right to avoid the
contract. This includes the failure to act
promptly and continuing to accept the benefits of
the contract...A party is estopped from avoiding
a contract where, with knowledge of the fraud, it
delays in avoiding the contract and its
counterparty relies on that conduct to its
detriment.66

65

66

Claimants’ Summary of Claims and Defenses, at 4.

Claimants’ Post-Hearing Brief, ¶ 328. Claimants cite
Restatement (Third) Agency § 4.01 and § 4.06 & cmt. D; Standard
Oil Co. of Tex. v. Manley, 178 F.2d 136, 138 (5th Cir. 1949); City of
Findlay, 66 F. at 437 (CL-10).

181a
258.

Claimants argue that Respondents’ willingness
to reaffirm the DSA and ratify the subsequent
novations and amendments means that
Respondents waived any defense based on
bribery, and are now equitably estopped from
asserting such a defense.67 Claimants assert that
Respondents repeatedly affirmed the “valid and
binding nature of the DSA” and insisted that
Claimants continue to perform under the DSA
after Respondents “had sufficient knowledge of
the alleged bribery on which they have based
their defense.”68

259.

Furthermore, Claimants contend that through
subsequent novations and amendments,
Respondents reaffirmed the Contract and
created new agreements, both untainted by
bribery and with Respondents having knowledge
of the alleged bribery surrounding the original
DSA.

260.

Claimants assert the Second Amendment and
the First Novation formed a new agreement
untainted by bribery and “thoroughly vetted by
PVIS and PAI employees.”69 None of the actors
accused of bribery who were involved in the
formation of the original DSA took part in the
formation of this new agreement. Therefore,
Claimants argue that the Second Amendment

67

Claimants’ Post-Hearing Brief, ¶ 316.

68

Claimants’ Summary of Claims and Defenses, at 5.

69

Claimants’ Post-Hearing Brief, ¶ 339.

182a
and First Novation would be a “fully enforceable
contract even if the original DSA were not.”
261.

Claimants also argue that the Second Novation
and Third Amendment of 20 December 2013
were signed by Respondents when Respondents
were fully aware of any alleged bribery, as
Respondents had completed an internal audit in
October 2013 after the publication of the Época
article.

262.

In particular, Claimants contend that, assuming
Respondents had sufficient knowledge to enable
them to end the Contract, they “failed to act
promptly and instead chose to maintain the DSA
and continue to accept the benefits of the DSA”
and “insisted on Claimants’ continued
performance for nearly two years.” Claimants
argue these actions of Respondents prejudiced
Claimants, as Respondents only pursued
termination after “market conditions
deteriorated and Claimants lost any opportunity
to profitably redeploy the rig.”70

263.

With respect to Respondents’ contractual
defenses based on bribery, Claimants assert that
Respondents did not meet their burden of proof.
Claimants assert that Respondents did not
establish the alleged breach of Clauses 10.14.1,
10.14.2, or 10.14.3. Claimants assert there is no
evidence that Claimants “ever made any
payments, violated the FCPA, received any

70

Claimants’ Summary of Claims and Defenses, at 5.

183a
request to violate the FCPA, or had knowledge
of the alleged bribery scheme before press
reports to which Respondents had equal
access.”71
264.

Claimants assert that Respondents did not
establish the alleged breach of Clauses 10.20.1,
10.20.2, or 10.20.3. Claimants assert there is no
evidence that Claimants “themselves were ever
approached by an Illegal Information Broker or
that Hamylton Padilha ever acted as an Illegal
Information Broker in his dealings with
Claimants.”72

265.

Claimants assert that Respondents did not
establish the alleged breach of Clauses 10.20.4
or 10.15. Claimants assert that the evidence
does not show Claimants failed to comply with
laws related to corruption in performing under
the DSA.

266.

Claimants assert that Respondents did not
establish the alleged breach of clause 10.21.
Claimants assert that the evidence does not
establish that Claimants failed to exercise
“reasonable care and diligence to avoid conflicts
of interest.”73

71

Claimants’ Summary of Claims and Defenses, at 5.

72

Claimants’ Summary of Claims and Defenses, at 5.

73

Claimants’ Summary of Claims and Defenses, at 5.

184a
267.

In response to Respondents’ argument that the
anti-waiver clause in the DSA preserves
Respondents’ right to void the Contract based on
bribery, Claimants assert that said clause can
itself be waived, which Respondents “have done
here by their repeated affirmations of the DSA
and insistence on performance.”74 Thus,
Claimants believed principles of ratification,
waiver and estoppel nonetheless defeat
Respondents’ contractual defenses.

268.

Claimants argue the question of whether the
DSA is void or voidable if obtained by bribery,
and subject to ratification, waiver, and estoppel,
is governed by English law “because it was the
governing law of the DSA when bribery allegedly
induced the contract [in 2009] and it was also
the governing law when Petrobras affirmed the
DSA [in 2013 and 2014] under the Second
Novation after the completion of its 2013 Época
audit.”75

269.

As English law governs, Claimants argue that
under relevant caselaw76 the DSA would be at

74

Claimants’ Summary of Claims and Defenses, at 5.

75

Claimants’ Post-Hearing Brief, ¶ 318. To support their argument
under English law, Claimants cite, inter alia, World Duty Free
Company v. Republic of Kenya, ICSID Case No. ARB/00/7, ¶ 164
(CL-83).
76

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 76
(citing U.S. ex rel. Siewick v. Jamieson, 214 F.3d 1372, 1377 (D.C.
Cir. 2000)) (CL-74).

185a
most voidable, and not per se void, if obtained by
bribery. A voidable contract remains subject to
ratification by an “innocent” party. Here,
Petrobras retained the capacity to ratify the
DSA if the DSA had been procured by bribery.
270.

Claimants argue that considerations of this
issue under federal maritime law are irrelevant.
If ratification were governed by maritime law,
the DSA, if procured by bribery, would be at
most, voidable, and still subject to ratification,
waiver, and estoppel.77

271.

Claimants assert that they were not aware of
the alleged bribery, and that Respondents have
not proven Claimants’ awareness. Claimants
assert that Mr. Padilha is Respondents’ only
witness on the matter, and is not reliable, as he
“readily admitted that he lied about the DSA
and the circumstances surrounding its
negotiation and execution when it served his
interests, and that he had a strong incentive to
do so in this arbitration in order to reduce his
sentence in Brazil and avoid prosecution in the
United States.”78

77

For the support of Claimants’ assertion about Federal Maritime
law, Claimants cite, inter alia, Standard Oil Co. of Tex. v. Manley,
178 F.2d 136, 138 (5th Cir. 1949).
78

Claimants’ Post-Hearing Brief, ¶ 20.

186a
2. Respondents’ Position
272.

Respondents claim there is “overwhelming
evidence” that the DSA was procured through
bribery, which taints the Contract and renders
it unenforceable, as well as void, voidable, and
unconscionable.79

273.

Respondents allege both defenses and
counterclaims in connection with Claimants’
alleged bribery and corruption in securing the
Contract. Respondents assert that these claims
“operate as both affirmative claims and
defenses, entitling Respondents to over US$100
million in damages or, alternatively, to a
complete dismissal of Vantage’s claims in this
Arbitration.”80

274.

Respondents also allege charges of (i) common
law fraud and fraudulent inducement via
material misrepresentations regarding bribery
which allowed Claimants to obtain, execute, and
continue the Contract, (ii) negligent
misrepresentation, (iii) violations of Civil RICO
18 U.S.C. § 1962(c) through bribery by
Claimants’ officers, directors, shareholders, viceprincipals, and agents, and (iv) conspiracy to
obtain the Contract through bribery through

79

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶ 17.
80

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶ 3.

187a
Vantage and its officers, directors, shareholders,
vice-principals, and agents.
275.

Respondents put the burden of proof on
Claimants to prove the Contract’s validity.
Respondents assert Claimants did not meet this
burden, and until this burden is met,
Respondents believe they do not have to prove
anything. For this reason, Respondents are not
asserting a “bribery defense.” Instead,
Respondents argue that “Vantage procured the
Contract through an illegal bribery scheme,
which renders the Contract void ab initio.”81

276.

Respondents rely upon a Brazilian Federal
Court judgment, which they say is conclusive
evidence of Claimants’ bribery.82

277.

Respondents believe that the principles of
estoppel and ratification bar Claimants from
“accepting the benefits of the contract without
also accepting its burdens,”83 meaning that in
attempting to enforce the Contract, Claimants
ratify the fraud and bribery used to secure the
Contract. Respondents say this result is “barred

81

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶ 36.
82

Respondents rely, inter alia, upon Telenor Mobile Comms. AS v.
Storm LLC, 584 F.3d 396, 408 (2d Cir. 2009).
83

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶ 13.

188a
by both governing law and principles of
equity.”84
278.

Thus, Respondents believe Claimants’ claims are
barred and/or Claimants are in fact liable to
Respondents for their (above) alleged material
breaches of the Contract.

279.

Respondents argue that Claimants, through the
figures Nobu Su, Paul Bragg, Hamylton Padilha,
and John O’Leary, “knowingly or with conscious
avoidance assisted, aided, or facilitated breaches
of fiduciary duty by Jorge Zelada and Eduardo
Musa by bribing them to allow Vantage to obtain
the Contract and continue it through the Third
Novation.”85 In this connection, Respondents
argue that Claimants fraudulently induced the
Contract’s formation and continuation.

280.

Respondents argue that the fraudulent
inducement of the Contract bars all of
Claimants’ claims. According to Respondents,
Claimants have not proven the Contract was
ratified, and the Third Novation reserved all
potential claims without any waiver.
Respondents argue:
As with every other novation of the Contract, the
Third Novation expressly reserved all existing

84

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶ 13.
85

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶ 4.

189a
claims without any waiver. (See J-5, Art. 3.6; J8, Art. 3.6; J-10, Art. 3.6.) This non-waiver
language is also found in the Contract, which
provides that no waiver can occur unless a party
“has expressly stated its intention to do so in a
written instrument duly executed by such
Party.” (J-1, Art. 27.5.)86
281.

Based on the above express reservation,
Respondents object to Claimants’ assertions of
ratification, waiver, acquiescence, unclean
hands, and equitable estoppel, and claim all
such assertions fail as a matter of law.

282.

Respondents argue that maritime law (as
supplemented by Texas law) governs, and that
under maritime law, the Contract is both void
and voidable.87 Respondents assert that the
relevant evidentiary standard is preponderance
of the evidence under governing maritime and
Texas law.88

283.

Respondents assert that even if Claimants were
correct, and English law would be applied,
Claimants have never “alleged that the Contract

86

Respondents’ Post-Hearing Brief and Appendices, ¶ 169.

87

Respondents rely upon, inter alia, S.E.L. Maduro (Fla.), Inc. v.
M/V Santa Lucia, 116 F.R.D. 289 (D. Mass. 1987).
88

Respondents cite, inter alia, Herman & MacLean v. Huddleston,
459 U.S. 375, 387 (1983).

190a
is ambiguous, and thus English law cannot
apply to determine the parties’ mutual intent.”89
284.

Ultimately, Respondents argue that the
“Contract is void, voidable, unconscionable, and
must be rescinded because it was procured
through bribery,”90 and Claimants’ charges
should be dismissed.

285.

Even if the Contract were to be enforceable,
Respondents assert Vantage materially
breached the Contract, justifying termination.

3. Tribunal Analysis
286.

The Tribunal has given serious consideration to
the charges that Mr. Su, Mr. Padilha and Mr.
Bragg, among others, were involved in bribery to
obtain the DSA. As to Messrs. Su and Padilha,
no convincing evidence shows that Claimants
were aware of the bribery. With respect to Mr.
Bragg, the situation is less clear.

287.

Whatever the situation with respect to Mr.
Bragg, subsequent novations and amendments
formed new contracts, untainted by bribery, if
any.

288.

The Second Novation and Third Amendment,
occurring two months after Respondents

89

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶ 34.
90

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶ 12.

191a
completed a bribery audit in October 2013,
shows Respondents were aware of bribery
allegations, and yet continued with the Parties’
Agreement.
289.

Just as significantly, the Second Amendment
and First Novation were formed without the
involvement of any actors alleged to have been
involved in bribery.91

290.

Thus, Respondents knowingly ratified the DSA
in its current form, and now find themselves
estopped from claiming the Contract is void or
voidable.92

291.

The Tribunal need not decide whether the
matter of bribery is governed by English law (as
provided in the DSA) or by federal maritime law
(as provided in the Third Novation), given that
the outcome would be the same under either
system.93

292.

Finally, the Tribunal has earlier addressed
Exhibit R-2076 (the SEC Report of 4 May 2018),

91

“The Second Amendment and the First Novation formed a new
agreement that was thoroughly vetted by PVIS and PAI
employees, including Mr. Gama, none of whom are alleged to have
participated in any bribery scheme.” (see Claimants’ Post-Hearing
Brief, ¶ 339).
92

Claimants cite Hughes v. Metropolitan Ry., (1877) 2 App. Cas.
439 (CL-317).
93

“Under federal maritime law, a contract procured by bribery is
voidable, not void, and is subject to ratification, waiver, and
estoppel.” (see Claimants’ Post-Hearing Brief, ¶ 324).

192a
which cannot be considered in determining the
existence of bribery and corruption. As discussed
supra at Section III-O of this Award, that Report
relates to settlement, not an admission of guilt.
A long-standing public policy at the arbitral seat
(the United States) would generally exclude
consideration of such offers, which promote
voluntary resolution of disputes.
C. Respondents’ Breach of the Duty of Good Faith and
Fair Dealing
1. Claimants’ Position
293.

Claimants allege a breach of duty of good faith
and fair dealing on the part of Respondents.

294.

Claimants assert Respondents breached this
duty by terminating the DSA on pre-textual
grounds.

295.

Claimants say their cause of action under this
breach is “recognized under maritime law and
federal common law generally, and is viable
regardless of whether Texas law implies such a
duty.”

296.

As evidence of their claim, Claimants say
Respondents made “fluid losses inevitable and
difficult to detect, and thereby set up the
incidents on which they purported to base the
termination of the DSA.” Similarly, Claimants
assert that Respondents breached their duty by
unreasonably rejecting Claimants’ proposed
cures.

193a
2. Respondents’ Position
297.

Respondents argue that Claimants’ Good Faith
and Fair Dealing claim fails as a matter of law.
Respondents believe that Claimants’ claim is
barred by governing law, and additionally, lacks
any basis in fact.

298.

Regardless, Respondents argue they properly
terminated the Contract as a result of Vantage’s
material breaches, and Claimants have the
burden of proof in this regard, which they have
not met.

3. Tribunal Analysis
299.

The Tribunal has noted Claimants’ argument of
Respondents’ breach of their duty of good faith.
The argument essentially runs that Respondents
terminated the DSA early upon pre-textual
grounds, as a result of deteriorating marketing
conditions, and made it impossible for Claimants
to comply with the DSA through unreasonably
rejecting cures, failing to negotiate in good faith,
and through the actions of Petrobras employees
upon the Titanium Explorer.

300.

Having determined that Respondents breached
the Contract through early termination, the
Tribunal finds no need to make any declaration
about violation of the duty of good faith and fair
dealing by Respondents.

301.

In this connection, the Tribunal has not found
any reason to consider that additional
compensation would have been due to Claimants

194a
by reason of a finding of Respondents’ breach in
regard to good faith and fair dealing.
D. “Limitation of Liability” Clause 19.9 of the DSA
302.

The Tribunal has carefully considered the text of
DSA Clause 19.9 which provides as follows:
Consequential Damages
Neither COMPANY on one hand, nor the
CONTRACTOR on the other hand (nor its
respective Affiliates) shall be liable to the other
party for any indirect, incidental, special,
punitive, consequential or exemplary Damages,
whether any claim for such losses or damages is
based on contract, warranty, tort (including
negligence, joint, concurrent or several, in any
amount), strict liability or otherwise, or other
fault of any of the other Party the
unseaworthiness or unairworthiness of any
vessel of craft, or a pre-existing condition,
including, without limitation, loss of revenue,
loss of profits, loss of production, business
interruptions, use of capital, reservoir loss or
damage, however same may be caused
(collectively “Consequential Damages”).94

303.

94

As revealed by the Transcript for Day 7, 23 May
2017 (e.g., at 1820-1823) considerable attention
was given to this provision during the oral
hearings, including oral argument by counsel,
questions and debate by Tribunal members, and

J-001 Agreement for the Provision of Drilling Services, Cl. 19.9.

195a
even examination of Judge Schwebel, although
the Tribunal notes that the question of
consequential damages was not the focus of his
testimony.
1. Respondents’ Position
304.

Respondents argue that Clause 19.9 of the
Contract prevents Claimants from recovering
any damages, either direct or indirect.
Respondents point to the “however they were
caused” language in Clause 19.9, saying that
language “would be rendered meaningless under
Vantage’s construction of the provision [i.e. that
direct damages are allowed to be recovered] and
would violate the governing law chosen by the
parties.”95

305.

Respondents claim that Claimants are aware
their reading of Clause 19.9 is incorrect, and for
this reason they have chosen English law to
apply. Respondents argue instead that maritime
law, supplemented by Texas law, governs:
[T]he law of novation precludes any reference to
English law when interpreting Article 19.9. Both
sides agree that the Third Novation novated the
Contract; that the Third Novation incorporates
Article 19.9 of the Contract; and that the Third
Novation is governed by maritime law, as
supplemented by Texas law. Because the Third

95

Respondents’ Post-Hearing Brief and Appendices, ¶ 215.
Respondents cite, inter alia, Columbia Med. Ctr. of Las Colinas,
Inc. v. Hogue, 271 S.W.3d 238, 256 (Tex. 2008).

196a
Novation is a new contract that replaces the
Contract, Article 19.9 must be interpreted in
light of the parties’ intent at the time they
executed the Third Novation, not at the time
they executed the original Contract.96
306.

Respondents argue that if accepted, Claimants’
construction of Clause 19.9 does not explain why
the listed losses are defined collectively under
the term “Consequential Damages.” If in fact
Claimants were correct, and the list merely
contained examples of indirect consequential
damages, this collective definition would
be rendered unnecessary. Additionally,
Respondents argue that if the parties intended
to allow for the recovery of direct lost revenue or
profits, the parties could have done so.

2. Claimants’ Position
307.

Claimants argue that Clause 19.9 of the DSA
permits recovery of direct, benefit-of-the-bargain
losses, such as Claimants’. Claimants say the
language of Clause 19.9 is “clear and
unambiguous,”97 and while it excludes
consequential damages, it does not exclude
direct damages. Claimants focus on the fact that
the word “direct” is lacking from Clause 19.9 of
the DSA. Claimants assert:

96

Respondents’ Post-Hearing Response Brief, ¶ 164.

97

Claimants’ Summary of Claims and Defenses, at 8.

197a
The law recognizes that “[l]ost profits may be
classified as either direct or consequential
damages, depending on their nature. . . .
[P]rofits on the contract itself—such as the
amount a party would have received on the
contract minus its saved expenses—are direct
damages.” As the result, courts routinely
construe clauses like Clause 19.9 as permitting
recovery of lost profits as direct damages.98
308.

Claimants believe that English law governs this
issue, as it was the operative law at the signing
of the DSA. Claimants assert English law
recognizes the distinction of indirect versus
direct damages.

309.

Respondents utilize Quicksilver Resources Inc.
v. Eagle Drilling, L.L.C. to support their
argument. In return, Claimants say that the
Quicksilver case does not support a different
construction of Clause 19.9, given that:
(i) it is not binding authority; (ii) it applies
Oklahoma law that does not apply here; (iii) it
does not address whether lost profits are
characterized as direct or consequential
damages; (iv) the contact language in
Quicksilver appears nowhere in Clause 19.9; and

98

Claimants’ Post-Hearing Brief, ¶ 415 (quoting Cherokee County
Cogeneration Partners, L.P. v. Dynegy Mktg. & Trade, 305 S.W.3d
309, 314 (Tex. App.—Houston [14th Dist.] 2009, no pet.) (CL-9)).

198a
(v) the court’s reasoning has been rejected by
numerous courts that have considered it.99
310.

Lastly, Claimants say that allocation of risk,
another argument advanced by Respondents,
does not support a different construction of
Clause 19.9. Claimants did assume substantial
risk under the DSA, including potential damage
to the drillship worth US$ 800 million, and are
thus entitled to damages for breach by
Respondents.

3. Tribunal Analysis
311.

The Tribunal cannot find that Clause 19.9 of the
DSA bars recovery of Vantage’s direct, benefitof-the-bargain damages. In this connection, the
lack of the word “direct” plays a significant role.
The Tribunal reads the Contract for its plain
meaning, finding that Claimants are correct in
their interpretation.

312.

The Tribunal must read Clause 19.9 as drafted,
which in pertinent part states: “Neither side
shall be liable for indirect, special, punitive,
consequential or exemplary damages....”100

313.

The damages claimed by Vantage clearly do not
fall within that category, as they are not
consequential. Vantage seeks not to punish
Petrobras, nor to extract anything in the nature
of exemplary, or indirect, or special returns.

99

Claimants’ Summary of Claims and Defenses, at 8.

100

J-001 Agreement for the Provision of Drilling Services, Cl. 19.9.

199a
Rather Vantage looks to recover the benefit of
their bargain, which under classic AngloAmerican contract law constitutes the core of
damages aimed at compensation for a breach.
314.

The Tribunal has considered the argument by
Petrobras based on a phrase at the end of the
clause, excluding damages “however same may
be caused.” That qualification must be read in
the context of the entire clause, which relates to
losses or damages based on contract, warranty
and tort, summarized at the end of Clause 19.9
as “collectively Consequential Damages.” In
other words, consequential damages remain
consequential, regardless of whether derived
from contract or tort or warranty.

315.

In construing that proviso, the Tribunal must
consider its place in the complete text of Clause
19.9, excluding “consequential damages,
however such consequential damages may be
caused.” Direct damages would not be excluded
under the “however same may be caused”
provision, which as explained above relates only
to consequential damages.

316.

In pertinent part, the main elements of the
Clause might be diagrammed as follows:
(a) no liability for consequential damages;
(b) amplification that exclusion of consequential
damages applies regardless of their basis,
whether contract, warranty, or tort;

200a
(c) further amplification that exclusion of
consequential damages applies regardless of
whether related to loss of revenue or loss of
profits.
317.

This interpretation reinforces itself by the way
the provision adds, for the avoidance of doubt,
that punitive and exemplary damages must be
excluded even if related to matters such as
unseaworthiness, lost profits, lost production
and business interruption.

318.

The Clause prevents a party from transforming
excluded damages (consequential) into
something else simply by saying that the
punitive damages includes items such as
production or profits. The qualifications in the
later part of the Clause in no way obviate the
plain meaning given at the outset: the limitation
applies only to consequential (rather than direct)
damages.

319.

By way of illustration, the Tribunal considers
the drafters to have constructed a paragraph
analogous to the following:
When traveling for hearings, an arbitrator’s
reimbursable expenses will not include the costs
of an accompanying spouse, whether any claim
for air fare or railway ticket, including without
limitation travel inside or outside the United
States.

320.

Reimbursement of tickets must be excluded only
for an accompanying husband or wife, traveling
with the arbitrator. Travel by the spouse must

201a
be excluded whether inside or outside the United
States, and whether by rail to Canada or by air
to Paris. Such language, however, does not bar
arbitrators themselves from travel by rail and
air, inside or outside the United States.
321.

The Tribunal has considered the argument that
“loss of production” and “loss of revenue” arise
from direct failure of performance, making those
categories into “direct damages” in all instances.
In some instances, however, lost revenue or lost
production might be so indirect as to be
excludable. While the clause drafting does not
represent a paragon of clarity, the proper
construction limits only consequential damages.

322.

Finally, the Tribunal notes that Petrobras’s
interpretation of Clause 19.9 would make the
DSA illusory. The Contract relates to
production. If Petrobras were correct, Vantage
would hardly if ever be able to recover for any
damages, no matter how egregious Respondents’
behavior, since the argument could always be
made that the recovery related in some way to
production.

323.

The Tribunal has been comforted in its
interpretation of the DSA by reading the initial
text of Clause 24.3, which excludes only
“punitive, indirect or consequential damages.”
Although the arbitration provision itself has
been replaced by new wording in the Third
Novation, the language of Clause 19.9 (still in
effect) tracks the initial intent of the two sides to

202a
exclude only “punitive, indirect or consequential
damages” (not compensatory damages).101
324.

The Tribunal has considered the cases
Respondents use to support their argument,
including Quicksilver Resources Inc. v. Eagle
Drilling, L.L.C., No. H-08-868, 2009 WL 1312598
(S.D. Tex. 2009). That case, unpublished, applies
Oklahoma law, and does not present applicable
law in the present proceedings.

325.

Having considered the authorities put forth by
both sides, the Tribunal concludes that Clause
19.9 of the DSA bars only consequential
damages. Given that Vantage claims only the
benefit of its bargain, the provisions of Clause
19.9 in the DSA do not apply.

E. Unpaid Invoices: Chinook 6 Lien
326.

The Tribunal considers here the alleged US$ 6.4
million in unpaid invoices related to the Chinook
6 well, of which Claimants seek recovery in
addition to their direct benefit-of-the-bargain
damages.

327.

Claimants have made claims related to services,
goods, and equipment supplied to Respondents

101

For the sake of good order, the Tribunal notes that its
conclusion does not derive from the title of Clause 19.9 of the DSA
which mentions “Consequential Damages.” The Tribunal has noted
that Clause 27.10 of the DSA provides that headings are used in
the contract for convenience only, and accordingly shall be
disregarded or ignored for the purpose of construing, interpreting,
or understanding the parties’ right and obligations.

203a
in connection with drilling the Chinook 6 well,
submitted between 1 August 2015 and 10
September 2015. The “Confirmation of
Deliverables” Forms are included in Claimants’
Chinook 6 Lien, Exhibit J-654.
328.

These US$ 6.4 million in invoices were discussed
at various points in the proceedings.

329.

In particular, debate centered on the invoices
during Day 9 of the hearings (25 May 2017) and
again on Day 12 (1 June 2017) (see exchanges
between Mr. Katz (Petrobras) and Mr. Cheng
(Vantage), Transcript of Day 9, at 2179-2182; see
also Claimants’ confirmation that such amounts
do not include damages initially referred to by
Mr. Cheng as “the five hundred thousand or so”
for unpaid invoices from the abandoned Benin
campaign under the Second Novation. Mr.
Cheng, Transcript of Day 12 (1 June 2017) at
2867-2868.

330.

Mr. Katz, on behalf of Respondents, argued on
Day 9 (25 May 2017) that such claims were
“new” in the sense of not being included in the
pre-hearing briefs. Thus, Respondents argue
that the claims must be dismissed in accordance
with Article 24 of the First Pre-hearing Order,
which provides as follows:
Each Party’s prehearing brief shall contain a list
of each and every claim, counterclaim, or defense
(including defenses relating to the Tribunal’s
jurisdiction or the arbitrability of any claim or
counterclaim) that it asserts in this proceeding.

204a
Any claim, counterclaim, or defense that is not
referenced in the prehearing brief of the Party
that asserted such claim, counterclaim, or
defense shall be deemed waived and abandoned.
331.

The Tribunal has noted that the general
language in Claimants’ pre-hearing submissions
includes no details on the invoices, but rather
speaks at paragraph 146 of “further relief as the
Tribunal may deem just and proper.”

332.

Moreover, and significantly, discussion of the
Chinook 6 expenses made its way into the
witness statement of Dallas Bozeman (17
February 2017, at 36, ¶ 118). Mr. Bozeman
discussed the expenses under the header
“Submitted with Claimants’ Pre-Hearing Brief
for Resolution on the Merits.” The Bozeman
Statement, at ¶ 118, states:
Vantage provided services to Petrobras between
August 1, 2015 and September 10, 2015 in
connection with the Chinook #6 well. See CE355 at 17555-58. To date, the invoices for those
services remain unpaid.

333.

An email of 25 September 2015 from David
Matlock (Vantage) to Fernando Gama
(Petrobras) referred to aspects of the invoice
process subject to dispute resolution (see Exhibit
J-646).

334.

On balance, the Tribunal finds that Claimants
preserved their request concerning the unpaid
invoices. Claimants’ Pre-Hearing Brief
references the Bozeman Statement, which must

205a
be considered in resolving the merits of this
case, and which explicitly puts forth the claim
for the unpaid invoices. The successive mentions
of the unpaid invoices at various points in the
proceedings, as noted above preclude the
Tribunal from disregarding the claim.
335.

Respondents have not asserted payment of the
invoices. Rather, they simply argue that “defects
in Vantage’s damages methodology bar any
recovery of unpaid invoices at issue under the
lien.” (see Respondents’ Review of Claims and
Defenses Remaining for Decision (8 December
2017) at page 10). Such a general reference to
methodology cannot serve as a basis for denial of
the claim.

336.

Respondents have expressed concerns about
duplicative payment through the filing of its
Chinook 6 lien (see Respondents’ Pre-Hearing
Response Brief at page 34, ¶ 79).

337.

In this connection, the Tribunal confirms that its
award for the unpaid invoices rests on an
assumption that no double recovery will be
sought by Claimants for this item.

338.

Consequently, the Tribunal finds that Claimants
are due US$ 6.4 million in addition to their
benefit-of-the-bargain claims.

206a
VI.

Analysis of Respondents’ Counterclaims

A. Overview
339.

The Second Respondent and the Third
Respondent make counterclaims totaling US$
101,829,302.00 based on Vantage’s alleged
misconduct, including fraud, bribery, aiding and
abetting of alleged breaches of fiduciary duties
by Messrs. Zelada and Musa, negligent
misrepresentation, civil RICO violations, and
“money had and received.”102 As a result,
Respondents seek damages, disgorgement of
Vantage’s allegedly ill-gotten profits, and
prevention of unjust enrichment through a
constructive trust.103 Respondents state that, “if
the Tribunal finds that Vantage earned any
profits under the Contract, those profits should
be awarded to PAI and PVIS as damages on
their counterclaims.”104

340.

The counterclaims depend principally on the
assumption that Vantage or its affiliates,
personnel or agents committed (or at least
benefited from) acts of bribery or corruption to
procure the Agreement for the Provision of
Drilling Services dated 4 February 2009.
However, as detailed in the Tribunal’s analysis

102

Respondents’ Post-Hearing Response Brief, ¶¶ 184-204.

103

Respondents’ Post-Hearing Response Brief, ¶¶ 184-186, 198204.
104

Respondents’ Post-Hearing Brief, ¶ 4.

207a
of the principal claims, Respondents have not
proved that Vantage is liable (either directly or
by imputation) for acts of bribery or
corruption.105
341.

As affirmative defenses, Claimants additionally
assert that Respondents have waived, or are
estopped from bringing, the counterclaims
because Petrobras executed the Second
Novation, Third Novation, and amendments,
which ratified the DSA, after allegations about
the alleged bribery became public and Petrobras
had conducted an internal investigation
regarding such allegations.106

342.

Finally, Claimants assert that Respondents
presented no evidence to establish the quantum
of damages pertaining to the counterclaims.107
Claimants note that Respondents’ damages
expert at the hearing focused on the quantum of
Claimants’ principal claims and did not attempt
to quantify their damages until the last day of
the hearing.108

105

Respondents’ Post-Hearing Brief, ¶¶ 202-203. Two components
of the counterclaim alleging breach of contract appear unrelated
to the alleged bribery: claims that Vantage misrepresented that it
possessed the Titanium Explore and that it failed to conduct a
background check on Mr. Padilha.
106

Claimants’ Post-Hearing Brief, ¶ 470.

107

Claimants’ Post-Hearing Brief, ¶ 458.

108

Claimants’ Post-Hearing Brief, ¶ 459.

208a
343.

While it is clear that Respondents seek
disgorgement of profits Vantage earned from
operating the Titanium Explorer in the Gulf of
Mexico, Claimants argue that such profits were
neither unjust nor excessive, did not result from
bribery, cannot be traced to any of Respondents’
counterclaims, and were in any case “dwarfed”
by the losses Vantage suffered upon termination
of the DSA.109

344.

Indeed, Respondents did not provide any
breakdown of damages with respect to
individual counterclaims and thus it appears
Respondents may intend that the quantum
would be the same whether the Tribunal grants
all, some, or even just one of the counterclaims.

345.

The DSA’s clause on Consequential Damages
(Clause 19.9) is relevant not only to Claimants’
requested damages, but also to certain aspects of
Respondents’ counterclaims, such as
Respondents’ request for exemplary damages.

346.

For ease of analysis, the Tribunal has noted the
following categories of counterclaims, according
to whether they assume or deny the DSA’s
validity
• Those which assume the DSA’s invalidity;
• Those which assume that the DSA is valid;
and
• Those independent of the DSA’s validity or
invalidity.

109

Claimants’ Post-Hearing Brief, ¶¶ 459, 461.

209a
347.

Falling within the first group is Respondents’
counterclaim that the DSA is void or voidable. In
the second group, the counterclaims for breach
of contract and fraudulent inducement rest on
the assumption of validity. Under the third
group, the counterclaim that Vantage assisted or
participated in a breach of fiduciary duty by
Messrs. Musa and Zelada appears to be an
extra-contractual claim independent of whether
the DSA was valid or invalid. The RICO
counterclaim also apparently falls within this
third group.

348.

As further explained below, the Tribunal denies
all counterclaims: Respondents have not proven
Vantage’s liability with respect to alleged
corruption and bribery; Respondents have
ratified the Contract; and by reason of their own
subsequent conduct, Respondents cannot raise
those counterclaims.

B. Bribery and Corruption
1. Respondents’ Position
349.

110

Respondents claim that Vantage materially
breached the DSA due to alleged bribery and
corruption, thus providing Respondents with
grounds to terminate the DSA under Clause
9.1.1.3 thereof.110 The purported material
breaches were as follows:

Respondents’ Post-Hearing Brief, ¶ 196.

210a
• non-compliance with the FCPA (DSA Art.
10.14.1);
• making illicit payments to government
employees or to persons working for
Petrobras (DSA Arts. 10.14.2, and 10.14.3);
• failing to comply with “applicable law” by
committing bribery (DSA Art. 10.15);
• use of an Illegal Information Broker
(allegedly, Mr. Padilha) and not informing
PVIS of this fact (DSA Arts. 10.20.1, 10.20.2,
10.20.3);
• creating a conflict of interest with PVIS by
paying bribes to procure the DSA (DSA Art.
10.21);
• falsely claiming to possess the Titanium
Explorer and have the necessary resources
and equipment to perform the services under
the DSA; and
• failure to perform a background check on Mr.
Padilha (DSA cArt. 10.23).111
350.

Respondents also assert a right to terminate the
DSA under Clause 9.1.3.2, due to the material
falsity of the following representations and
warranties by Vantage:
• that Vantage had not and would not make
illicit payments to government employees or
to persons working for Petrobras (DSA Arts.
10.14.2, and 10.14.3); and

111

Respondents’ Post-Hearing Brief, ¶¶ 196-204; Respondents’
Post-Hearing Response Brief, ¶ 193.

211a
• that Vantage had not and would not utilize
an “Illegal Information Broker” to corruptly
affect the competitive bidding process for the
DSA (DSA Art. 10.20).112
2. Claimants’ Position
351.

In the main, Vantage argues that Respondents’
counterclaim for breach of contract fails because
Respondents neither provided evidence of the
alleged breaches nor proved any damages.113
Furthermore, Vantage asserts that Respondents
waived any breaches, ratified the DSA and is
estopped from asserting its counterclaim.114
More specifically, Vantage makes the following
arguments:

352.

Regarding an alleged breach of Clause 10.14.1,
Vantage denies violating the FCPA or failing to
notify Petrobras of a request that Vantage take
action violating the FCPA. Vantage asserts
there is no evidence that VDEEP or VDDI made
any illicit payments. On the other hand,
payments by Mr. Su or his company, Valencia,
would not violate Clause 10.14.1 because Mr. Su
and Valencia did not fall within the meaning of
“Contractor” under the DSA. Also, there is no
evidence that VDEEP or VDDI were aware of

112

Respondents’ Post-Hearing Brief, ¶¶ 205-208; Respondents’
Post-Hearing Response Brief, ¶ 193.
113

Claimants’ Post-Hearing Brief, ¶ 454.

114

Claimants’ Post-Hearing Brief, ¶ 470.

212a
such payments, that Petrobras was unaware of
those payments, or that the payments induced
PVIS to sign the DSA.115 Vantage also denies
that VDEEP’s or VDDI’s duty to notify Petrobras
under Clause 10.14.1 was triggered, as there is
no evidence that they were requested to commit
an FCPA violation. Instead, Vantage became
aware of the alleged bribery in 2014 through
public reports of Petrobras’s findings, so there
was nothing to notify to Respondents.116
353.

Regarding alleged breaches of Clauses 10.14.2
and 10.14.3, Vantage denies that either VDEEP
or VDDI made any such payment or offer and
asserts that payments by Mr. Su would not be
covered by those provisions. According to
Claimants, even if payments by Mr. Su were
covered by the provisions. Respondents have not
proved that his payments were received by
Petrobras or government officials.117

354.

Regarding alleged breaches of Clauses 10.20.1,
10.20.2, and 10.20.3 (Illegal Information Broker
clauses), Claimants argue that there is no
evidence that Mr. Padilha was an Illegal
Information Broker, that he provided
“confidential information” to Vantage, that he
performed anything other than legitimate
services for Vantage, or that he offered to

115

Claimants’ Post-Hearing Brief, ¶¶ 341-344.

116

Claimants’ Post-Hearing Brief, ¶¶ 345-346.

117

Claimants’ Post-Hearing Brief, ¶¶ 348-350.

213a
corrupt the competitive bidding process for
VDEEP or VDDI. According to Claimants,
alleged approaches to Mr. Su by Mr. Padilha are
not relevant, as Mr. Su does not fall within the
definition of “Contractor” under the DSA.118
355.

Regarding the alleged creation of conflicts of
interest with PVIS by Claimants in breach of
Clause 10.21, Claimants argue that Petrobras
has not provided evidence that Vantage failed to
exercise “reasonable care and diligence,” the
standard stipulated in Clause 10.21.119
Claimants allege that Vantage had anticorruption policies in place since early 2008,
trained its employees, vetted its agents and
required them to affirm compliance with anticorruption laws.120

356.

Regarding the alleged breach of Clause 10.15,
Claimants assert it is irrelevant because its
application is limited to the performance of
“Services.”121

3. Tribunal Analysis
357.

Respondents have not provided sufficient
evidence to show that VDEEP or VDDI violated
the FCPA, and thus breached Clause 10.14.1 of

118

Claimants’ Post-Hearing Brief, ¶¶ 351-353.

119

Claimants’ Post-Hearing Brief, ¶¶ 340-356.

120

Claimants’ Post-Hearing Brief, ¶¶ 354-355.

121

Claimants’ Post-Hearing Brief, ¶ 356.

214a
the DSA. Even if Vantage had committed such
violations, the alleged breach of Clause 10.14.1
of the DSA was waived or ratified by Petrobras
entering into the Second Novation and Third
Novation.
358.

Further, the Tribunal need not make a finding
as to whether VDEEP or VDDI paid bribes and
thus breached Clauses 10.14.2 or 10.14.3 of the
DSA, as such alleged breaches were waived or
ratified by Petrobras entering into the Second
Novation and Third Novation.

359.

Regarding Illegal Information Brokering, the
Tribunal need not make a finding of whether
Illegal Information Brokering occurred, because
any breaches of Clauses 10.20.1, 10.20.2, and
10.20.3 were waived or ratified by Petrobras
entering into the Second Novation and Third
Novation.

360.

Regarding conflicts of interest with PVIS under
Clause 10.21, the Tribunal finds no evidence
that VDEEP or VDDI failed to exercise
“reasonable care and diligence.”

361.

In regard to Respondents’ allegations that
Vantage did not comply with Clause 10.15
(concerning Applicable Law), the Tribunal
interprets that provision as applying to the
performance of the Services, which does not
relate to the allegation that Vantage engaged in
bribery in procuring the DSA. The Tribunal also
interprets DSA Clause 10.20.4 as applying to the
performance of the Services. Accordingly, the

215a
Tribunal concludes that Respondents’
counterclaims invoking DSA Clause 10.15 or
Clause 10.20.4 (whether for breach of contract or
fraudulent misrepresentation counterclaims)
must be denied.
362.

The Tribunal has already determined that no
convincing evidence shows Claimants were
aware of the alleged bribery.122 The Tribunal
also determines that no convincing evidence
shows that the Titanium Explorer lacked
resources or equipment to perform services
under the DSA.123

363.

Finally, the Tribunal confirms its earlier
conclusion about Exhibit R-2076 (the SEC
Report of 4 May 2018), which cannot be
considered in determining the existence of
bribery and corruption. As discussed supra at
Section III-O of this Award, that Report relates
to settlement, not an admission of guilt. A longstanding public policy at the arbitral seat (the
United States) would generally exclude
consideration of such offers, which promote
voluntary resolution of disputes.

C. Contract as Void, Voidable, and Unconscionable
1. Respondents’ Position
364.

Respondents argue that the DSA is void because
it was allegedly procured by commercial bribery,

122

Supra paragraph 286.

123

Infra paragraph 421.

216a
which is a criminal act under U.S. law (e.g., the
FCPA), Texas law, and Louisiana law.
Respondents refer to caselaw which they argue
supports the view that a contract procured by
commercial bribery cannot be enforced.124
365.

Respondents argue that the DSA is voidable for
the same reasons as why it is allegedly void. As
further support for their argument, Respondents
refer to “anti-waiver” clauses of the DSA and the
Novations, providing that the parties do not
waive any obligations, duties or liabilities that
are not properly discharged, and that no waiver
occurs where a party has not expressly done so
in a written instrument.125

2. Claimants’ Position
366.

Claimants assert that a contract procured by
bribery is not within the narrow category of
contracts that are illegal per se, under relevant
caselaw.126 Instead, they argue, the weight of
authority confirms that a contract procured by
bribery is merely voidable, but not void. A
voidable contract remains subject to ratification
by an “innocent” party. Here, Petrobras retained

124

Respondents’ Pre-Hearing Brief, ¶¶ 48-50.

125

Respondents’ Pre-Hearing Brief, ¶ 52.

126

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 76
(citing U.S. ex rel. Siewick v. Jamieson, 214 F.3d 1372, 1377 (D.C.
Cir. 2000)) (CL-74).

217a
the capacity to ratify the DSA if the DSA had
been procured by bribery.
367.

Next, Claimants assert that since no bribes were
paid by Vantage, the DSA was not voidable.
Furthermore, argue Claimants, even if the DSA
was previously voidable, due to alleged bribery,
it is no longer voidable, because Petrobras – with
full knowledge of the 2013 Audit Report –
negotiated and signed Novations and
amendments to the DSA, thereby ratifying it.127

368.

According to Claimants, Respondents’ argument
that the “anti-waiver” clauses in the DSA128 and
Novations preclude ratification fails, because the
Novations, which were made after Petrobras
became aware of the alleged bribery, contain the
wording that the DSA “remained in force and
binding on the parties.”129 Furthermore, antiwaiver clauses themselves can be waived by a
party’s silence and inaction over a lengthy
period of time, which Claimants assert to have
occurred here.130

369.

According to Claimants, since the DSA is neither
void nor voidable, Respondents have no right to

127

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 79.

128

DSA, § 27.5; First Novation, Cl. 3.6; Second Novation, Cl. 3.6;
Third Novation, Cl. 3.6.
129

DSA, § 10.5.

130

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 81.

218a
rescission.131 Rescission is a remedy that
presupposes that the DSA is voidable.132
370.

Finally, regarding unconscionability, Claimants
contend that the DSA was neither unenforceable
on public policy grounds nor “grossly one-sided.”
Accordingly, the DSA was not unconscionable.
Claimants take the view that the DSA was not
contrary to public policy, because the DSA did
not call for the performance of an illegal act and,
even if the DSA had been procured by bribery, a
contract that has been ratified by the nonbribing party may still be enforced.
Furthermore, as Petrobras negotiated and
drafted the DSA and the DSA does not contain
any terms that are “oppressive” or
“unreasonable” with respect to Petrobras’s
interests, it is not “grossly one-sided.”133

3. Tribunal Analysis
371.

131

The Tribunal finds that Claimants have the
more persuasive arguments with respect to
whether the DSA was void, voidable,

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 93.

132

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 93
(citing Kennebrew v. Harris, 425 S.W.3d 588, 596 (Tex. App. –
Houston [14th Dist.] 2014, pet. Denied) (CL-186) (quoting
Restatement (Third) of Restitution and Unjust Enrichment § 54
cmt. A) (CL-209).
133

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶¶ 8283.

219a
unconscionable
rescission.

or

otherwise

subject

to

372.

A contract procured by bribery is not within the
narrow category of contracts that are illegal per
se, under relevant case law,134 but rather such a
contract is merely voidable, but not void, and
thus subject to ratification by an innocent party.

373.

Petrobras ratified the DSA when it entered into
the Second Novation and the Third Novation.
Therefore, Respondents’ counterclaim must be
denied.

374.

With full knowledge of the 2013 Audit Report –
Respondents negotiated and signed novations
and amendments to the DSA. Novations were
made after Petrobras became aware of the
alleged bribery. The anti-waiver clauses can be
waived by a party’s silence and inaction over a
lengthy period of time, which certainly occurred
here.135

375.

Regarding unconscionability, for reasons
outlined by Claimants, the DSA was neither
unenforceable on public policy grounds nor
grossly one-sided. Nor was the DSA contrary to
public policy. No illegal act was called for by that
Contract, which – even if it had been procured

134

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 76
(citing U.S. ex rel. Siewick v. Jamieson, 214 F.3d 1372, 1377 (D.C.
Cir. 2000) (CL-74)).
135

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 81.

220a
by bribery -- was ratified by the “non-bribing”
party.
376.

Finally, the Tribunal cannot ignore that
Petrobras negotiated and drafted the DSA,
which contains no terms that are “oppressive” or
“unreasonable” with respect to the interests of
Petrobras.

D. Common Law Fraud and Fraudulent Inducement
1. Respondents’ Position
377.

Respondents assert that if the DSA was not
valid, a fraudulent inducement claim cannot be
made. However, if the Tribunal finds that the
DSA was valid, then Respondents argue, in the
alternative, that PVIS and PAI were
fraudulently induced to sign it.136

378.

Similar to their arguments regarding breach of
contract above, Respondents argue that
Vantage, knowingly or “recklessly,” made false
representations in the DSA, the Third Novation,
and the transactions contemplated therein,
including the following:
• Vantage had complied and would comply
with the FCPA and notify Petrobras of
violations thereof (DSA Art. 10.14.1)
• Vantage had not made and would not make
illicit payments to government employees or
to persons working for Petrobras (DSA Arts.
10.14.2, and 10.14.3);

136

Respondents’ Pre-Hearing Brief, ¶ 38.

221a
• Vantage had complied and would comply
with all applicable laws in connection with
services under the DSA (DSA Art. 10.15);
and
• Vantage had not utilized and would not
utilize “Illegal Information Brokers” to
corruptly affect the competitive bidding
process for the DSA (DSA Art. 10.20).
379.

Respondents assert that Vantage’s alleged
participation in bribes to procure the DSA made
the foregoing representations false.137

380.

Respondents also assert that the non-disclosure
by Vantage’s CEO (Mr. Bragg) of what he
allegedly knew about the bribery scheme in 2011
and 2012 also constituted fraud and fraudulent
inducement (citing DSA Arts. 10.20.4 and
10.21).138

381.

According to Respondents, there is “direct and
circumstantial evidence” proving that Vantage
knew its representations were false, that
Vantage knew PVIS (and later PAI) would rely
on them, and that PVIS (later PAI) entered into
or maintained the DSA in reliance on them.139
Respondents state that “the record reflects” that
PVIS and PAI suffered damage as a result of

137

Respondents’ Pre-Hearing Brief, ¶¶ 39-41; Respondents’ PostHearing Response Brief, ¶ 190.
138

Respondents’ Post-Hearing Response Brief, ¶ 191.

139

Respondents’ Post-Hearing Response Brief, ¶ 192.

222a
Vantage’s fraud and are entitled, at a minimum,
to Vantage’s illegally obtained profits.140 As a
result, Respondents argue they are entitled to
forfeiture of Vantage’s profits, under Texas law.
2. Claimants’ Position
382.

Claimants contend that Respondents’ fraudulent
misrepresentation claim fails because
Respondents cannot establish that a
misrepresentation was made, that Respondents
relied on it, or that Respondents suffered
damages as a result.141

383.

As to the alleged misrepresentations, Claimants
contend that the representations described in
Clauses 10.14.1, 10.15, 10.14.2, 10.14.3, and
10.20.2 of the DSA were not false. Specifically,
Claimants argue that Respondents did not prove
that Vantage violated the FCPA, that Vantage
made illicit payments to government officers or
employers or to Petrobras employees, or that
Vantage utilized “illegal information
brokering.”142

384.

As to the element of reliance, Claimants argue
that PVIS and PAI had “imputed if not actual
knowledge” of the alleged bribery at the times of
entering into the DSA and the Second Novation

140

Respondents’ Post-Hearing Response Brief, ¶ 192.

141

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 85.

142

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 85.

223a
and Third Novation, because such bribery would
have been known to Messrs. Zelada and Musa or
to Petrobras. Thus, that reliance cannot be
established.143
385.

Additionally, Claimants argue that some of the
provisions cited by Respondents are irrelevant,
even if corruption had occurred. Specifically,
Claimants assert that, according to the text of
Clauses 10.20.4 and 10.15 (relating to
compliance with Applicable Law), their
application is limited to circumstances relating
to the performance of “Services” by VDEEP or
VDDI.144

386.

Finally, Claimants assert that Respondents did
not provide any quantification of their damages,
nor were there any damages from Petrobras’s
executing the DSA at or below market rates.145

3. Tribunal Analysis
387.

The applicable legal test for fraudulent
inducement is not contested, since Claimants
and Respondents both cited the same Texas
Supreme Court decision setting forth the
elements of the claim, namely:
(i) a material representation was made, which

143

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 86.

144

Claimants’ Post-Hearing Brief, ¶ 356.

145

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 87.

224a
(ii) was false;
(iii) when it was made, the speaker knew it was
false or made it recklessly without any
knowledge of the truth;
(iv) the representation was made with the intent
that the other party would act upon it;
(v) the other party acted in reliance upon it; and
(vi) the other party thereby suffered injury.146
388.

The Tribunal concludes that Respondents’
counterclaim for fraudulent misrepresentation
must be denied because Respondents have not
proven the first and second elements of the
claim under the applicable legal standard, for
reasons outlined above.

389.

Furthermore, the Tribunal interprets DSA
Clauses 10.20.4 and 10.15 as pertaining to the
performance of “Services” by VDEEP or VDDI,
and not as relevant to allegations of procuring
the DSA by means of bribery or corruption.147

146

Italian Cowboy Partners, Ltd. v. Prudential Ins. Co. of Am., 341
S.W.3d 323, 337 (Tex. 2011) (CL-183) (cited in Respondents’ PreHearing Brief, ¶ 37; Claimants’ Response to Respondents’ PreHearing Brief, ¶ 85).
147

Claimants’ Post-Hearing Brief, ¶ 356.

225a
E. Assisting in Breach of Fiduciary Duty
1. Respondents’ Position
390.

Respondents contend that Messrs. Zelada and
Musa, as PVIS’s agents, each owed fiduciary
duties to PVIS, and breached their duties by
soliciting and accepting bribes from Vantage in
exchange for enabling Vantage to successfully
bid for the DSA.148 They further argue that
Vantage, through Messrs. Su, Bragg, O’Leary,
and Padilha, “knowingly or with conscious
avoidance,” assisted, aided, and facilitated the
alleged bribery scheme by paying or facilitating
bribes.149 Respondents conclude that Vantage is
liable as a “joint tortfeasor” for assisting and
participating in the breaches of fiduciary duty,
citing a Texas decision.150

2. Claimants’ Position
391.

148

Claimants contend that a claim for assisting and
participating in a breach of fiduciary duty would
require Respondents to prove both that
Claimants had “actual knowledge” of the alleged
breach of fiduciary duty and that Claimants

Respondents’ Pre-Hearing Brief, ¶¶ 34-35.

149

Respondents’ Pre-Hearing Brief, ¶ 36; Respondents’ PostHearing Response Brief, ¶¶ 188-189.
150

Respondents’ Pre-Hearing Brief, ¶ 33; Respondents’ PostHearing Response Brief, ¶ 189 (citing Kinzbach Tool Co. v.
Corbett-Wallace Corp., 138 Tex. 565, 574 (Tex. 1942)).

226a
“substantially assisted in its commission,” which
Claimants deny.151
392.

Claimants also argue that Petrobras ratified the
DSA and waived and is estopped from raising
this counterclaim, and that Petrobras has not
identified any damages arising from the alleged
malfeasance.152

3. Tribunal Analysis
393.

The Tribunal finds that no evidence
demonstrates Vantage itself substantially
assisted in committing bribery.

394.

Such a finding would require Respondents to
prove both that Claimants had “actual
knowledge” of the alleged breach of fiduciary
duty and that Claimants “substantially assisted
in its commission,” both of which elements
Claimants deny.153 No such proof has been
provided.

395.

Moreover, Petrobras ratified the DSA and
waived and is estopped from raising this
counterclaim, and Petrobras has not identified

151

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 84.
(citing Kinzbach, and Federal District Court decisions from
Washington and Texas).
152

153

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 84.

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 84.
(citing Kinzbach, and Federal District Court decisions from
Washington and Texas).

227a
any damages
malfeasance.154
396.

arising

from

the

alleged

Accordingly, the Tribunal concludes that this
counterclaim must be denied.

F. Civil RICO Violations
1. Respondents’ Position
397.

Respondents argue that the alleged corrupt
activities, including acts of bribery, mail fraud,
and wire fraud, of Vantage and of Messrs.
Bragg, O’Leary, Su, and Padilha, both before
and after execution of the DSA, formed “a
pattern and practice of racketeering activity in
violation of 18 U.S.C. § 1962(c).”155

2. Claimants’ Position
398.

154

Claimants argue that, even if there were
predicate acts of bribery, a “bribe allegedly paid
in two installments in 2009 does not amount to
a ‘pattern’ of activity” and does not constitute a
specific threat of repetition extending into
the future.156 Claimants also argue that
Respondents waived taking any action on the
predicate acts (i.e., alleged bribery) and are now

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 84.

155

Respondents’ Post-Hearing Response Brief, ¶ 195; Respondents’
Pre-Hearing Brief, ¶¶ 59-60.
156

Claimants’ Post-Hearing Brief, ¶ 446.

228a
estopped from asserting them.157 Claimants
further argue that Respondents have failed to
specify any injury from the alleged RICO
violations.158
3. Tribunal Analysis
399.

As Respondents and Claimants agree, a
successful RICO claim requires proof of “a
pattern of racketeering activity” and some
specific threat of repetition or ongoing practice
in the future.159

400.

Here, the evidence weighs in favor of the
position that the alleged acts of bribery
constituted one activity in relation to one
contract, not a “pattern” of activity, and that the
elements of a RICO claim have not been
established.

401.

The Tribunal also notes that Respondents
appear not to have specified any injury due to
the alleged RICO violation.160

402.

In conclusion, the Tribunal finds that
Respondents have not carried their burden of

157

Claimants’ Post-Hearing Brief, ¶ 447.

158

Claimants’ Post-Hearing Brief, ¶ 446.

159

Respondents’ Pre-Hearing Brief, ¶ 59; Claimants’ Post-Hearing
Brief, ¶ 446.
160

Claimants’ Post-Hearing Brief, ¶ 448.

229a
demonstrating that Vantage was guilty of
bribery on the evidence presented.
403.

For the foregoing reasons, Respondents’ RICO
counterclaim must be denied.

G. Civil Conspiracy
1. Respondents’ Position
404.

Respondents claim that Vantage conspired with
Oresta, TMT, and Messrs. Su, Bragg, O’Leary
and Padilha to procure the DSA, the Third
Novation, and the transactions contemplated
therein through bribery and corruption,
asserting that this constitutes an “actionable
civil conspiracy” under Texas law.161 They cite to
Texas case law for the elements of civil
conspiracy, namely, “(1) two or more persons;
(2) an object to be accomplished; (3) a meeting of
the minds on the object or course of action;
(4) one or more unlawful, overt acts; and
(5) damages as a proximate result.”162 The object
must, Respondents assert, be either “an
unlawful purpose or a lawful purpose by
unlawful means.”

2. Claimants’ Position
405.

161

162

Claimants concur with Respondents on the
elements of a civil conspiracy claim under Texas

Respondents’ Pre-Hearing Brief, ¶ 62.

Respondents’ Pre-Hearing Brief, ¶ 61 (citing Backes v. Misko,
486 S.W.3d 7, 27 (Tex. App.—Dallas 2015, pet. Denied).

230a
law.163 Claimants disagree, however, that
Vantage, Mr. Bragg, or Mr. O’Leary could be
found to have conspired, because Respondents
have not proved that there was a “knowing
meeting of the minds” among them, and because
proof of recklessness is not sufficient.164
Claimants also assert that Respondents have
not identified any damages resulting from the
alleged conspiracy.165 Finally, according to
Claimants, Respondents have ratified the DSA,
and have waived and are estopped from
asserting the counterclaim, for the same reasons
as mentioned regarding other counterclaims.166
3. Tribunal Analysis
406.

Respondents have neither alleged nor proven
how elements of a civil conspiracy claim against
Vantage have been satisfied.

407.

As already noted, Respondents have not met
their burden to show that Vantage possessed
“knowledge” of the alleged bribery.167

163

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 89.

164

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 89.

165

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 89.

166

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 89.

167

Respondents’ Post-Hearing Response Brief, ¶ 196.

231a
408.

Additionally, Respondents have not specified
any damages resulting from the alleged
conspiracy.

409.

Finally, the Tribunal concludes that, as with the
other counterclaims, Respondents waived this
counterclaim claim by ratifying the DSA through
the Second Novation and Third Novation.
Accordingly, the counterclaim must be denied.

H. Negligent Misrepresentation
1. Respondents’ Position
410.

Respondents assert that Vantage committed
negligent misrepresentation by making false
representations in the DSA, due to a failure to
exercise reasonable care in obtaining or
communicating information. In consequence,
Respondents have suffered damages.

411.

Rather than identifying specific representations
as being false, Respondents instead referred to
Section G.2 of their Post-Hearing Brief, which
cites to DSA Clause 10.14.1 (FCPA compliance),
Clauses 10.14.2 and 10.14.3 (illicit payment to
government or Petrobras employees), Clause
10.15 (compliance with applicable laws), Clause
10.20 (use of Illegal Information Brokers),
Clause 10.20.4 (actions that subject a party to
liability), and Clause 10.21 (conflicts of
interest).168

168

Respondents’ Post-Hearing Response Brief, ¶¶ 190-191, 197.

232a
412.

Respondents apparently refer to the same
alleged misrepresentations as under their
b reach of contract and fraudul ent
misrepresentation counterclaims.

2. Claimants’ Position
413.

Claimants argue that Respondents failed to
identify any specific misrepresentations or any
resulting damages.

414.

Claimants also argue that Respondents have
waived any claim for negligent
misrepresentation by ratifying the DSA by
entering into multiple novations and
amendments after Respondents had become
aware of the public allegations of illicit
payments.169

3. Tribunal Analysis
415.

The Tribunal finds that Respondents have not
satisfied their burden to prove that Vantage
made false, material misrepresentations
relevant to the provisions of the DSA cited by
Respondents.

416.

Respondents have also failed to prove any
damages resulting from the alleged
misrepresentations. Accordingly, the Tribunal
concludes that the counterclaim for negligent
misrepresentation must be denied.

169

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 91;
Claimants’ Post-Hearing Brief, ¶¶ 450-452.

233a
417.

Finally, as mentioned already with respect to
the fraudulent misrepresentation counterclaim,
the Tribunal notes here that Clauses 10.20.4
and 10.15 pertain to compliance with Applicable
Law only concerning the performance of
“Services” by Vantage, not to the act of entering
into the DSA.

I.

Unjust Enrichment (Money Had and Received)
1. Respondents’ Position

418.

Respondents claim that Vantage has been
unjustly enriched as a result of bribery and
corruption and that it would be fundamentally
unfair to allow Vantage to retain funds and
benefits improperly obtained in connection with
the DSA and Third Novation.170 According to
Respondents, even if Vantage had not engaged
in wrongful conduct (but others engaged in the
misconduct leading Vantage to receive benefits),
recovery for unjust enrichment or “money had
and received” is still appropriate. Respondents
assert that unjust enrichment is a theory of
recovery, not a cause of action, and that the
claim for relief is “money had and received,”
citing Texas case law.171

170

Respondents’ Pre-Hearing Brief, ¶¶ 67-69; Respondents’ PostHearing Response Brief, ¶¶ 198-200.
171

Respondents’ Pre-Hearing Brief, ¶¶ 67-69; Respondents’ PostHearing Response Brief, ¶¶ 198-200.

234a
2. Claimants’ Position
419.

Claimants make several arguments in response.
First, Claimants assert that “unjust enrichment”
is not recognized under maritime law as a
standalone claim.172 Next, from a factual
standpoint, Claimants assert that Petrobras
fails to identify the manner in which Vantage
has been unjustly enriched under the DSA. On
the contrary, assert Claimants, Vantage has
rendered valuable services for years under the
DSA, guaranteed debt of over US$ 775 million to
obtain the Titanium Explorer, and has been
forced into bankruptcy because the Titanium
Explorer could no longer be used. Lastly,
Claimants argue that Petrobras has ratified and
waived any acts that might otherwise justify a
theory of unjust enrichment.173

3. Tribunal Analysis
420.

Respondents raise the argument that Vantage
itself need not have engaged in misconduct for
the unjust enrichment theory to apply, and that
the misconduct of others (and receipt of gains by
Vantage) might tend to show that Vantage was
unjustly enriched. That being said, considering
the facts and circumstances, Respondents’
unjust enrichment theory is not well placed.

172

Claimants’ Post-Hearing Brief, ¶ 455.

173

Claimants’ Post-Hearing Brief, ¶ 455.

235a
421.

In considering whether Claimants were unjustly
enriched, relevant factors include the facts that
Vantage seems to have performed adequately
under the DSA for a number of years, that
Vantage incurred risk and debt in acquiring the
Titanium Explorer, and that Respondents’
termination of the DSA led to Vantage’s
bankruptcy.

422.

Furthermore, considering that Petrobras had
become aware of (and conducted internal
investigations regarding) issues concerning
alleged corruption by the time it novated the
DSA through the Second Novation and Third
Novation, Respondents are estopped from
asserting an unjust enrichment theory because
they ratified any acts that otherwise might have
given rise to a claim. Accordingly, the Tribunal
concludes that Respondents’ counterclaim for
unjust enrichment or “money had and received”
must be denied.

J. Constructive Trust
1. Respondents’ Position
423.

174

According to Respondents, entitlement to a
constructive trust requires proof of “(1) breach of
a special trust, fiduciary relationship, or actual
fraud; (2) unjust enrichment of the wrongdoer;
(3) and tracing to an identifiable res.”174

Respondents’ Pre-Hearing Brief, ¶ 70 (citing Nwokedi v.
Unlimited Restoration Specialists, Inc., 428 S.W.3d 191, 210 (Tex.
App.—Houston [1st Dist.] 2014, pet. denied) (citing Hahn v. Love,

236a
Respondents argue they are entitled to the
equitable remedy of a constructive trust because
of Vantage’s alleged fraud, unjust enrichment,
and “traceable gain” from the DSA.175
2. Claimants’ Position
424.

Claimants agree with Respondents on the
applicable legal standard for a constructive
trust, but Claimants note that Respondents have
not identified any property held by Vantage that
Respondents are entitled to receive. Claimants
also assert that Respondents have not shown
that Claimants engaged in actual fraud. Thus,
according to Claimants, there are no grounds for
a constructive trust.176

3. Tribunal Analysis
425.

Respondents’ constructive trust argument
depends, as Respondents themselves assert, on
a finding of unjust enrichment.

426.

Respondents have not proven unjust
enrichment, hence one of the necessary elements
for imposing a constructive trust is lacking.

321 S.W.3d 517, 533 (Tex. App.—Houston [1st Dist.] 2009, pet.
denied))).
175

176

Respondents’ Pre-Hearing Brief, ¶¶ 70-71.

Claimants’ Response to Respondents’ Pre-Hearing Brief, ¶ 94;
Claimants’ Post-Hearing Brief, ¶ 457.

237a
427.

Accordingly, the Tribunal concludes that
Respondents’ request that a constructive trust
be imposed must be denied.

K. Exemplary Damages for Alleged Fraud
1. Respondents’ Position
428.

Respondents claim a right to receive exemplary
damages based on Vantage’s alleged fraud,
arguing that the fraud must be proved by “clear
and convincing evidence” in order to justify
exemplary damages.177 Respondents argue that,
in their view, the DSA is not valid, so Clause
19.9 of the DSA does not preclude their right to
receive exemplary damages.178

2. Claimants’ Position
429.

Claimants argue that Respondents have not
proven a basis for exemplary damages, have
received the full value to which they were
entitled under the DSA and have not specified
any losses. Furthermore, assert Claimants,
Clause 19.9 of the DSA precludes Respondents’
claim for exemplary damages.179

3. Tribunal Analysis
430.

Although Respondents requested exemplary
damages in their Pre-Hearing Briefs but did not

177

Respondents’ Pre-Hearing Brief, ¶¶ 72-73.

178

Respondents’ Pre-Hearing Brief, ¶ 73.

179

Claimants’ Post-Hearing Brief, ¶ 464.

238a
mention exemplary damages in their PostHearing Briefs, Respondents appear to continue
to seek exemplary damages, based on their 8
December 2017 submission.180
431.

Respondents’ submissions provide scant basis
for this request. Respondents refer to portions of
their Post-Hearing Brief and Post-Hearing
Response Brief that refer only to disgorgement
of profits, if any.181

432.

On the evidence submitted, Respondents have
failed to prove that Vantage engaged in or was
complicit in fraud, let alone have they proved
fraud by “clear and convincing” evidence (the
standard which Respondents consider
applicable). Furthermore, Respondents have not
identified the exemplary damages that they
appear to be requesting. Accordingly, the
Tribunal concludes that Respondents’ request
for exemplary damages must be denied.

L. Conclusion
433.

In addition to finding that Respondents ratified
the DSA pursuant to the Second Novation and
the Third Novation, thus waiving objections
related to bribery, the Tribunal concludes that
each counterclaim fails for the following reasons:

180

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶ 28.
181

Respondents’ Post-Hearing Brief, ¶¶ 292-294; Respondents’
Post-Hearing Response Brief, ¶¶ 184-186.

239a
i.

ii.

iii.

iv.

v.

The Tribunal denies Respondents’
counterclaim alleging that the DSA is
void, voidable, unconscionable, and must
be rescinded, because Respondents have
not established that Vantage knew of or
participated in any bribery.
The Tribunal denies Respondents’
counterclaim for breach of contract based
on alleged bribery, corruption, and other
charges. Respondents failed to establish
that Claimants breached DSA Clauses
10.14.1, 10.14.2, 10.14.3, 10.20.1, 10.20.2,
10.20.3, 10.20.4, 10.21, or 10.15.
The Tribunal denies Respondents’
counterclaim for common law fraud and
fraudulent inducement, as Respondents
failed to prove that Claimants made false,
material misrepresentations in regard to
DSA Clauses 10.14.1, 10.14.2, 10.14.3,
10.20.1, 10.20.2, 10.20.3, 10.20.4, 10.21,
or 10.15.
The Tribunal denies Respondents’
counterclaim for assisting and
participating in breaches of fiduciary duty
by Messrs. Zelada and Musa, because
Respondents have not proven that
Vantage itself substantially assisted in
their alleged acts of corruption or bribery.
The Tribunal denies Respondents’
counterclaim for civil RICO violation, as
Respondents failed to demonstrate a
“pattern of racketeering activity” but have
only alleged and have not proven one

240a

vi.

vii.

viii.

ix.

instance of such activity, namely, the
alleged bribery in procuring the DSA.
The Tribunal denies Respondents’
counterclaim for civil conspiracy due to
Respondents’ failure to prove any of the
elements of such a claim, or the damages
allegedly resulting therefrom.
The Tribunal denies Respondents’
counterclaim
for
negligent
misrepresentation because Respondents
have not met their burden to prove that
Vant a g e m a de fa l se, materia l
misrepresentations in any of the DSA’s
provisions, and have not proven any
resulting damages.
The Tribunal denies Respondents’
counterclaim for unjust enrichment, or for
money had and received, because the
relevant factors, on balance, do not
establish that Claimants were unjustly
enriched by entering into the DSA. The
evidence establishes that the Claimants
performed adequately under the DSA for
a significant period of time and that
Respondents wrongfully terminated the
DSA, which resulted in financial hardship
for Claimants.
The Tribunal denies Respondents’
counterclaim for a constructive trust,
which relies upon a finding of unjust
enrichment, which the Tribunal has
rejected. Further, Respondents failed to
identify any property on which a
constructive trust could be imposed.

241a
x.

The Tribunal denies Respondents’ request
for exemplary damages because
Respondents failed to specify the damages
they are requesting, did not meet the
burden of “clear and convincing evidence”
for fraud they have argued is applicable,
and also failed to establish that DSA
Clause 19.9 does not preclude such a
claim.

434.

The Tribunal addresses below, in the next
section, Respondents’ offset claim against
damages awarded to Claimants.

VII.

Damages Analysis

A. Quantum
1. Overview
435.

As a result of the alleged material breach of the
DSA, Claimants request an award of US$ 560.2
million for benefit-of-the-bargain damages, plus
pre-award and post-award interest.182

436.

A higher amount of US$ 749.3 million in
damages plus pre-award and post-interest
interest should, according to Claimants, be
awarded if the Tribunal accepts Respondents’
contention that the Bareboat Charter
mechanism should be treated as a cost to be
deducted from Vantage’s day rates for purposes

182

Claimants’ Post-Hearing Brief, ¶ 471(7).

242a
of calculating Vantage’s benefit-of-the-bargain
damages.183
437.

Having considered all arguments as to the
Bareboat Charter mechanism, the Tribunal has
determined that the Bareboat Charter
mechanism should not be reflected in Claimants’
benefit-of-the-bargain damages.

438.

Accordingly, the alternative calculation of US$
749.3 million in damages that Claimants request
will be rejected.
Claimants and Respondents put forward views
from Dr. E. Allen Jacobs and Dr. Robert Maness
as their respective experts on quantum. Each
expert was examined over the course of two days
of hearings on 25 and 26 May 2017. The
Tribunal has carefully evaluated both experts’
views in relation to damages, including the
supplemental expert reports submitted after the
hearings.184

2. Claimants’ Position
439.

Claimants assert that benefit-of-the-bargain
damages are the appropriate measure of their
direct damages in a breach of contract case,
refraining from asserting claims to incidental or
consequential losses due to DSA Clause 19.9.185

183

Claimants’ Post-Hearing Brief, ¶ 471(8).

184

J-901 (Maness Rpt. 3); J-902 (Jacobs Rpt. 4).

185

Claimants’ Post-Hearing Brief, ¶ 362 and n. 109.

243a
440.

Regarding the basic concept of benefit-of-thebargain damages, Claimants and Respondents
concur that these are calculated by taking what
the non-breaching party would have received if
the contract had not been breached, then
subtracting costs that the non-breaching party
has avoided by not having to perform, as well as
backing out from the final sum any amounts the
non-breaching party would have earned after
the breach through steps at mitigation.186

441.

To quantify such damages, Claimants
considered the payments received and costs
incurred in an eight-month period running from
1 January 2015 to 31 August 2015 during the
DSA’s term before the breach, suggesting this
serves as a “reasonable proxy” of the amounts
Claimants would have received and the costs
they would have incurred during the remainder
of the DSA’s term but for the contract breach
and termination.187

442.

Claimants compared the “but-for” numbers to
their actual and projected revenue and costs due
to the DSA’s termination, including
mitigation,188 arriving at a figure of US$ 600.1
million benefit-of-the-bargain damages as the

186

Claimants’ Post-Hearing Brief, ¶ 362 (quoting Respondents’
expert, Dr. Maness (Transcript, Day 10, at 2449)).
187

Claimants’ Post-Hearing Brief, ¶ 363 (citing J-860 (Jacobs Rpt.
2), ¶¶ 20-36 and J-868 (Jacobs Rpt. 3), ¶¶ 81-84).
188

Claimants’ Post-Hearing Brief, ¶ 363.

244a
difference between the actual number and the
but-for number.189
443.

Claimants discounted that figure to the date of
the breach, 31 August 2015, using Claimants’
WACC (Weighted Average Cost of Capital),
arriving at a discounted number of US$ 427
million as of 31 August 2015.190

444.

With pre-award interest, Claimants used the
WACC, compounded monthly up to an assumed
award date of 1 August 2017, resulting in a
figure of US$ 560.2 million (or US$ 536.5 million
assuming discounting at 15.2% cost of capital
and accrual at 5.0%).191

445.

At the hearing, Claimants’ expert also submitted
updated calculations with pre-award interest for
prospective award dates through 1 July 2018,
including, in particular, the calculation of US$
615.62 million as of 1 April 2018 on the same
basis as he had calculated US$ 560.2 million as
of 1 August 2017 (see discussion infra of the
helpful calculations provided by Dr. Jacobs).

3. Respondents’ Position
446.

Respondents raised objections to Claimants’
damages claims and assumptions. One broad

189

Claimants’ Post-Hearing Brief, ¶ 363 (citing J-868 (Jacobs Rpt.
3), ¶ 83).
190

Claimants’ Post-Hearing Brief, ¶ 364.

191

J-868 (Jacobs Rpt. 3), ¶ 83.

245a
objection was that Claimants (VDDI and
VDEEP) seek damages “for the entire family of
Vantage entities,” including those of Vantage
Drilling International and ROCO, not
specifically for the two Claimants themselves.192
Respondents assert that this is improper and
“invites the Tribunal to exceed its authority.”193
447.

Additionally, Respondents’ expert disagreed
with Dr. Jacobs’s assumptions in calculating the
benefit-of-the-bargain damages, arguing that
(i) revenue in the but-for case should be lower
than what Dr. Jacobs testified, (ii) relative costs
should be lower due to the bankruptcy,
(iii) mitigation revenue should be higher than
what Dr. Jacobs testified, and (iv) the accrual or
pre-judgment interest rate should be much lower
than the rate Dr. Jacobs applied.

448.

With respect of the assumption concerning
revenue in the but-for scenario, Dr. Maness
calculated a lower average daily revenue rate for
2015 than Dr. Jacobs, providing a figure of US$
497,230.194 Dr. Jacobs, after making a correction,
considered the appropriate average daily
revenue rate to be US$ 508,000. 195

192

Respondents’ Post-Hearing Response Brief, ¶ 166.

193

Respondents’ Post-Hearing Response Brief, ¶ 169.

194

J-884, (Maness Rpt. 1), ¶ 12.

195

J-884, (Maness Rpt. 1), ¶ 9.

246a
449.

Regarding Vantage’s bankruptcy, Respondents
argued that Claimants ignored the impact of the
bankruptcy in their but-for case, and as a result
of this Claimants overstated their damages by
approximately US$ 310 million.196 According to
Respondents, Dr. Jacobs failed to account for the
fact that Vantage’s bankruptcy allowed Vantage
to lower and delay payment on its debt, thus
reducing its costs.197

450.

As to mitigation, Dr. Maness asserted that the
drillship rates applied by Dr. Jacobs were too
low, suggesting that Vantage’s mitigation efforts
would have yielded higher returns. 198
Additionally, Dr. Maness suggested that Dr.
Jacobs was “overly pessimistic” about prospects
of re-deploying the Titanium Explorer and that
Vantage did not make sufficient efforts to do
so.199

451.

With regard to the accrual rate, Dr. Maness
asserted that the rate posited by Dr. Jacobs,
15.2%, was too high. Dr. Maness asserted that
since a damages award is not uncertain, “a riskfree accrual rate is the appropriate prejudgment

196

Respondents’ Post-Hearing Brief, ¶ 310.

197

Respondents’ Post-Hearing Response Brief, ¶ 181; J-888
(Maness Rpt. 2), ¶¶ 3-11.
198

J-884 (Maness Rpt. 1), ¶¶ 41-42.

199

J-884 (Maness Rpt. 1), ¶ 69.

247a
interest to apply to expected value of future
damages,” proposing a rate of 3.32%.200
4. Tribunal Analysis
452.

As an initial matter, the Tribunal is not
persuaded by Respondents’ assertion that
awarding damages to Claimants here is the
same as awarding damages to the “collective
family of Vantage entities.”201

453.

Claimants seek fees payable under the DSA. The
Tribunal has jurisdiction over both VDDI and
VDEEP, who are or have been parties to the
DSA. No excess of authority occurs in assessing
damages.

454.

Although as an economic matter profits from the
DSA might be allocated to other entities in the
Vantage group, the damages themselves stem
directly from the day rates under the DSA and
the actual costs that Claimants incurred.

455.

Accordingly, the Tribunal is persuaded by the
opinion of Dr. Jacobs that the benefit-of-thebargain damages sought here are Claimants’
own damages, and not those of third parties.202

456.

Specific assumptions of Dr. Jacobs have been
criticized by Dr. Maness: (i) revenue in the but-

200

J-888 (Maness Rpt. 2), ¶ 23.

201

Respondents’ Post-Hearing Response Brief, ¶ 169.

202

Transcript, Day 9, at 2228-2230 (Jacobs).

248a
for case, (ii) impact of the bankruptcy on costs,
(iii) projected mitigation, and (iv) the accrual
rate.
457.

In this connection, the Tribunal notes as follows:
A. Dr. Jacobs explained that the difference
between his computation of the average daily
revenue rate of US$ 508,000 (originally
computed at US$ 529,997 but later revised
downward) and Dr. Maness’ suggested rate was
that Dr. Jacobs used the last eight months of the
DSA, namely, January through August 2015
whereas Dr. Maness included in his calculation
the revenues and costs for September 2015. The
Tribunal agrees with Dr. Jacobs’ opinion that
September 2015 should not be included in the
calculation, considering that the DSA was then
terminated.203 For example, Dr. Maness’s
calculation included costs for “disconnection of
the well” during September 2015 after the DSA’s
termination, which the Tribunal does not
consider one of Vantage’s costs of performance
under the DSA in the but-for case.204
B. Regarding bankruptcy, the Tribunal notes
that Respondents provided no legal authority for
asserting that the reduced debt payments of
Vantage’s parent company due to bankruptcy
can be considered as “costs avoided by not
having to perform” the DSA. Further, as a

203

Transcript, Day 9, at 2188 (Jacobs).

204

Transcript, Day 10, at 2444:13-2445:16 (Maness).

249a
matter of policy, the Tribunal considers it would
be inappropriate for Respondents to derive a
benefit from Vantage’s economic losses due to
the bankruptcy. Accordingly, the Tribunal
concurs with Dr. Jacobs’ position that it does not
make sense that “bankruptcy enables you to
avoid paying for the harm you cause the
enterprise.205
C. Concerning mitigation, the Tribunal finds
that Respondent provided no evidence that
Claimants failed to make an effort to mitigate
their damages. On the contrary, the evidence
shows that Vantage sought to redeploy the
Titanium Explorer, participating in three
tenders, albeit unsuccessfully, since 31 August
2015. Furthermore, Dr. Jacobs testified that
Vantage had been active in trying to mitigate.206
The Tribunal concludes that Respondents
neither met their burden of proving a failure to
mitigate, nor did they establish a basis to
challenge the drillship day rate figures Dr.
Jacobs relied upon.
D. Concerning the rate of pre-judgment interest,
or accrual rate, the Tribunal has been persuaded
by Dr. Jacobs’ explanation of why the rate of

205

206

Transcript, Day 9, at 2195:7-12 (Jacobs).

Transcript, Day 9, at 2196-2197 (Jacobs); J-868 (Jacobs Rpt. 3),
¶ 74.

250a
15.2% is the appropriate rate to be applied, in
light of Vantage’s cost of capital.207
458.

Accordingly, the Tribunal finds Dr. Jacobs’s
calculations of Vantage’s benefit-of-the-bargain
damages to be persuasive and is not swayed by
Dr. Maness’s critiques.

459.

The amount due in damages for breach of the
DSA will be US$ 615.62 million as of 1 April
2018, to bear interest compounded monthly as
discussed infra.

460.

In addition, the Tribunal awards damages of
US$ 6.4 million in relation to the claim for
Chinook 6 invoices.

B. Interest
1. Damages on Early Termination
461.

207

208

As a preliminary matter, the Tribunal notes that
paragraph 8.1 of the Third Novation, setting
forth Article 24.2(F) of the DSA, authorizes the
Tribunal to grant pre- or post-award interest at
applicable statutory interest rates during the
relevant period.208 This provision accords with
the AAA Commercial Arbitration Rules at R47(d)(i) which allows “interest at such rate and
from such date as the arbitrator(s) may deem
appropriate.”

Transcript, Day 9, at 2190-2191 (Jacobs).

J-010 Third Novation and Amendment Agreement to the
Agreement for the Provision of Drilling Services, Cl. 8.1.

251a
462.

Each side’s quantum expert argued for a
different interest rate not based on any statute.
Accordingly, the Tribunal has considered those
rates which the Parties have proposed.

463.

The Tribunal has been convinced by the analysis
provided through the expert reports and
testimony of Dr. Jacobs, to the effect that preaward and post-award interest should accrue at
15.2% compounded monthly. The rate proposed
by Dr. Maness, a “risk free rate” of only 3.32%,209
would not suffice to make Claimants whole.

464.

The same rate of 15.2% was used by Dr. Jacobs
in the WACC for discounting the benefit-of-thebargain damages to the date of the breach on 31
August 2015, which yielded a sum of US$ 427
million with interest added through 1 August
2017 for a total of US$ 560.2 million.

465.

As to whether simple or compound interest
should be applied (and if compound, the
frequency thereof), Dr. Jacobs testified that
interest compounded monthly, rather than
simple interest, was appropriate.210 Dr. Maness
seemed to have followed this approach, stating
on day 10 of the evidentiary hearings, “I need to
check my spreadsheets, but my guess is that’s
what we did.”211 Respondents’ post-hearing

209

J-888 (Maness Rpt. 2), ¶ 23.

210

Transcript, Day 10, at 2432:4-11.

211

Transcript, Day 10, at 2433:2-8.

252a
submissions and Dr. Maness’s Second
Supplementary Expert Report dated 2 June
2017 did not mention this topic. Nor did Mr.
Jacobs’s Supplemental Rebuttal Expert Report
dated 9 June 2017.
466.

In this connection, the Tribunal Chairman
engaged in direct exchanges with both economic
experts, Dr. Maness and Dr. Jacobs while
appearing together on Day 10 of the hearings, on
26 May 2018. See Transcript pages 2432
through 2433, set forth below, in an exchange
with both experts seeming to acknowledge that
monthly compounding was the better approach.
THE PRESIDENT: What was it you did in your
calculation?
DR. JACOBS: I compounded it on a monthly
basis. If it’s compounded, you could compound it
on an annual basis.
THE PRESIDENT: You said that you did
compound it on a monthly basis?
DR. JACOBS: Yes.
THE PRESIDENT: But you were about to say
something like you didn’t feel strongly on that
or….
DR. JACOBS: Well, we may be talking millions
of dollars, but percentage-wise it’s not a huge
difference.
THE PRESIDENT: Dr. Maness, you were about
to say.
DR. MANESS: Subject to checking my
spreadsheets, I think we adopted the same

253a
compounding mechanism that he used. But as I
said -THE PRESIDENT: Which would have been
monthly then?
DR. MANESS: I need to check my spreadsheets,
but my guess is that’s what we did.
THE PRESIDENT: Thank you very much.212
467.

In this connection, the Tribunal has also been
assisted inter alia by the Expert Report of Dr.
Maness submitted on 17 March 2017 (J-884), the
illustrative calculations, and by the interest
figures in the demonstrative slides prepared by
Dr. Jacobs and contained in Exhibit J-908. The
calculations of Dr. Jacobs in that Exhibit J-908
provide in pertinent part that with interest
compounded monthly the amount due as of 1
April 2018 would be US$ 615.62 million.213

468.

Respondents’ Post-Hearing Briefs do not seem to
address interest rates as such, but rather rely on
DSA Clause 19.9 as a bar to any damages for
Claimants, without providing an alternative
analysis of rates.

212

213

Transcript, Day 10, at 2432:7-2433:10.

At slide 23, Dr. Jacobs provides helpful calculations of how
interest on the award would run through the 1st of July 2018,
using both a simple and a compound methodology. In passing the
Tribunal notes that page 23 most likely was mis-numbered and
would have been page 22 but for skipped numbering on the slide
deck, jumping from page 21 to page 23.

254a
469.

In consequence, for pre-award and post-award
interest, the Tribunal hereby adopts the rate
proposed by Dr. Jacobs of 15.2%, compounded
monthly, as considered appropriate by both
experts.

2. Chinook 6 Invoices
470.

Joint Exhibit 655 includes a Service of Process
for the Chinook 6 lien in an amount of US$
6.403. Attached to the Exhibit are “Confirmation
of Deliverable” Forms for US$ 5.203 million
(August 2015) and US$ 1.2 million (September
2015).

471.

DSA Clause 17.1 provides that invoices shall be
delivered by the 20th day of each month for the
preceding month’s work. DSA Clause 17.4
provides for payment within thirty (30) days of
the invoices.

472.

Accordingly, interest should begin on the
payment due dates of 20 October 2015 (August
invoice) and 19 November 2015 (September
invoice).

473.

Interest will thus run from 20 October 2015 on
US$ 5.2 million and from 19 November 2015 on
US$ 1.2 million

474.

For reasons discussed above, interest will accrue
at 15.2%, compounded monthly.

C. Bareboat Charter
475.

Claimants utilized a Bareboat Charter in their
acquisition and use of the Titanium Explorer, to

255a
minimize taxes. Respondents’ damages expert,
Dr. Maness, criticized Dr. Jacobs’s damages
calculation for its lack of consideration of this
charter, and for not reducing damages to
account for Vantage’s transfer of DSA profits to
affiliates within the consolidated Vantage group
of companies through the Bareboat Charter
arrangement.
1. Respondents’ Position
476.

Respondents argue that Claimants wrongly
calculated damages, and that Claimants in
doing so should have considered the costs of the
BCA.

477.

Respondents believe the lack of accounting for
costs under the BCA means that Claimants’
damages are overstated, if they exist at all.
Respondents argue that if Claimants’ damages
methodology were to include the payments to
use the Titanium Explorer, Claimants’ damages
would be reduced “to a range between US$ 0 and
US$ 98.9 million, depending on whether there
was a markup under the BCA and which
discount rate is used to calculate the present
value of Vantage’s damages.”214

478.

Dr. Maness explained that the Bareboat Charter
is a “variable cost” which “varies between the
actual and but-for worlds and must be
considered when calculating Vantage’s alleged

214

Respondents’ Post-Hearing Brief and Appendices, ¶ 288.

256a
damages” (see Maness Second Supplemental
Report at ¶ 9).
2. Claimants’ Position
479.

Claimants argue they properly excluded the
profits transferred to Vantage affiliates under
the BCA from the costs used in calculating
damages.

480.

Claimants assert the Bareboat Charter is part of
Vantage’s capital structure, which “merely
apportions the gains and losses of entities such
as Vantage,”215 meaning it should not be used to
calculate gains and losses. It was a mechanism
for allocating profits between Vantage and its
affiliates under common ownership and
control.216

481.

Claimants emphasize the Bareboat Charter tax
structure is “utilized by virtually every other
contractor in the offshore drilling business” and
that the DSA actually mandated the use of such
a structure, requiring that Claimants “shall use
reasonable endeavors to minimize Taxes with
respect to this Contract.”217

482.

Claimants state that Respondents are arguing
that “the party to the contract cannot recover its
damages because it transfers its profits to an

215

Claimants’ Post-Hearing Brief, ¶ 388.

216

Claimants’ Post-Hearing Brief, ¶ 393.

217

Claimants’ Post-Hearing Brief, ¶ 379.

257a
affiliated entity, while at the same time the
affiliated entity cannot recover damages because
it is not a party to the contract,”218 a win-win
situation for Respondents, in which Petrobras
would have no liability to any Party, a situation
which cannot be.
483.

Claimants point out that if Respondents’
argument were accepted, that would mean that
“virtually every company in the offshore drilling
industry [would be deprived] of meaningful
recovery in breach of contract cases.”219

484.

Claimants argue that the damages calculations
of their expert, Dr. Jacobs, would in fact be
significantly higher with the charter’s use in
calculations, as there would have been a higher
day rate imposed under the DSA. Claimants say
that Dr. Maness admitted as such:
Q. And if there had been no bareboat
charter—assume with me that the bareboat
charter did decrease the tax burden with respect
to the Titanium Explorer after it reentered the
Gulf of Mexico. If Vantage had not entered into
that bareboat charter, the day rate would have
been increased to compensate Vantage for that
increased tax burden?
A. Well, yeah, although Clause 18.1.3 suggests
it would have gone down as of the time they

218

Claimants’ Post-Hearing Brief, ¶ 410.

219

Claimants’ Post-Hearing Brief, Subheading VI. B. 3. (h), at 156.

258a
entered into the bareboat charter as well,
assuming you’re right.220
485.

Claimants argue that “[b]ecause payments by
Vantage under the Bareboat Charter are
calculated based on Vantage operating profit,
Vantage must first earn an operating profit
before it can shift those profits under the
Bareboat Charter arrangement.”221 Similarly,
the payments to Vantage ROCO would only
come from Vantage’s profit. Thus, the reduced
profits are the proper basis for assessing
economic damages.

3. Tribunal Analysis
486.

The Tribunal finds no evidence that the
Bareboat Charter tax structure, common in the
offshore drilling industry, should alter damages.

487.

As noted in the Supplemental Report of Dr.
Jacobs (9 June 2017), industry practice and
sound financial analysis require damages based
on lost revenue or lost profit without reference to
tax or capital structures.

488.

As a matter of logic, loss to Claimants caused by
the DSA termination occurred before calculation
of payments under the Bareboat Charter.

220

Transcript, Day 10, at 2513:15-2514:1.

221

Claimants’ Post-Hearing Brief, ¶ 408.

259a
489.

Consequently, Claimants were correct in
excluding the Bareboat Charter from their
damages calculation.

490.

The Tribunal also notes that the terms of the
DSA itself mandated the use of such a structure,
requiring that Claimants to “use reasonable
endeavors to minimize Taxes with respect to this
Contract.”222

491.

In passing the Tribunal also notes that without
the Bareboat Charter (and thus contrary to
offshore drilling industry practice) Dr. Jacobs
would have provided for significantly higher
damages, given a higher day rate imposed under
the DSA.

492.

In short, Vantage cannot transfer any profit
under a charter arrangement until it has first
earned an operating profit itself. Thus, the
Bareboat Charter cannot be relevant to the
calculation of damages.

D. Offset (Profits, Fees and Costs)
1. Respondents’ Position
493.

222

Respondents state that “any alleged amount
owned [sic] to Vantage for work performed but
unpaid must be offset by (a) disgorgement of
Vantage’s ill-gotten profits, and (b) any

Claimants’ Post-Hearing Brief, ¶ 379 (citing J-001 Agreement
for the Provision of Drilling Services, Cl. 18.1.1).

260a
damages, fees,
Respondents.”223
494.

or

costs

awarded

to

The foregoing argument implicates also
Respondents’ argument that Respondents are
entitled to attorneys’ fees and costs for alleged
breach of DSA Article 24.2, by commencing
arbitration without first holding “direct
negotiations in good faith.”224

2. Claimants’ Position
495.

Claimants contend that there can be no offset,
because Respondents have not proven any
recoverable damages. Additionally, Claimants
refer to new Article 24.2(E) of the DSA, as
amended by the Third Novation, providing that,
“[a]ll arbitration fees and costs shall be borne
equally regardless of which Party prevails. Each
Party shall bear its own costs of legal
representation and witness expenses.”225

496.

Claimants assert that they complied with Article
24.2 by making multiple attempts to engage in
negotiations with Petrobras after Petrobras gave
notice of default on 22 July 2015.

223

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶¶ 27, 29.
224

Respondents’ Review of Claims and Defenses Remaining for
Decision, ¶ 29.
225

Claimants’ Post-Hearing Brief, ¶¶ 465-469 (citing J-010, § 8.1,
adding new Article 24.2(E)).

261a
3. Tribunal Analysis
497.

Respondents have not met their burden to prove
the asserted counterclaims. Consequently, the
Tribunal must deny any damages or
disgorgement of Vantage’s profits, and/or
Respondents’ request for an offset against any
damages awarded to Claimants.

498.

For the reasons set out in detail in the next
section, the clear language of DSA Article
24.2(E) mandates that each side must bear its
own fees and costs, with the arbitration costs
being borne equally by Claimants and
Respondents.

VIII. Costs and Attorneys’ Fees
A. Overview
499.

The AAA Commercial Arbitration Rules provide
for the Tribunal to assess arbitration costs in the
final award, giving broad discretion to apportion
among the Parties the ICDR/AAA’s
administrative fees along with the arbitrators’
compensation and expenses, hereinafter called
“Costs” unless otherwise noted.

500.

The Tribunal’s discretion to award attorneys’
fees is more circumscribed. Rules R-47(c) and
(d)(ii) of the Commercial Arbitration Rules
provide as follows:
(c)

In the final award, the arbitrator shall
assess the fees, expenses, and
compensation provided in Sections R-53,

262a
R-54, and R-55. The arbitrator may
apportion such fees, expenses, and
compensation among the parties in such
amounts as the arbitrator determines is
appropriate.
(d)

The award of the arbitrator(s) may
include:
[. . .]
ii. an award of attorneys’ fees if all
parties have requested such an award
or it is authorized by law or their
arbitration agreement.

501.

The Tribunal has considered the Parties’
positions regarding the interpretation of the
DSA arbitration clause and its effect on the
allocation of both arbitration costs and
attorneys’ fees, doing so in light of all relevant
considerations, including Rule R-54 of the
Commercial Arbitration Rules, which states that
certain expenses shall be borne equally by the
parties.

502.

Claimants assert that they paid US$ 766,578.63
in Costs as of 27 September 2017,226 while
Respondents assert that they paid US$
695,128.63 as of 8 September 2017.227

226

Affidavit of Karl S. Stern in support of Claimants’ Objections to
Respondents’ Attorneys’ Fees Affidavit (“Stern Affidavit”), ¶ 2.
227

Affidavit of William M. Katz, Jr. in Support of Respondents’
Request for Legal Fees and Expenses, ¶ 16 (“Katz Affidavit”)

263a
Disregarding any changes in those Costs at a
later moment, the total amount of Costs seems
to be US$ 1,461,707.26. In this connection, the
affidavit from Attorney Karl Stern on 27
September 2017 referred to a total sum of US$
1,461,705.26, or US$ 2.00 less than the amounts
calculated by the Tribunal. Claimants thus paid
approximately 52% of the Costs while
Respondents paid 48%.228
503.

Regarding attorneys’ fees, Respondents assert
that they incurred legal fees for Thompson &
Knight LLP’s services in the arbitration in the
amount of US$ 2,869,987.10, fixed in October
2017.229 Additionally, Respondents assert that
they incurred other expenses of US$ 510,502.96,
which included fees from other law firms.230
Respondents also noted US$ 695,128.63 paid in
Costs to the ICDR. See William Katz Affidavit of
8 September 2017.

504.

Claimants, in light of their position on recovery
of costs and fees, did not disclose the attorneys’
fees incurred in this arbitration. Nor did
Claimants request an award of fees or costs,
except to the extent of a ruling by the Tribunal
that “[e]ach party shall bear its own attorney’s

228

Stern Affidavit, ¶ 3.

229

Katz Affidavit, ¶¶ 10-11 (This amount is said to include
estimated fees, thus Respondents have not given a finalized
amount).
230

Katz Affidavit, ¶ 15.

264a
fees and costs, and shall bear in equal shares the
Tribunal fees and costs and the costs of the
ICDR.”231
B. Respondents’ Position
505.

In essence, Respondents argue that Claimants
must pay Respondents’ Costs because Claimants
breached Article 24.2 of the DSA, as amended by
Clause 8.1 of the Third Novation, by
commencing this arbitration without first
holding “direct negotiations in good faith” to
resolve the dispute.232

506.

Article 24.2 of the DSA provides in its
introductory sentences that the parties must
resolve any dispute by using direct negotiations
and arbitration. In pertinent part, that provision
continues as follows:
A Party who violates this Article 24.2 [which
provides for negotiations and arbitration] shall
pay all legal and consulting fees and costs
incurred by the other Party in any suit, action,
or proceeding to enforce Article 24.2. [….] If the
Dispute is not resolved by direct negotiations in
good faith between the parties in dispute, then
the Dispute shall be finally settled by binding

231

232

Claimants’ Post-Hearing Brief, ¶ 471.

Katz Affidavit, ¶¶ 4-5; Respondents’ Review of Claims and
Defenses Remaining for Decision, ¶ 29; Respondents’ Second
Amended Answering Statement and Counterclaim, ¶¶ 169-170.
Respondents’ Pre-Hearing Briefs and Post-Hearing Briefs did not
expressly make this argument.

265a
arbitration and either Party may at any time
initiate such arbitration by giving notice to the
other Party.
507.

Respondents argue that Claimants must engage
in “direct negotiations in good faith” with
Respondents before initiating arbitration.233
They assert that when PAI sent Claimants a
notice of termination of the DSA on 31 August
2015, Claimants initiated arbitration that same
day, or perhaps the next day.234 Respondents
assert that Claimants did not engage in direct
negotiations in good faith before filing the
arbitration.235 Therefore, argue Respondents,
Claimants violated Article 24.2 and are
accordingly liable for all legal and consulting
fees and costs incurred by Respondents in this
proceeding.236

C. Claimants’ Position
508.

Claimants propose a different interpretation of
the Parties’ Agreement. They note Article

233

Katz Affidavit, ¶ 5; Respondents’ Review of Claims and
Defenses Remaining for Decision, ¶ 29; Respondents’ Second
Amended Answering Statement and Counterclaim, ¶ 168.
234

Katz Affidavit, ¶ 5.

235

Respondents’ Second Amended Answering Statement and
Counterclaim, ¶ 170.
236

Katz Affidavit, ¶ 5; Respondents’ Second Amended Answering
Statement and Counterclaim, ¶ 170.

266a
24.2(E) of the DSA, which, as amended by the
Third Novation, provides as follows:
All arbitration fees and costs shall be borne
equally regardless of which Party prevails. Each
Party shall bear its own costs of legal
representation and witness expenses.237
509.

Claimants conclude that this express wording of
the arbitration clause precludes an award of
attorneys’ fees and costs.

510.

Claimants deny any violation of the so-called
“enforcement exception” in the introductory
sentences of DSA which says that a party
violating that provision “shall pay all legal and
consulting fees and costs incurred by the other
Party in any suit, action, or proceeding to
enforce Article 24.2.”

511.

According to Claimants, there has been no
lawsuit which would trigger the obligation to
pay legal and consulting fees incurred “in any
suit, action, or proceeding to enforce Article
24.2.”238

512.

According to Claimants, the event required to
occur in order to create an obligation never

237

Claimants’ Objections to Respondents’ Attorneys’ Fees Affidavit,
¶ 2; Claimants’ Post-Hearing Brief, ¶ 466; Claimants’ Response to
Respondents’ Pre-Hearing Brief, ¶ 96 (all citing to J-010 §8.1
(adding new Clause 24.2(E) to the DSA)).
238

Claimants’ Objections to Respondents’ Attorneys’ Fees Affidavit,
¶ 3 (quoting Article 24.2(E)).

267a
occurred, because Respondents did not institute
an action to enforce Article 24.2. Respondents
never incurred any fees or costs in a lawsuit to
enforce the duty to negotiation or arbitrate.239
Second, Claimants argue that they never
breached the enforcement exception in Article
24.2, because they made multiple attempts to
hold good faith negotiations after Petrobras
issued a notice of default, and Claimants found
those attempts to be futile.240
513.

As a separate argument, Claimants assert that
Article 24.2 does not mention any time frame or
process for the good faith negotiations to occur.
Accordingly, argue Claimants, initiating the
arbitration at the time when they did so was not
a violation of Article 24.2.241

514.

Further, according to Claimants, even if
Respondents may legitimately claim costs in this
arbitration, which Claimants have denied, some
of the legal fees for which Respondents seek
reimbursement were not actually incurred in
this proceeding but were instead incurred in
other matters.

239

Claimants’ Objections to Respondents’ Attorneys’ Fees Affidavit,
¶ 4.
240

Claimants’ Objections to Respondents’ Attorneys’ Fees Affidavit,
¶ 5 (citing Anderson Stmt. 1 (J-863)).
241

Claimants’ Objections to Respondents’ Attorneys’ Fees Affidavit,
¶ 5.

268a
515.

Lastly, Claimants say that Respondents did not
explain how their costs were reasonable or
necessary.242

D. Tribunal Analysis
516.

In determining whether to award costs and/or
attorneys’ fees, the Tribunal takes into
consideration a number of factors, including the
place of arbitration and lex arbitri (in this case,
the United States and the FAA) and the
applicable provisions of the relevant arbitration
rules (in the present instance, the AAA
Commercial Arbitration Rules). The Tribunal
also considers the Parties’ agreement,
submissions, and conduct.

1. Attorneys’ Fees
517.

With respect to attorneys’ fees, the presumption
that each side bears its own legal expenses has
long been established within the United States.
No evidence suggests any different practice in
Houston, the seat of proceedings. As discussed
below, neither side has provided any reason to
overturn that presumption in this case.

518.

Rule R-47(d)(ii) of the Commercial Arbitration
Rules authorizes the Tribunal to award
attorneys’ fees “if all parties have requested
such an award or it is authorized by law or their
arbitration agreement.” Applying this Rule to

242

Claimants’ Objections to Respondents’ Attorneys’ Fees Affidavit,
¶ 6.

269a
the facts at hand, only Respondents requested
attorneys’ fees.
519.

Respondents did not present any applicable law
authorizing attorneys’ fees.

520.

Finally, the Tribunal turns to the provisions of
DSA Article 24.2 to consider whether the
Parties’ agreement justifies deviation from the
above principles.

521.

DSA Article 24.2(E) clearly states that each
party shall “bear its own costs of legal
representation ….”

522.

The DSA’s so-called “enforcement exception”
contained in the introductory part of Article 24.2
does not apply in the instant case. That
exception provides that a party violating that
provision “shall pay all legal and consulting fees
and costs incurred by the other Party in any
suit, action, or proceeding to enforce Article
24.2.”

523.

No evidence has been presented of any
proceeding brought by Respondents to enforce
Article 24.2 of the DSA which would have
triggered the “enforcement exception” allowing
recovery of costs.

2. Costs of the Arbitration
524.

Regarding the Costs of this arbitration, the
Tribunal finds that Article 24.2(E) precludes any
allocation other than an equal share among the
parties. That provisions says that “[a]ll

270a
arbitration fees and costs shall be borne equally
regardless of which Party prevails.”
525.

In their Post-Hearing Brief of 17 July 2017,
Claimants at paragraph 471 (page 177) have
argued that each Party “shall bear in equal
shares the Tribunal fees and costs and the costs
of the ICDR.”

526.

Rule R-54 of the AAA’s Commercial Arbitration
Rules lends further support to this position,
stating that certain expenses of the arbitration
“shall be borne equally by the parties.”

IX.

Majority Comment on the Objection and Dissent

527.

The Majority have carefully considered the
Objection to, and Dissent from, the Majority’s
Final Award, initially provided by Arbitrator
Gaitis to his Tribunal colleagues and the AAA
immediately following the Chairman’s
communication of proposed tentative conclusions
on jurisdiction, liability and limitation of
damages.

528.

Arbitrator Gaitis subsequently confirmed and
supplemented that Objection and Dissent,
indicating to his Tribunal colleagues, and to the
ICDR/AAA, an intention not to sign the Award.

529.

The Chairman and Judge Brower each confirms
that he has remained independent and impartial
throughout the proceedings. The Chairman and
Judge Brower each confirms that the prehearing, hearing, and post-hearing processes
leading to the issuance of this Final Award have

271a
been conducted with full respect for all Parties’
rights to fundamental fairness and due process
protections meant to be provided to arbitrating
parties by Chapters 1, 2 and 3 of the Federal
Arbitration Act. Neither the Chairman nor
Judge Brower has noted any evidence that these
proceedings denied the Parties fundamental
fairness and due process protections.
X.

Disposition

A. Jurisdiction
530.

The Tribunal possesses jurisdiction over all
named Parties in this arbitration: Claimant
Vantage Deepwater Company, Claimant
Vantage Deepwater Drilling, Inc., Respondent
Petrobras America Inc., Respondent Petrobras
Venezuela Investments & Services, BV, and
Respondent Petróleo Brasileiro S.A. (also
referred to as Petrobras Brazil). For the
avoidance of doubt, the Tribunal confirms its
jurisdiction over Petroleo Brasileiro, which as
primary obligor under the DSA and the
Guaranty remains responsible for the breaches
of that Contract.

B. Claims
1. Liability
531.

The Tribunal finds Respondents liable for US$
615.62 million by reason of early termination of
the DSA without justification or payment of the
amount due for the rest of the Contract term.

272a
532.

The Tribunal awards the US$ 6.4 million sought
by Claimants for invoices related to the Chinook
6 well.

533.

The Tribunal considers dismissed without
prejudice the tort claims withdrawn by Vantage
on 15 May 2017.

2. Quantum and Interest
534.

The amount due in damages for early
termination will be US$ 615.62 million as of 1
April 2018, to bear interest compounded
monthly at a rate of 15.2% and running from 1
April 2018 and through final payment of this
Award.

535.

The award of US$ 6.4 million for invoices related
to Chinook 6 will bear interest from 20 October
2015 on US$ 5.2 million, and from 19 November
2015 on US$ 1.2 million. Such interest shall be
calculated at 15.2% compounded monthly,
running until final payment of the awarded
sums.

C. Counterclaims
536.

The Tribunal dismisses with prejudice all
Petrobras’s counterclaims.

D. Costs and Attorneys’ Fees
537.

Each side shall bear their own attorneys’ fees
and costs incurred in connection with this
arbitration.

273a
538.

The administrative fees and expenses of the
International Centre for Dispute Resolution
totaling US$99,608.82 shall be borne equally by
the two sides, as shall the compensation and
expenses of the arbitrators, totaling US$
1,410,602.82. Respondents shall reimburse
Claimants for the excess of what should have
been paid, in an amount of US$ 32,800.02 upon
demonstration by Claimants that these amounts
have been paid.

539.

This Award is in full settlement of all claims and
counterclaims submitted in this arbitration.

274a
Vantage v. Petrobras ICDR
Case No. 01-15-0004-8503
SIGNATURES
ICDR Case No. 01-15-0004-8503
For the purposes of Article I
Convention of 1958 on the
Enforcement of Foreign Arbitral
that this Final Award was made
USA.

of the New York
Recognition and
Awards, we certify
in Houston, Texas,

/s/ Charles N. Brower
Charles N. Brower, Arbitrator
[SEAL]
District of Columbia: SS
Subscribed and sworn to before me, in my
presence, this 28th day of June, 2018
/s/ Ahdia P. Bavari
Ahdia Pareen Bavari, Notary Public, D.C.
My commission expires June 14, 2022.
____________________
James M. Gaitis, Arbitrator, Declining to Sign the
Award, Filing an Objection and Dissent
/s/ William W. Park
William W. Park, Chairman (Presiding Arbitrator)
Date: 29 June 2018
I, William W Park, do hereby affirm upon my oath as
Arbitrator that I am the individual described in and

275a
who executed this instrument, which is our Final
Award.
/s/ William W. Park
William W. Park, Chairman (Presiding Arbitrator)
Date 29 June 2018
On this 29th day of June 2018, before me personally
came and appeared William W. Park, to me known and
known to me to be the individual described in and who
executed the foregoing instrument and he
acknowledged to me that he executed the same.
/s/ _______________
Notary Public
State of Massachusetts

)
) SS:

County of Norfolk
USA
[SEAL]

276a
Vantage v. Petrobras
ICDR Case No. 01-15-0004-8503
ANNEXES: PARTIES’ SUMMARIES OF CLAIMS
Annex A. Claimants
[See Fold-Out Exhibit]

Vantage v. Petrobras
ICDR Case No. 01-15-0004-8503
ANNEXES: PARTIES’ SUMMARIES OF CLAIMS
Annex A. Claimants

Issue for
Decision
I. JURISDICTION

Response to Second
Amended Answering
Third Amended
Pre-Hearing Brief
Statement and
Demand for
02.17.17
Counterclaim
Arbitration 12.02.16
12.16.16
¶¶10-15

¶¶71-76

¶¶28, 124, Annex 1
(corrected)

A. The Tribunal has authority to decide its own jurisdiction
B. The Tribunal has jurisdiction over VDEEP, VDDI, PVIS, and PAI under the DSA, as
amended and novated under the Third Novation
This dispute is falls within the scope of the arbitration provision in Clause 24.2 of the DSA,
as amended by the Third Novation.
VDEEP, VDDI, PVIS and PAI are signatories to and defined parties in the Third Novation,
and are therefore bound by the arbitration clause.

Pre-Hearing Prehearing
Response Brief Reply Brief
03.17.17
04.14.17

Post-Hearing Brief
07.17.17

¶¶190-199, 471

Post-Hearing
Response Brief
08.18.17
¶¶9-28

¶190
¶¶10-12

¶¶71-76

¶14

¶71

¶¶10-13

¶¶71-76

¶¶28, 124, Annex 1
(corrected)
¶¶28, 38, 42, 109,
124
¶¶28, 124, Annex 1
(corrected)

¶¶191-192, 471

¶¶10-22

¶191

¶¶12, 18-19, 26

¶¶191-192

¶¶11, 18, 28

Respondents' contention that by the Third Novation, VDDI replaced VDEEP under the
DSA is wrong because i) Section 3.7 of the Third Novation confirms that both PVIS and PAI
remain liable to both VDDI and VDEEP; ii) Respondents' argument goes to merits and not
to jurisdiction.

¶¶28, 124, Annex 1
(corrected)

¶193

¶¶18-22

Respondents' contention that PVIS has no liability because PAI assumed PVIS's obligation
is wrong because i) it does not negate jurisdiction over PVIS; ii) Section 3.7 of the Third
Novation confirms PVIS remains jointly and severally liable; iii) PVIS has conceded
jurisdiction by bringing counterclaims.

¶¶28, 124, Annex 1
(corrected)

¶193

¶¶11-17

¶¶ 196-199, 471

¶¶22-28

¶196

¶26

¶197

¶¶27-28

¶197

¶¶22, 25, 28

C. The Tribunal has jurisdiction over VDEEP, VDDI, and Petroleo Brasileiro under
the Guaranty

¶¶13, 15

¶¶71-76

The broadly worded arbitration clause in the Guaranty (Clause 3.5) covers the dispute.

¶13, 15

¶76

¶15

¶74

VDEEP and Petroleo Brasileiro are bound to the Guaranty's arbitration clause because they
are signatories to the Guaranty.
The Tribunal has jurisdiction over VDDI because it is a successor and assign of VDEEP
under the Third Novation, and Section 1.4(iv) of the Guaranty provides that the obligations
of Petroleo Brasileiro inure to the benefit of VDEEP and its successors.

¶10

¶¶71-76

103

¶¶28, 79-81, 124,
Annex 1
(corrected)
¶¶79-80, 124,
Annex 1
(corrected)
¶¶28, 80, 124,
Annex 1
(corrected)
¶¶28, 80, 124,
Annex 1
(corrected)

Vantage v. Petrobras
ICDR Case No. 01-15-0004-8503

Issue for
Decision

Third Amended
Demand for
Arbitration
12.02.16

Response to Second
Amended Answering
Statement and
Counterclaim
12.16.16

Pre-Hearing Brief
02.17.17

¶¶116-117

¶¶28, 42, 79-80,
124, Annex 1
(corrected)

Respondents' argument that Petroleo Brasileiro is bound only by the original version of the
DSA's arbitration clause fails because i) the Guaranty refers to the DSA and the DSA
expressly provides that it may be amended from time to time; ii) there is no restriction in the
Guaranty that provides the DSA's arbitration clause may not change; iii) in contrast the
Guaranty does fix the governing law as England and Wales independently of the DSA's
governing law.
Respondents' argument that the Guaranty prohibits amending its provisions without the
signature of all parties does not negate jurisdiction because i) the amendment of the
arbitration clause was to the DSA not the Guaranty; ii) the Guaranty specifically provided
that the DSA could be novated and amended;
iii) Petroleo Brasileiro was the principal negotiator of all novations and amendments to
the DSA.

¶¶116-117

Pre-Hearing
Response Brief
03.17.17

Pre-Hearing
Reply Brief
04.14.17

¶¶28, 42, 79-80,
124, Annex 1
(corrected)

Post-Hearing Brief
07.17.17

Post-Hearing
Response Brief
08.18.17

¶198

¶¶23-27

¶199

¶¶23-27

¶¶198, 200-205,
471

¶29

II. GOVERNING LAW

¶¶14-18

¶¶116-117

¶¶42, 44, 66, 77,
81-82, 101-107,
118-119

Because Claimants' claims arose during the Third Novation, the general maritime law of
the U.S. governs pursuant to Clause 24.1 of the DSA, as amended by Section 8.1 of the
Third Novation.

¶¶14-17

¶¶11, 71

¶¶42, 44, 66, 77,
81-82, 101-107,
118-119

¶30

¶¶200-205

¶29

¶¶81, 101-107

¶¶30-32

¶¶203-205

¶29

¶198

¶29

¶¶359, 209-214,
471

¶¶30-99

The law of England and Wales governs the question of whether the DSA is void or voidable
and subject to ratification, waiver, and estoppel if it were obtained by bribery, because the
law of England and Wales was the governing law at the time the DSA was entered in 2009
and when PVIS affirmed the DSA in 2013 and 2014 (through the execution of the
Second Novation, Third Amendment, and Fourth Amendment) with sufficient
knowledge of the alleged bribery.

¶18

Claimants' cause of action against Petroleo Brasileiro for breach of the Guaranty is
governed by the law of England and Wales under Section 3.4 of the Guaranty.

¶18

¶¶75-76

¶81

III. BREACH OF CONTRACT

¶¶1-126, 133-134,
146-148

¶¶65-76

¶¶1-37

¶¶69-72

A. Respondents materially breached the DSA, as amended and novated by the Third
Novation

¶¶1-8,56-94, 133134, 146-148

¶¶44-78

¶¶1-37

¶¶69-73

Respondents breached Clauses 4 and 15 of the DSA and Sections 3.7 and 10.5 of the Third
Novation, which provide for an 8-yr term and required day rates to be paid for the entire
term, by terminating the DSA only 2 years 9 months into the 8-yr term and refusing to pay
the day rate for the remaining term.

¶¶133-134, 146148

¶¶44-68

¶¶1-37

¶70

104

¶¶210-219, 227231, 244, 258, 262263, 340, 345
¶¶206-207, 210211

¶¶30-31

¶102

Vantage v. Petrobras
ICDR Case No. 01-15-0004-8503

Issue for
Decision

Response to
Second
Third Amended Demand for
Pre-Hearing
Amended
Arbitration 12.02.16
Brief
Answering
Statement and 02.17.17
Counterclaim
12.16.16

Pre-Hearing
Response Brief
03.17.17

Pre-Hearing
Reply Brief
04.14.17

Post-Hearing Brief
07.17.17

Post-Hearing
Response Brief
08.18.17

Respondents breached Clause 9 of the DSA and Sections 3.7 and 10.5 of the Third Novation,
which prohibits termination for convenience, by terminating the DSA only 2 years and 9
months into the 8-yr term for the purpose of cutting costs in Respondents' oil and gas
exploration business after the deterioration of market conditions.

¶¶133-134, 146148

¶¶44-68

¶¶1-37

¶70

¶¶211, 227

Respondents breached Clause 24.2 of the DSA as amended by Section 8.1 of the Third Novation by
refusing to provide required notice and to negotiate in good faith.

¶¶133-134, 146148

¶¶66-78

¶¶32-37

¶¶9-10, 70

¶¶211-214

Respondents breached Clause 9.3 of the DSA as amended by the Third Novation by unreasonably
refusing to accept Claimants' implemented and proposed cures for the operational issues that
Respondents used as their basis for terminating the DSA.

¶¶133-134, 146148

¶65

¶¶32-37

¶48

¶¶14-26, 3368

¶¶1-37

¶¶1-22

¶¶218-219

¶¶91-98

¶¶7-22

¶7, 13-15, 114, 145151, 172-175, 199,
207, 211, 214, 227231, 239, 258, 262263, 340

¶¶91-98

¶¶1-3, 7-22

¶¶6, 8-13, 99, 105106, 118-120, 212,
218-219, 233, 241258

B. Respondents failed to satisfy their burden to establish that they properly exercised their
termination rights under the DSA based on Claimants' performance under the contract
Respondents had the burden to prove Claimants' material breach of performance
requirements and that after proper notice Claimants had not implemented or proposed cures
that Respondents acted reasonably in rejecting. Respondents failed to satisfy this burden.

Respondents failed to demonstrate that the operational incidents on which Respondents based
the termination constituted material breaches of the DSA provisions, including Clauses 10.4.5,
13.2, 13.6.1, 13.7.2, and 27.1.5. Rather, the evidence demonstrated that: (i) the fluid loss events
were the result of Respondents' inadequate cementation job, which Respondents did not disclose
to Claimants, coupled with Respondents' deviations from approved plans of action and
ordering multiple operations that made fluid losses inevitable and difficult to detect; (ii)
Claimants had an outstanding record of detecting fluid losses; (iii) the fluid loss events were
not well control events; (iv) neither Respondents nor the regulators at BSEE viewed the fluid
loss events as serious at the time; (v) the gas sensor INC was an isolated incident that was not
viewed by BSEE as serious and did not indicate any systemic problems; and (v) Claimants
implemented and proposed cures that would have been acceptable to Respondents had they
been acting reasonably.

¶¶56
-94

¶¶56
-94

¶¶56
-94

105

¶¶48-70

¶¶48-70

¶¶32, 47, 49,
65,
68, 71, 75, 78

¶¶48-70

¶¶3, 43, 49-64,
6971, 78

¶¶32-37

¶¶1-37

¶¶218-219, 227231, 244, 258, 262263, 340, 345

¶¶2, 102

¶¶1-2, 29-31, 9095

Vantage v. Petrobras
ICDR Case No. 01-15-0004-8503

Issue for Decision

Respondents have not established a right to terminate the DSA under Clause 9.1.3 based on a repeated
failure by Claimants to perform in accordance with Good Oil and Gas Field Practices. Rather,
the evidence established that: (i) by every objective metric, Claimants' performance was excellent;
(ii) as Claimants' experts testified, Respondents could not reasonably expect to locate and engage a
safer contractor; (iii) for the reasons indicated above with respect to Articles 10.4.5, 13.2, 13.6.1,
13.7.2, and 27.1.5, the events at issue were not material; (iv) the incidents at issue did not reflect
systemic issues; and (v) Claimants implemented and proposed cures that would have been acceptable
to Respondents had they been acting reasonably.

Response to
Second Amended
Third Amended
Pre-Hearing Brief
Answering
Demand for
02.17.17
Statement and
Arbitration
Counterclaim
12.02.16
12.16.16

Pre-Hearing
Response Brief
03.17.17

Pre-Hearing
Reply Brief
04.14.17

Post-Hearing Brief
07.17.17

Post-Hearing
Response Brief
08.18.17

¶¶48-70

¶¶3, 31-32, 67-71

¶¶25-35

¶¶1-3, 7-22

¶¶12, 220-226, 227
231, 232-239

¶¶53-55

¶¶43, 47

¶¶12-19

¶1-2, 4

¶¶259-260

¶¶116-117

¶¶43, 47, 66

¶¶12-19

¶¶9-11

¶¶261-262

¶¶116-117

¶¶43, 47, 66

¶¶12-19

¶¶9-11

¶263

¶¶9-39

¶¶4-5, 72-74, 8296

¶¶38-73

¶¶23-68

¶¶264-315

¶¶3, 6, 32-90

Respondents had the burden to prove, with clear and convincing evidence, the following elements to
establish their common law bribery defense: (i) that payments were made to Petrobras officials; (ii)
with Claimants' knowledge; (iii) unbeknownst to Respondents; and (iv) for the purpose of
inducing, and in fact inducing, the DSA.

¶¶9-39

¶¶4-5, 82

¶¶38-66

¶¶33-64

¶264

¶¶51-57

Respondents failed to show that illicit payments were made.

¶¶18-31

¶¶83-85

¶¶61-65

¶¶58-64

¶¶265-273

¶¶53, 64-68

Respondents' evidence did not establish that Claimants knew of any illicit payments.

¶¶56-94

Incidents during the Chinook 5 campaign are irrelevant because the evidence established that
Respondents were satisfied with Claimants' performance on that campaign and the incidents were not
used as a basis for the termination of the DSA.
The sheared sub saver on the Chinook 6 campaign is irrelevant because it was caused by a
manufacturing defect and not subpar performance by Claimants, and the incident was not the subject
of any notice of default.
Near-miss incidents in the Chinook 6 campaign are irrelevant to termination because none of the
incidents was the subject of a notice of default, they were all cured to Respondents' apparent
satisfaction, and Respondents appeared to have abandoned them at the merits hearing and in their
post-hearing briefing.
C. Respondents failed to satisfy their burden of proof with respect to their common law defenses
based on alleged bribery and corruption

¶¶19-43, 95-128

¶¶91-98

¶¶21-31

¶¶83, 86-90

¶¶51-54

¶¶43-57

¶¶274-287

¶¶54-55, 64-68

Respondents failed to established Claimants' knowledge through the imputation of Mr. Padilha's or
Mr. Su's knowledge.

¶¶21-31

¶¶72-74, 83-84, 8690

¶¶51-54

¶¶54-57

¶¶288-292

¶55

Respondents failed to show that they were unaware of any payments.

¶¶32-35

¶¶91-95

¶¶55-60

¶¶36-37

¶¶293-300

¶¶3, 37-38, 53

Respondents failed to establish that any illicit payments induced the DSA, much less on terms to which
Respondents would not have otherwise agreed.

¶¶36-39

¶¶96

¶¶38-66

¶¶38-42

¶¶301-315

¶¶6, 45, 51-52, 6569

¶¶45-47

¶¶7-27, 72-75

¶¶33-64

¶¶340-356

¶¶3, 6, 32-90

D. Respondents failed to satisfy their burden of proof with respect to their contractual defenses
based on alleged bribery and corruption

¶¶35-126

106

Vantage v. Petrobras
ICDR Case No. 01-15-0004-8503

Issue for
Decision

Third Amended
Demand for
Arbitration
12.02.16

Respondents have not established a breach of Clauses 10.14.1, 10.14.2, or 10.14.3, because there is
no evidence that Claimants themselves ever made any payments, violated the FCPA, received any
request to violate the FCPA, or had knowledge of the alleged bribery scheme before press
reports to which
Respondents had equal access.

¶¶19-43, 95-128

Response to
Second Amended
Pre-Hearing Brief
Answering
02.17.17
Statement and
Counterclaim
12.16.16

Post-Hearing
Response Brief
08.18.17

¶¶85-87

¶¶341-350

¶¶53-55, 64-68

¶¶45-47

¶¶72-75

¶¶85-87

¶¶351-353

¶55

¶¶45-47

¶¶7-27, 72-75

¶¶85-87

¶356

¶¶51-57

¶¶45-47

¶¶72-75

¶90

¶354

¶¶16-47, 105-107,
116-117

¶¶76, 101-110

¶¶67-73

¶¶4, 23-29,
36-37

¶¶316-338; 357358

¶¶3, 31, 33-37, 4044, 53

¶16

¶¶101-107

¶¶74-81

¶¶30-32

¶¶318-330

¶¶41-44

¶¶40-47

¶¶108-110

¶¶67-69

¶¶36-37

¶¶331-338

¶¶33-37, 53

¶¶40-47

¶76

¶¶80-81

¶25

¶¶358

¶¶3, 31, 40

Respondents have not established a breach of Clause 10.21, because the evidence does not establish
a failure by Claimants to exercise reasonable care and diligence to avoid conflicts of interest.

Under applicable law, if the DSA had been procured through bribery, the DSA would be, at
most, voidable, not void. Because the first event constituting ratification, waiver and estoppel
occurred with the execution of the Second Novation, which is governed by English law, the void
vs. voidable issue is governed by English law; however, even if the federal maritime law
governing the Third Novation were to apply, the result would be the same--the DSA is at most
voidable, not void.
Respondents ratified, waived, and are estopped from asserting their bribery defenses because,
with sufficient knowledge after the publication of the Epoca article and their subsequent
audit of the allegations in the article: (i) they failed to act promptly and instead chose to
maintain the DSA and continue to accept the benefits of the DSA; (ii) repeatedly affirmed the
valid and binding nature of the DSA in novations and amendments; (iii) insisted on Claimants'
continued performance for nearly two years; and (iv) prejudiced Claimants by waiting to
pursue termination until market conditions deteriorated and Claimants lost any opportunity
to profitably redeploy the rig.

Post-Hearing
Brief 07.17.17

¶¶7-27, 72-75

Respondents have not established a breach of Clauses 10.20.4 or 10.15, because the evidence does
not show that Claimants failed to comply with laws related to corruption in performing their
obligations
under the DSA.

¶¶119-126

Pre-Hearing
Reply Brief
04.14.17

¶¶45-47

Respondents have not established a breach of Clauses 10.20.1, 10.20.2, or 10.20.3, because there is
no evidence that Claimants themselves were ever approached by an Illegal Information Broker
or that Hamilton Padilha ever acted as an Illegal Information Broker in his dealings with
Claimants.

E. Respondents' bribery defense fails because Respondents knowingly ratified the DSA,
waived any right they would have had to avoid, and are estopped from avoiding the DSA on
the basis of bribery by repeatedly affirming the valid and binding nature of the DSA and
insisting on Claimants' continued performance under the DSA after Respondents had
sufficient knowledge of the alleged bribery on which they have based their defense.

Pre-Hearing
Response Brief
03.17.17

¶¶119-126

Ratification, waiver and estoppel defeat Respondents' contractual defenses based on alleged
bribery despite the anti-waiver clause in the DSA because such clauses themselves can be
waived, which Respondents have done here by their repeated affirmations of the DSA and
insistence on performance.

107

Vantage v. Petrobras
ICDR Case No. 01-15-0004-8503

Issue for
Decision

Third Amended
Demand for
Arbitration
12.02.16

F. Respondents' bribery defense also fails because the Second Amendment and First
Novation formed a new agreement, untainted by bribery, for additional consideration.

Response to
Second Amended
Pre-Hearing Brief
Answering
02.17.17
Statement and
Counterclaim
12.16.16
¶¶116-117

¶¶38, 122

Pre-Hearing
Response Brief
03.17.17

¶59

Pre-Hearing
Reply
Brief
04.14.17

Post-Hearing
Brief 07.17.17

Post-Hearing
Response Brief
08.18.17

¶32

¶339

¶52

¶71

¶¶13-15, 145-151,
172-175, 202, 212214, 219, 227-231,
239, 471

¶¶2, 91-98

¶¶1-126, 135-136,
146-148

¶¶45-65, 77-78

¶¶135-136

¶77

¶¶1-95, 135-136,
146-148

¶¶45-48, 78

¶¶1-2, 12-19, 2037

¶¶12-22

¶¶212-214

¶¶2, 91-98

¶¶1-95, 135-136,
146-148

¶¶49-65

¶¶1-2, 23-24

¶¶3, 14-21

¶¶131-132, 214

¶¶91-95

Respondents breached the duty by unreasonably rejecting Claimants' proposed cures.

¶¶1-95, 135-136,
146-148

¶¶77-78

¶¶1-2, 32-37

¶11

¶¶13-15, 145-151,
172-175, 214, 219,
227-231, 239

¶¶92-95

V. PETROLEO BRASILEIRO BREACHED THE GUARANTY

¶¶1-8, 132, 146148

¶¶79-81

¶¶215-217, 471

¶¶1-8

¶¶132, 146-148

¶80

¶¶215-217

¶¶23-28

¶¶316-338, 362433, 471

¶¶99-112

IV. BREACH OF DUTY OF GOOD FAITH AND FAIR DEALING

Claimants' cause of action for the breach of the duty of good faith and fair dealing is
recognized under maritime law and federal common law generally, and is viable regardless
of whether Texas law implies
such a duty.
Respondents breached the duty by terminating the DSA on pretextual grounds.
Respondents breached the duty by making fluid losses inevitable and difficult to detect, and
thereby set up the incidents on which they purported to based the termination of the
DSA.

Petroleo Brasileiro is a primary obligor under the DSA and is responsible for the breaches of
the DSA.
VI. CLAIMANTS' DAMAGES
A. Claimants are entitled to an award of benefit-of-the-bargain damages of $560.2 million
(plus pre- and post-award interest)

¶¶4-19

¶202

¶¶133-148

¶¶116-117

¶¶77-78, 115-118,
124

¶99

¶¶80-88

¶¶133-136, 146148

¶¶116-117

¶¶77-78, 115-118,
124

¶99

¶¶80-81

¶¶316-338,362427, 471

¶¶80-81

¶¶362-367

Dr. Jacobs reasonably estimated Claimants' benefit-of-the-bargain damages by projecting
their profits for the remainder of the DSA term based on actual past profits and discounting
using Claimants' actual WACC and corroborating his calculation with sensitivity
analyses.

¶¶115-118, 124

Respondents improperly calculated profits during the proxy period used to project future
profits for
damages purposes.

¶¶115-118, 124

108

¶369

¶¶99-112

Vantage v. Petrobras
ICDR Case No. 01-15-0004-8503

Issue for
Decision

Third Amended
Demand for
Arbitration
12.02.16

Response to
Second Amended
Pre-Hearing Brief
Answering
02.17.17
Statement and
Counterclaim
12.16.16

Pre-Hearing
Response Brief
03.17.17

Pre-Hearing
Reply
Brief
04.14.17

Post-Hearing
Brief 07.17.17

Post-Hearing
Response Brief
08.18.17

Respondents' argument that profit projections should assume that Respondents would
have negotiated lower rates is unreasonable because Respondents did not in fact attempt to
renegotiate rates when the market declined and instead terminated the contract.

¶¶115-118, 124

¶370

Respondents' argument that Claimants' bankruptcy should reduce Claimants' real world costs
used in benefit of the bargain calculations should be rejected because i) the reduced debt is a
consequence of the economic impact of Respondents' breach and is not a cost associated
with the performance of the contract; ii) restructuring transferred losses within Claimants'
capital structure and are not costs in the benefit-of-the-bargain analysis.

¶¶115-118, 124

¶371

Respondents' argument that Claimants should have mitigated losses by re-leasing the
Titanium Explorer is contradicted by the economic evidence that there is massive market
overcapacity for years to come and testimony that Claimants did take reasonable steps to try
to re-lease the drill ship but to no avail.

¶¶115-118, 124

Respondents' argument that Claimants improperly included stacking costs in their real
world calculations is contradicted by Claimants' contemporaneous business records that
included stacking costs as operating costs and, in any event, Claimants' model understates
damages because it assumed the drill ship would have continued to operate under a cost
structure much higher than the stacking costs of an idle rig.

¶¶115-118, 124

¶375

¶¶105-106

Respondents argument that Claimants' damages should be reduced by the profits
Claimants transferred through a bareboat charter should be rejected because: i) profit
transfers are not costs that should be considered in benefit of the bargain damages; ii) purely
intercompany arrangements within a consolidated entity for tax compliance purposes are not
economic costs for calculating damages; iii) the charter arrangement was contemplated in the
DSA, which required Claimants to minimize taxes and benefit Respondents by
correspondingly lowering the rate they paid; iv) imputing a cost to Claimants for the use of
the Titanium Explorer is inappropriate because it would be a cost in both the actual and but
for worlds; v) payments by Claimants under the bareboat charter occur only if Claimants earn
a profit, therefore damages are calculated based on their loss of profits before they are
required to make any payments under the charter; vi) Respondents' argument would deprive
virtually every company in the offshore drilling industry of meaningful damages for breach
because transferring profits to affiliates a widely used tax management tool.

¶¶115-118, 124

¶¶376-412

¶108

109

—

¶¶109-110

¶374

Vantage v. Petrobras
ICDR Case No. 01-15-0004-8503

Issue for
Decision

Third Amended
Demand for
Arbitration
12.02.16

Response to
Second Amended
Pre-Hearing Brief
Answering
02.17.17
Statement and
Counterclaim
12.16.16

Pre-Hearing
Response Brief
03.17.17

Pre-Hearing
Reply Brief
04.14.17

Alternatively and with respect to arguments Respondents raised for the first time at the hearing,
should the Tribunal determine that the charter tax mechanism should be considered in
calculating damages, Claimants are entitled to direct benefit-of-the-bargain damages of $749.3
million, plus pre- and post- award interest, because Respondents would have been paying higher
day-rates as a result of Claimants' increased tax liability.

Post-Hearing
Brief 07.17.17

Post-Hearing
Response Brief
08.18.17

¶¶403, 471

B. Clause 19.9 of the DSA does not bar recovery of Claimants' direct, benefit-of-the-bargain
damages

¶¶116-118, 124

¶¶86-88

¶¶413-427

¶¶99-102

The clear and unambiguous language of Clause 19.9 excludes consequential damages but does not
exclude direct damages, such as the direct damages sought by Claimants in this arbitration.

¶¶116-118, 124

¶¶86-88

¶¶413-418

¶¶99-102

The Quicksilver case does not support a different construction of Clause 19.9's clear and
unambiguous language because: i) it is not binding authority; ii) it applies Oklahoma law that
does not apply here; iii) it does not address whether lost profits are characterized as direct or
consequential damages; iv) the contact language in Quicksilver appears no where in Clause 19.9;
and v) the court's reasoning has been rejected by numerous courts that have considered it.

¶¶419-424

Allocation of risk under the DSA does not support a different construction of Clause 19.9.
Claimants assumed substantial risk under the DSA, such as loss or damage to the $800 million
drillship, and correspondingly are entitled to direct lost profits damages where Respondents
breached the DSA.

¶117, 124

¶¶425-427

¶¶146-148

¶¶116-117

p. 2; Bozeman
Stmt. (J)¶118;
CE-355 at 1755-58

¶99

¶72

¶¶428-429

¶¶146-148

¶¶116-117

p. 2; Bozeman
Stmt. (J)¶118;
CE-355 at 1755-58

—

¶72

¶¶428-429

D. Claimants are entitled to pre- and post- award interest based on Claimants' weighted average
cost of capital (WACC)

¶¶146-148

¶¶116-117

¶¶123-124

¶99

Claimants are entitled to interest at their WACC of 15.2% because it reflects the time value of
money to the corporation. In addition, Respondents' expert Dr. Mannes testified that
WACC represents the interest on profits lost from not operating.

¶¶146-148

¶¶116-117

¶¶123-124

C. Claimants are entitled to $6.4 million (plus pre- and post-award interest) for unpaid invoices
for work performed
Claimants have established with documentary and testimonial evidence that Respondents failed
to pay
$6.4 million in invoices for work performed before Respondents wrongfully terminated the
DSA on August 31, 2015.

VII. RESPONDENTS HAVE FAILED TO ESTABLISH ANY RIGHT TO RECOVER ON THEIR
COUNTERCLAIMS

¶¶77-104, 116-117 ¶¶66-68, 14-26, 3365, 114

110

¶¶7, 101-102

¶¶430-433

¶¶430-433

¶¶82-98

¶¶434-469

¶111

Vantage v. Petrobras
ICDR Case No. 01-15-0004-8503

Issue for
Decision
The DSA is not unconscionable because it is not grossly one-sided or unenforceable on
policy grounds.

Third Amended
Demand for
Arbitration
12.02.16

Response to
Second Amended
Pre-Hearing Brief
Answering
02.17.17
Statement and
Counterclaim
12.16.16

Pre-Hearing
Response Brief
03.17.17

Pre-Hearing
Reply
Brief
04.14.17

Post-Hearing
Brief 07.17.17

¶¶116-117

¶114

¶¶82-83

¶¶435-437

Respondents failed to prove that Claimants knowingly assisted and substantially
participated in a breach of fiduciary duty.

¶¶78-79

¶114

¶84

¶¶438-441

Respondents failed to prove common-law fraud or fraudulent inducement because the
evidence does not establish a misrepresentation or reasonable reliance by Respondents.

¶¶80-81

¶114

¶¶85-87

¶¶442-443

Respondents failed to prove its RICO claim because the evidence does not establish conduct
of an enterprise through a pattern of racketeering activity nor any resulting injury to
Respondents.

¶¶88-89

¶114

¶¶88-89

¶¶65-66

¶446

¶¶82-83

¶114

¶91

—

¶¶450-451

¶¶90-91

¶114

¶89

¶¶65-66

¶453

¶¶84-87

¶114

¶¶1-37

¶¶7-22

¶454

¶¶92-93

¶114

¶92

¶¶65-66

¶455

¶¶99-100

¶114

¶93

¶79

¶456

¶¶94-95

¶114

¶94

¶¶65-66

¶457

¶¶1-47, 38, 96-98,
115-117

¶114

¶98

¶¶458-463

Respondents have failed to prove any entitlement to exemplary damages and in fact, the
DSA bars recovery of such damages.

¶¶96-98

¶114

¶95

¶464

Respondents have failed to prove any right to an offset because it has not established any
recoverable damages.

¶¶116-117

¶114

¶97

¶465

Respndents failed to prove negligent misrepresentation for the same reasons Respondents
have failed to establish a fraud claim.
Respondents failed to prove a conspiracy because the evidence does not establish Claimants'
knowing participation in any of the activity on which Respondents base the claim and
because or that Claimants
participated in any unlawful, overt acts.
Respondents failed to prove a breach of contract for the same reasons Respondents have
failed to establish that a material breach of the DSA supported their termination of the
contract.
Respondents failed to prove unjust enrichment or money had and received because the
claim is not recognized as a stand-alone claim and because Claimants have suffered
substantial losses and have not been enriched through the DSA because of its premature
and improper termination.
Respondents failed to prove any right to rescission for the same reasons its contractual
defenses fail.
Respondents failed to prove any right to a constructive trust because
Respondents have not established any fraud or breach of special trust or
fiduciary relationship by Claimants.
Respondents failed to prove damages because the evidence actually established that the DSA
was at market and, according to Respondents' own audit findings, did not cause
Respondents any injury.
Moreover, contrary to Respondents' suggestion, there is no evidence that the alleged
payment of bribes had any impact on the commercial terms of the DSA. Finally, to the
extent Respondents seek disgorgement, the evidence shows that Claimants have not been
enriched through the DSA because of its premature and improper termination.

111

Post-Hearing
Response Brief
08.18.17

¶111

Vantage v. Petrobras
ICDR Case No. 01-15-0004-8503

Third Amended
Demand for
Arbitration
12.02.16

Issue for
Decision

Respondents have failed to establish any right to recover fees or costs because the DSA
expressly provides that each party shall bear its own fees and costs.
VIII. DECLARATORY RELIEF

The DSA is valid and enforceable.
Respondents are estopped from denying enforceability of DSA, novations, and
amendments.
PVIS and PAI breached Clauses 9.2, 4.1, and 15 of the DSA and Sections 2.7 and 10.5 of the
Thrid Novation.

Response to
Second Amended
Pre-Hearing Brief
Answering
02.17.17
Statement and
Counterclaim
12.16.16
¶¶102-104

¶114

¶¶1-132, 146-148

¶¶2-6, 36-76, 79110, 113, 124

¶¶127-128

¶¶2, 4, 124
¶¶2, 5, 36-42, 9195, 108-110, 113

¶129
¶¶130-131

¶¶2-4, 6, 43-76, 82110

Pre-Hearing
Response Brief
03.17.17

Pre-Hearing
Reply Brief
04.14.17

¶96
¶69-72

¶132

IX. CLAIMANTS' AFFIRMATIVE DEFENSES TO RESPONDENTS' COUNTERCLAIMS

¶¶119-126, 137138, 146-148

112

¶¶82-84, 145-151,
172-175, 209-217,
264, 316-361, 471

¶¶23-27,30, 32-98,
112

¶¶38-65, 74-83

¶69

¶¶145-151, 172175, 209-217, 264,
359-361

¶30

¶¶67-73, 84

¶¶4, 2, 14-15, 2329, 36-37

¶¶82-84, 316-358

¶¶32-44

¶¶1-35

¶¶7, 8, 12-22

¶¶145-151, 172175, 209-211, 264,
359, 471

¶¶45-98

¶¶145-151, 172175, 212-214, 264,
360, 471

Petroleo Brasileiro is a proper party to the arbitration and liable under the Guaranty

Ratification - In each novation and amendment, Respondents, with knowledge of the
alleged corruption, reaffirmed to Claimants that the DSA was a legal, valid, and
enforceable contract. Through words and conduct, Respondents ratified any defects in
the formation of the DSA.

Post-Hearing
Response Brief
08.18.17

¶457

PVIS and PAI breached the duty of good faith and fair dealing..

Waiver - Respondents, with knowledge of the alleged corruption, for years affirmatively
chose to perform under, and demanded Claimants' performance under, the DSA.

Post-Hearing Brief
07.17.17

¶¶105-117

¶¶119-126

¶106

¶¶119-126

¶107

¶¶196-199, 215217, 361, 471

¶¶23-27

¶¶79-81

¶¶76, 108-110, 136
137, 168-172, 175176, 307-338

¶¶29-39

¶¶79-81

¶¶23-29

¶¶76, 108-110, 136
137, 168-172, 175176, 293-338, 443454, 458-69

¶¶29-39

¶¶79-81

¶¶23-29

¶¶79-81

—

¶¶36-42, 67, 7276, 90-96, 103-110,
114-115, Annex 1
(corrected)
¶¶67, 72-76, 108 110, 114-115
¶¶103-110, 114115

—

¶¶168-172, 175176, 316-338

¶¶29-39

Vantage v. Petrobras
ICDR Case No. 01-15-0004-8503
Response to
Second Amended
Third Amended
Pre-Hearing
Answering
Demand for
Brief
Statement and
Arbitration
02.17.17
Counterclaim
12.02.16
12.16.16

Issue for
Decision

Estoppel - Through words and conduct, Respondents failed to promptly exercise any right
they now claim they had to avoid the contract and repeatedly affirmed that the DSA was
valid and binding and insistent on Claimants' continued performance. Claimants
reasonably relied on Respondents affirmations of the DSA to their detriment by
performing under the DSA and refraining from pursuing other opportunities when the
market was booming.
Novation - Respondents, with knowledge of the alleged corruption, subsequently entered
into multiple novations of the DSA and each of the novations was a new contract,
untainted by any defects in the
formation of the DSA.
Acquiescence - For years, notwithstanding knowledge of the alleged corruption,
Respondents made implicit and explicit representations that the DSA and subsequent
novations and amendments were
legal, valid, and enforceable contracts.
Unclean Hands - Respondents condoned, if not outright directed, corruption within their
organization and were aware of the alleged illicit payments for years before asserting the
equitable relief they now seek. Respondents' conduct has been unconscientious, unjust,
marked by a lack of good faith, and has violated principles of equity and fair dealing.

113

Pre-Hearing
Response Brief
03.17.17

PreHearing
Reply
Brief
04.14.17

Post-Hearing Brief 07.17.17

¶¶119126

¶109

¶¶108-110,
¶¶114115

¶¶119126

¶108

¶¶114-115

¶¶443-454

¶¶119126

¶113

¶¶90-96,
114-115

¶¶320, 327-329

¶114

¶¶114-115

¶¶293-317

¶¶119126

¶¶79-81

¶¶168-169, 171,
175-176, 307-338

Post-Hearing Response
Brief 08.18.17

¶¶29-39

¶¶29-39

277a
Annex B. Respondents
On 8 December 2017, Respondents submitted the
following Summary of claims and defenses, along with
a PDF of “Awarding Language” which has not been
included below.
I. INTRODUCTION
1.
In accordance with the Tribunal’s November
28, 2017 request, Respondents submit the following
summary of its claims and defenses that remain for
decision in this matter, as well as the supporting
argument, evidence, and authorities from Respondents’
pre- and post-hearing briefing. Respondents expressly
incorporate herein by reference their pre- and posthearing briefing and are not waiving any claim or
defense stated therein. Respondents also note that
their Prehearing Brief fully incorporates Respondents’
Dispositive Motion. See J-850, R’s Prehearing Br. ¶ 2.
2.
Respondents welcome the opportunity to
answer any questions or provide any additional
briefing that the Tribunal might find helpful to its
deliberations.
II. RESPONDENTS’ CLAIMS AND DEFENSES
A. Claims and Defenses Arising from Vantage’s
Bribery and Corruption
3.
PAI and PVIS have alleged and proven a
variety of counterclaims and defenses arising from
Vantage’s bribery and corruption in securing the

278a
Contract.243 As explained in Appendix A to
Respondents’ Prehearing Brief, attached hereto, these
claims operate as both affirmative claims and defenses,
entitling Respondents to over $100 million in damages
or, alternatively, to a complete dismissal of Vantage’s
claims in this Arbitration. See R’s Posthearing Br.
¶¶ 292–94; R’s Posthearing Resp. Br. ¶¶ 202–04.
4.
Assisting and Participating in a Breach
of Fiduciary Duty. Through its various officers,
directors, and agents—including Nobu Su, Paul Bragg,
Hamylton Padilha, and John O’Leary—Vantage
knowingly or with conscious avoidance assisted, aided,
or facilitated breaches of fiduciary duty by Jorge Zelada
and Eduardo Musa by bribing them to allow Vantage
to obtain the Contract and continue it through the
Third Novation.

243

Capitalized terms used but not defined herein shall have the
meaning given to them in Respondents’ Second Amended
Answering Statement and Counterclaim.

279a
Identified in
Respondents’
Prehearing
Brief
• J-850, R’s
Prehearing
Br. ¶¶ 33–
36; App’x A
¶ 2.

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-847, R’s
Dispositive
Mot. ¶¶ 4–
71.

• R’s
Posthearing
Br. ¶¶ 22–
189; App’x
A & B.

• J-850, R’s
Prehearing
Br. ¶¶ 2–32;
33–36.
• J-852, R’s
Prehearing
Resp. Br.
¶¶ 3–28;
46–63.
• J-854, R’s
Prehearing
Reply Br.
¶¶ 1–60.

• R’s
Posthearing
Resp. Br.
¶¶ 46–87;
101–11;
188–89.

280a
5.
Common-Law Fraud and Fraudulent
In d u c em e n t . T hroug h v a ri ous m a teri a l
misrepresentations regarding its bribery and
corruption. Vantage fraudulently induced Respondents
to execute the Contract and continue it through the
Third Novation.
Identified in
Respondents’
Prehearing
Brief
• J-850, R’s
Prehearing
Br. ¶¶ 37–
46; App’x A
¶ 3.

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-847, R’s
Dispositive
Mot. ¶¶ 4–
71.

• R’s
Posthearing
Br. ¶¶ 22–
189; App’x
A & B.

• J-850, R’s
Prehearing
Br. ¶¶ 2–32;
37–50.
• J-852, R’s
Prehearing
Resp. Br.
¶¶ 3–28;
46–63.
• J-854, R’s
Prehearing
Reply Br.
¶¶ 1–60.

• R’s
Posthearing
Resp. Br.
¶¶ 46–95;
101–11;
190–93.

281a
6.
Negligent Misrepresentation. Vantage
made various false and material representations
regarding the bribery and corruption used to obtain the
Contract.
Identified in
Respondents’
Prehearing
Brief
• J-850, R’s
Prehearing
Br. ¶¶ 65–
66; App’x A
¶ 4.

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-847, R’s
Dispositive
Mot. ¶¶ 4–
71.

• R’s
Posthearing
Br. ¶¶ 22–
189; App’x
A & B.

• J-850, R’s
Prehearing
Br. ¶¶ 2–32;
65–66.
• J-852, R’s
Prehearing
Resp. Br.
¶¶ 3–28;
46–63.
• J-854, R’s
Prehearing
Reply Br.
¶¶ 1–60.

• R’s
Posthearing
Resp. Br.
¶¶ 46–95;
101–11;
197.

282a
7.
Violations of Civil RICO, 18 U.S.C.
§ 1962(c). Through their multiple acts of bribery,
Vantage and its officers, directors, shareholders, viceprincipals, and agents violated the civil RICO statute.
Identified in
Respondents’
Prehearing
Brief
• J-850, R’s
Prehearing
Br. ¶¶ 59–
60; App’x A
¶ 5.

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-847, R’s
Dispositive
Mot. ¶¶ 4–
71.

• R’s
Posthearing
Br. ¶¶ 22–
189; App’x
A & B.

• J-850, R’s
Prehearing
Br. ¶¶ 2–32;
59–60.
• J-852, R’s
Prehearing
Resp. Br.
¶¶ 3–28;
46–63.
• J-854, R’s
Prehearing
Reply Br.
¶¶ 1–60.

• R’s
Posthearing
Resp. Br.
¶¶ 46–95;
101–11;
195.

283a
8.
Conspiracy. Vantage and its officers,
directors, shareholders, vice-principals, and agents
conspired to obtain the Contract through bribery and
corruption.
Identified in
Respondents’
Prehearing
Brief
• J-850, R’s
Prehearing
Br. ¶¶ 61–
62; App’x A
¶ 6.

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-847, R’s
Dispositive
Mot. ¶¶ 4–
71.

• R’s
Posthearing
Br. ¶¶ 22–
189; App’x
A & B.

• J-850, R’s
Prehearing
Br. ¶¶ 2–32;
61–62.
• J-852, R’s
Prehearing
Resp. Br.
¶¶ 3–28;
46–63.
• J-854, R’s
Prehearing
Reply Br.
¶¶ 1–60.

• R’s
Posthearing
Resp. Br.
¶¶ 46–95;
101–11;
196.

284a
9.
Breach of Contract Arising from
Vantage’s Bribery and Corruption. Vantage’s
claims are barred and/or Vantage is liable to
Respondents based on Vantage’s multiple material
breaches and prior material breaches of the Contract,
including failure to satisfy its obligations under
Articles 10.1.1, 10.14.1–4, 10.15, 10.20.1–4, 10.21, and
10.23 of the Contract. Among other things, these
material breaches entitled PAI to terminate the
Contract under Articles 9.1.1.3 and 9.1.3.2.

285a

Identified in
Respondents’
Prehearing
Brief
• J-850, R’s
Prehearing
Br. ¶¶ 39–
42; 63–64;
App’x A
¶¶ 7; 14; 29.

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-847, R’s
Dispositive
Mot. ¶¶ 4–
71.

• R’s
Posthearing
Br. ¶¶ 22–
189; 196–
208; App’x
A & B.

• J-850, R’s
Prehearing
Br. ¶¶ 2–32;
39–42; 63–
64; 116.
• J-852, R’s
Prehearing
Resp. Br.
¶¶ 3–28;
46–63.
• J-854, R’s
Prehearing
Reply Br.
¶¶ 1–60.

• R’s
Posthearing
Resp. Br.
¶¶ 46–95;
101–11;
190–93.

286a
10.
Unjust Enrichment/Money Had and
Received. Alternatively, if Vantage’s conduct was not
fraudulent (which it was), Vantage’s conduct led to its
unjust enrichment and it would be fundamentally
unfair to allow it to retain benefits improperly obtained
through its fraud and corruption.
Identified in
Respondents’
Prehearing
Brief
• J-850, R’s
Prehearing
Br. ¶¶ 67–
69; App’x A
¶ 8.

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-847, R’s
Dispositive
Mot. ¶¶ 4–
71.

• R’s
Posthearing
Br. ¶¶ 22–
189; App’x
A & B.

• J-850, R’s
Prehearing
Br. ¶¶ 2–32;
67–69.
• J-852, R’s
Prehearing
Resp. Br.
¶¶ 3–28;
46–63.
• J-854, R’s
Prehearing
Reply Br.
¶¶ 1–60.

• R’s
Posthearing
Resp. Br.
¶¶ 46–95;
101–11;
198–200.

287a
11.
Constructive Trust. Vantage’s actual fraud
and unjust enrichment arising from the Contract
entitle Respondents to a constructive trust.
Identified in
Respondents’
Prehearing
Brief
• J-850, R’s
Prehearing
Br. ¶¶ 70–
71; App’x A
¶ 9.

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-847, R’s
Dispositive
Mot. ¶¶ 4–
71.

• R’s
Posthearing
Br. ¶¶ 22–
189; App’x
A & B.

• J-850, R’s
Prehearing
Br. ¶¶ 2–32;
70–71.
• J-852, R’s
Prehearing
Resp. Br.
¶¶ 3–28;
46–63.
• J-854, R’s
Prehearing
Reply Br.
¶¶ 1–60.

• R’s
Posthearing
Resp. Br.
¶¶ 46–95;
101–11;
201.

288a
12.
The Contract is Void, Voidable,
Unconscionable, and Must be Rescinded.
Alternatively, Respondents are entitled to dismissal of
Vantage’s claims because the Contract is void, voidable,
unconscionable, and must be rescinded because it was
procured through bribery.
Identified in
Respondents’
Prehearing
Brief
• J-850, R’s
Prehearing
Br. ¶¶ 47–
58; App’x A
¶¶ 10; 12.

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-847, R’s
Dispositive
Mot. ¶¶ 4–
71.

• R’s
Posthearing
Br. ¶¶ 22–
189; App’x
A & B.

• J-850, R’s
Prehearing
Br. ¶¶ 2–32;
47–58.
• J-852, R’s
Prehearing
Resp. Br.
¶¶ 3–28;
46–63.
• J-854, R’s
Prehearing
Reply Br.
¶¶ 1–60.

• R’s
Posthearing
Resp. Br.
¶¶ 46–95;
101–11;
194.

289a
13.
The Principals of Estoppel and
Ratification Bar Vantage from Accepting the
Benefits of the Contract Without Also Accepting
its Burdens. Vantage cannot enforce the Contract
without also ratifying the fraud and bribery used to
secure the Contract, a result barred by both governing
law and principles of equity.
Identified in
Respondents’
Prehearing
Brief

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-850, R’s
Prehearing Br.
App’x A ¶ 17.

• J-850, R’s
Prehearing
Br. App’x A
¶ 17.

• R’s
Posthearing
Br. ¶¶ 22–
194; App’x
A & B.

• J-852, R’s
Prehearing
Resp. Br.
¶¶ 29–30.
• J-854, R’s
Prehearing
Reply Br.
¶¶ 59–60.

• R’s
Posthearing
Resp. Br.
¶¶ 50–95.

290a
14.
Alternatively, Vantage’s Allegations of
Ratification, Waiver, Acquiescence, Unclean
Hands, and Equitable Estoppel Fail as a Matter of
Law. PAI and/or PVIS did not ratify Vantage’s bribery
and corruption, and their claims based on Vantage’s
illegal conduct are not waived or otherwise equitably
estopped.
Identified in
Respondents’
Prehearing
Brief
• J-850, R’s
Prehearing
Br. App’x A
¶¶ 12–13.

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-847, R’s
Dispositive
Mot. ¶ 73.

• R’s
Posthearing
Br. ¶¶ 52–
56; 158–82;
195.

• J-850, R’s
Prehearing
Br. App’x A
¶¶ 12–13.
• J-852, R’s
Prehearing
Resp. Br.
¶¶ 21–23;
60–63.
• J-854, R’s
Prehearing
Reply Br.
¶¶ 42–60.

• R’s
Posthearing
Resp. Br.
¶¶ 101–11.

291a
15.
Vantage’s Tort Claims Should be
Dismissed with Prejudice. Vantage sought to
withdraw its claims for fraudulent inducement,
negligent misrepresentation, and promissory estoppel
“without prejudice” the night before the merits hearing.
See K. Stern’s May 15, 2017 Letter to the Tribunal.
Notwithstanding Vantage’s eleventh-hour withdrawal,
these tort claims were included in Claimants’
Prehearing Brief, see J-849 ¶¶ 111–13, and are thus
subject to the Tribunal’s authority and res judicata
dismissal. See First Procedural Order ¶ 24. The
Tribunal should dismiss these claims with prejudice as
(a) voluntarily withdrawn, and (b) because these claims
fail as a matter of law for the many reasons
Respondents identified in their pre- and post-briefing.
Identified in
Respondents’
Prehearing
Brief

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-850, R’s
Prehearing
Br. App’x A
¶ 17.

• J-850, R’s
Prehearing
Br. App’x A
¶ 17.

• R’s
Posthearing
Br. ¶¶ 22–
194; App’x
A & B.

• J-852, R’s
Prehearing
Resp. Br.
¶¶ 44–45.

• R’s
Posthearing
Resp. Br.
¶¶ 50–95.

292a
B. Non-Bribery and Non-Operational Breaches of
the Contract
16.
Vantage materially breached the Contract by
making misrepresentations about its ownership of the
Titanium Explorer (Preamble), failing to disclose its
use of an Illegal Information Broker (Article 10.20.1–4),
and failing to perform an adequate background check
on Padilha as required by the Contract (Article 10.23).
Identified in
Respondents’
Prehearing
Brief

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-850, R’s
Prehearing
Br. ¶¶ 63–
64, 113–16,
120; App’x
A ¶¶ 7, 45,
51–52.

• J-850, R’s
Prehearing
Br. ¶¶ 63–
64, 113–16,
120; App’x
A ¶¶ 7, 45,
51–52.

• R’s
Posthearing
Br. ¶¶ 66–
68; 80–81;
101–09;
167–68;
200; 202–
03.

C. Claims and Defenses Arising from Vantage’s
Operational Failures
17.
PAI’s Termination of the Contract was
Valid and Proper. If Respondents are not granted
relief because of Vantage’s bribery and corruption,
Vantage’s claims still fail because PAI properly
terminated the Contract. Vantage—not
Respondents—have the burden to prove that PAI
wrongfully terminated the Contract and/or breached

293a
the Contract’s negotiation obligations. See R’s
Posthearing Response Br. ¶¶ 42–45. Vantage failed to
carry its burden on these issues. Indeed, Respondents
proved that PAI undertook all negotiations required by
the Contract and properly terminated the Contract
under Articles 9.1.1.3, 9.1.1.7, and 9.1.3.2 for
operational reasons on two grounds: (a) Vantage’s
material breaches of Articles 10.4, 10.19, 13.2, 13.6,
13.7, and 27.1, and (b) Vantage’s repeated failure to
comply with Good Oil and Gas Field Practices under
Articles 10.1.1 and 10.2. 244

244

As noted above, PAI also had valid grounds for termination
arising from Vantage’s bribery and corruption (see Respondent’s
Post-Hearing Brief, ¶¶ 196-208).

294a
Identified in
Respondents’
Prehearing
Brief

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-850, R’s
Prehearing
Br. ¶¶ 113–
20; App’x A
¶¶ 7; 14; 29.

• J-850, R’s
Prehearing
Br. ¶¶ 74–
120.

• R’s
Posthearing
Br. ¶¶ 238–
76.

• J-852, R’s
Prehearing
Resp. Br.
¶¶ 31–43.

• R’s
Posthearing
Resp. Br.
¶¶ 112–55.

• J-854, R’s
Prehearing
Reply Br.
¶¶ 61–98.

295a
18.
Vantage’s Good-Faith-and-Fair-Dealing
Claim Fails as a Matter of Law. To the extent
Vantage still seeks an award based on its good-faithand-fair dealing claim, that claim fails because it is
(a) barred by governing law, and (b) lacks any basis in
fact. PAI validly terminated the Contract due to
Vantage’s bribery and repeated failure to comply with
Good Oil and Gas Field Practices.
Identified in
Respondents’
Prehearing
Brief

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-850, R’s
Prehearing
Br. App’x A
¶ 20.

• J-850, R’s
Prehearing
Br. App’x A
¶ 20.

• R’s
Posthearing
Br. ¶¶ 36–
194; 238–
76.

• J-852, R’s
Prehearing
Resp. Br.
¶¶ 42–43.

• R’s
Posthearing
Resp. Br.
¶¶ 50–95;
112–55.

C. Remedies and Defenses Relating to Damages
19.
Vantage Failed to Offer a Valid Damages
Model. Vantage has the burden to submit a valid
damages methodology to satisfy an essential element of
its breach-of-contract claim. Vantage failed to satisfy
this burden, a fact highlighted by its decision to wholly
jettison over $1.3 billion in alleged reliance damages

296a
the day before the merits hearing began. See K. Stern’s
May 15, 2017 Letter to the Tribunal.
20.
Respondents have consistently urged the
Tribunal to dismiss Vantage’s claims because the two
Claimants named in this Arbitration “suffered no
compensable damages or injury” and cannot “identify
any damages incurred and proximately caused by the
conduct about which [they] claim[ed].” See R’s
Prehearing Br., App’x A ¶ 19. Respondents cited
multiple grounds for such a dismissal.
21.
First, Article 19.9 prevents Vantage from
recovering the damages it seeks. Id. at ¶ 19.
22.
Second, Vantage failed to submit a damages
methodology focusing only on the two named
Claimants. Id. at ¶¶ 19, 61. Vantage’s Prehearing Brief
identifies only two specific Claimants, not a collective
group of unnamed Vantage affiliates who were not
signatories to the Contract and bound by its arbitration
agreement. J-849 at 1. Further, the Claimants did not
allege recoverable losses for any alleged duties owed to
Vantage entities that are not parties to this Arbitration
(and any such losses would be consequential losses
barred by Article 19.9). Moreover, VDEEP cannot be
awarded any damages because it is not an operative
party to the Contract, as novated. See, e.g., R’s
Posthearing Br. ¶¶ 5–13.
23.
Third, Vantage’s damages methodology omits
the cost to use the Titanium Explorer, overstating its
alleged lost profits. J-850, R’s Prehearing Br. App’x A
¶¶ 19, 42, 61.

297a
24.
Fourth, Vantage fails to account for the
impact of its bankruptcy filing on its alleged damages.
Id.
25.
Finally, in the event the Tribunal determines
the named Claimants earned any profits under the
Contract, PAI and PVIS are entitled to disgorge over
$100 million of those profits and recover them from
Vantage in this Arbitration. J-850, R’s Prehearing Br.
¶ 123; App’x A ¶ 6.
26.
The same defects in Vantage’s damages
methodology bar any recovery of unpaid invoices at
issue under the lien filed by Vantage on February 26,
2016. This lien and its related state-court lawsuit are
improper, and Vantage should be ordered to dismiss,
release, and discharge them. See J-852, R’s Prehearing
Resp. Br. ¶¶ 76–79. Moreover, Vantage’s claim
regarding the lien appears nowhere in its Prehearing
Brief, which renders it invalid.245 See J-849. On this
basis alone, recovery of the unpaid invoices must be
denied. See First Procedural Order ¶ 24.

245

Vantage first cited the unpaid invoices in its Post-Hearing Brief,
in which it sought payment of $ 6.4 million in addition to the
direct, benefit-of-the-bargain damages requested in Vantage’s PreHearing Brief (see Claimants’ Post-Hearing Brief, ¶ 428).

298a

Identified in
Respondents’
Prehearing
Brief

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-850, R’s
Prehearing
Br. App’x A
¶¶ 19, 42,
61.

• J-847, R’s
Dispositive
Mot. ¶¶ 74–
75.

• R’s
Posthearing
Br. ¶¶ 277–
94.

• J-850, R’s
Prehearing
Br. ¶¶ 121–
22; App’x A
¶¶ 19, 42,
61.

• R’s
Posthearing
Resp. Br.
¶¶ 156–86.

• J-852, R’s
Prehearing
Resp. Br.
¶¶ 64–79.
• J-854, R’s
Prehearing
Reply Br.
¶¶ 99–117.

299a
27.
Respondents are Entitled to an Offset.
Any alleged amount owned to Vantage for work
performed but unpaid must be offset by
(a) disgorgement of Vantage’s ill-gotten profits, and
(b) any damages, fees, or costs awarded to
Respondents.
Identified in
Respondents’
Prehearing
Brief
• J-850, R’s
Prehearing
Br. ¶ 123.

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-850, R’s
Prehearing
Br. ¶ 123

• R’s
Posthearing
Br. ¶¶ 292–
94.
• R’s
Posthearing
Resp. Br.
¶¶ 184–86.

300a
28.
Respondents
are
Entitled
to
Exemplary/Consequential Damages for Vantage’s
Fraud. Because of the overwhelming evidence of
Vantage’s bribery, Respondents are entitled to
exemplary/consequential damages.
Identified in
Respondents’
Prehearing
Brief

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-850, R’s
Prehearing
Br. ¶¶ 72–
73; App’x A
¶ 11.

• J-850, R’s
Prehearing
Br.
¶¶ 72–73.

• R’s
Posthearing
Br. ¶¶ 292–
94.
• R’s
Posthearing
Resp. Br.
¶¶ 184–86.

301a
29.
Respondents are Entitled to an Award of
Their Attorneys’ Fees and Costs. Respondents are
entitled to their fees and costs because Claimants
breached Article 24.2, as amended by the Third
Novation, by filing this Arbitration without first
engaging in “direct negotiations in good faith.”
Identified in
Respondents’
Prehearing
Brief

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-850, R’s
Prehearing
Br. p. 47;
App’x A ¶ 7.

• J-850, R’s
Prehearing
Br. p. 47;
App’x A ¶ 7.

• R’s
Posthearing
Br. p. 105

• J-852, R’s
Prehearing
Resp. Br. p.
33.
• J-854, R’s
Prehearing
Reply Br. p.
47.

• R’s
Posthearing
Resp. Br. p.
76.
• Aff. of
William M.
Katz in
Support of
R’s Request
for Legal
Fees and
Expenses
¶¶ 4–5.

302a
E. Issues Regarding the Proper Parties in this
Arbitration
30.
PAI and VDDI are proper parties to this
Arbitration. However, the Tribunal must decide several
issues relating to its jurisdiction over VDEEP (a/k/a
VDC), Petrobras Brazil, and PVIS.
31.
Only PAI and VDDI are Proper Parties
for Vantage’s claims; PVIS and Petrobras Brazil
are not Proper Respondents in this Arbitration.
Because PAI and VDDI were the only parties to the
Contract when it was terminated, they are the only
proper parties for the claims alleged by Claimants in
this Arbitration. No relief can be awarded against
Petrobras Brazil because (a) the Tribunal lacks
jurisdiction over Petrobras Brazil, and (b) Petrobras
Brazil is not liable under the Guaranty as a matter of
law. Likewise, PVIS was not a party to the Contract
when it was terminated, and there is no basis for it to
be liable for the claims alleged by Claimants.
Identified in
Respondents’
Prehearing
Brief

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-850, R’s
Prehearing
Br. App’x A
¶¶ 15–16;
18–19.

• J-850, R’s
Prehearing
Br. App’x A
¶¶ 15–16;
18–19.

• R’s
Posthearing
Br. ¶¶ 5–19.

303a
32.
Both PAI and PVIS are Proper CounterClaimants; Both VDEEP and VDDI are Proper
Counter-Defendants. Both PAI and PVIS are proper
Counter-Claimants because they have claims arising
from their time as the operative entities under the
Contract. Likewise, both VDDI and VDEEP are proper
Counter-Defendants for the counterclaims alleged by
PAI and PVIS.
33.
Parties not Present in the Arbitration
are not Proper to Consider. Vantage has improperly
sought damages on behalf of entities that are not
present in this Arbitration and with whom
Respondents never agreed to arbitrate. Any alleged
losses for such entities must be disregarded.
Identified in
Respondents’
Prehearing
Brief

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-850, R’s
Prehearing
Br. App’x A
¶¶ 15–16;
18.

• J-850, R’s
Prehearing
Br. App’x A
¶¶ 15–16;
18.

• R’s
Posthearing
Br. ¶¶ 5–14;
20–21.

304a
F. Issues Regarding the Governing Law
34.
The Tribunal Must Apply Maritime Law,
as Supplemented by Texas Law. The Third
Novation—the operative Contract in this
Arbitration—mandates that the Tribunal apply
maritime law, as supplemented by Texas law, to the
claims and defenses arising from Vantage’s bribery and
corruption and its operational failures under the
Contract. The laws of England and Wales have no
bearing on these issues. Even if English law somehow
applied, Vantage has never alleged that the Contract is
ambiguous, and thus English law cannot apply to
determine the parties’ mutual intent. Instead, English
law applies only to Vantage’s claims against Petrobras
Brazil under the Guaranty—claims which fail because
(a) the Tribunal lacks jurisdiction over Petrobras
Brazil, and (b) Petrobras Brazil is not liable under the
Guaranty as a matter of law.
Identified in
Respondents’
Prehearing
Brief
• J-850, R’s
Prehearing
Br. ¶ 5 n.2
App’x A
¶ 15.

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-847, R’s
Dispositive
Mot. ¶ 46.

• R’s
Posthearing
Br. ¶ 22.

• J-850, R’s
Prehearing
Br. ¶ 5 n.2
App’x A
¶ 15.

• R’s
Posthearing
Resp. Br.
¶¶ 5–29.

305a
35.
Preponderance of the Evidence is the
Relevant Standard of Proof. Contrary to Vantage’s
argument, Respondents’ claims and defenses are
governed by the preponderance standard under
governing maritime and Texas law.
Identified in
Respondents’
Prehearing
Brief
• J-850, R’s
Prehearing
Br. ¶ 5 n.2.

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

• J-850, R’s
Prehearing
Br. ¶ 5 n.2.

• R’s
Posthearing
Br. ¶¶ 23–
35.

• J-852, R’s
Prehearing
Resp. Br.
¶¶ 26–28.

• R’s
Posthearing
Resp. Br.
¶¶ 46–49.

306a
36.
Respondents have not Asserted a
Generic “Bribery” Defense. Vantage procured the
Contract through an illegal bribery scheme, which
renders the Contract void ab initio. Vantage’s so-called
“bribery” defense appears nowhere in Respondents’
pleadings and conflicts with the governing law that
applies under the Third Novation.
Identified in
Respondents’
Prehearing
Brief

Supporting
Argument and
Evidence from
Prehearing
Briefing

Supporting
Argument and
Evidence from
Posthearing
Briefing

1. J-850, R’s
Prehearing
Br. ¶ 5 n.2.

• R’s
Posthearing
Resp. Br.
¶¶ 39–41.

J-852, R’s
Prehearing
Resp. Br.
¶¶ 26–28.
III. CONCLUSION

For the reasons stated above and those stated in
earlier briefing and during the merits hearing, Vantage
cannot recover on any of its claims, and PAI and PVIS
can recover on their affirmative claims and are entitled
to an award of damages, attorneys’ fees, pre- and postjudgment interest, costs, and expenses, in excess of
$100 million.

307a

APPENDIX F
Arbitrator James M. Gaitis’ Objection to, and
Dissent from, the Tribunal Majority’s Final
Award
Case No. 01-15-0004-8503
I object to, and I dissent from, the tribunal
majority’s Final Award.1 This Objection and Dissent is
based not only on my differing conclusions regarding
the merits of the parties’ dispute, but also on my belief

1

In keeping with advice I have long-endorsed relating to the
conduct of domestic and international commercial arbitrations in
the United States, this Objection and Dissent is intended simply
to generally advise the parties of the generic reasons why I cannot
join in the Final Award. See The College of Commercial Arbitrators
Guide to Best Practices in Commercial Arbitration (James M..
Gaitis et al. eds. JURIS 4th ed. 2017) at 322 (stating that when
arbitrators issue dissenting opinions they should do so
“dispassionately and discreetly”); The College of Commercial
Arbitrators Guide to Best Practices in Commercial Arbitration
(James M. Gaitis et al. eds. JURIS 3rd ed. 2013) at 249 (same); The
College of Commercial Arbitrators Guide to Best Practices in
Commercial Arbitration (James M. Gaitis et al. eds. JURIS 2nd ed.
2010) at 184 (same). I emphasize that the brevity of this Objection
and Dissent and the fact that I have not participated in the
drafting of the tribunal majority’s Final Award should not be
interpreted to mean that I agree with any particular
representation made in the Final Award, regardless of whether the
pertinent representation pertains to the relevant substantive facts,
the applicable law, or the procedural events (and nonevents)
leading up to the issuance of the Final Award and this Objection
and Dissent.

308a
and conclusion that the prehearing, hearing, and
posthearing processes that led to the issuance of the
Final Award have denied the Respondents in this
proceeding the fundamental fairness and due process
protections meant to be provided to arbitrating parties
by Sections 10(a)(1), 10(a)(2), 10(a)(3), 10(a)(4), and
Chapters 2 and 3 of the Federal Arbitration Act, 9
U.S.C. §1, et seq.
Dated this 28th day of June, 2018
Houston, Texas, USA
/s/ James M. Gaitis
James M. Gaitis
Arbitrator

309a

APPENDIX G
United States Court of Appeals
for the Fifth Circuit
No. 19-20435
[Filed: August 28, 2020]
_______________________________________
VANTAGE DEEPWATER COMPANY;
)
VANTAGE DEEPWATER DRILLING,
)
INCORPORATED,
)
)
Plaintiffs—Appellees,
)
)
versus
)
)
PETROBRAS AMERICA, INCORPORATED;
)
PETROBRAS VENEZUELA INVESTMENTS & )
SERVICES B.V.; PETROLEO BRASILEIRO
)
S.A.-PETROBRAS,
)
)
Defendants—Appellants. )
_______________________________________)
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:18-CV-2246
ON PETITION FOR REHEARING
AND REHEARING EN BANC
(Opinion 7/16/20, 5 CIR., ________ , ________ F.3D
________ )

310a
Before SOUTHWICK, COSTA, and DUNCAN, Circuit
Judges.
PER CURIAM:
(X )

The Petition for Rehearing is DENIED and no
member of this panel nor judge in regular active
service on the court having requested that the
court be polled on Rehearing En Banc, (FED. R.
APP. P. and 5TH CIR. R. 35) the Petition for
Rehearing En Banc is also DENIED.

()

The Petition for Rehearing is DENIED and the
court having been polled at the request of one of
the members of the court and a majority of the
judges who are in regular active service and not
disqualified not having voted in favor, (FED. R.
APP. P. and 5TH CIR. R. 35) the Petition for
Rehearing En Banc is also DENIED.

()

A member of the court in active service having
requested a poll on the reconsideration of this
cause En banc, and a majority of the judges in
active service and not disqualified not having
voted in favor, Rehearing En Banc is DENIED.

